<html>
<title> - OVERSIGHT HEARING: VA OUTREACH TO MEMBERS OF THE NATIONAL GUARD AND RESERVES</title>
<body><pre>[Senate Hearing 110-796]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-796

  OVERSIGHT HEARING: VA OUTREACH TO MEMBERS OF THE NATIONAL GUARD AND 
                                RESERVES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2008

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                  U.S. GOVERNMENT PRINTING OFFICE
43-861                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Larry E. Craig, Idaho
Bernard Sanders, (I) Vermont         Kay Bailey Hutchison, Texas
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Johnny Isakson, Georgia
Jon Tester, Montana                  Roger F. Wicker, Mississippi
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director

















                            C O N T E N T S

                              ----------                              

                             July 23, 2008
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Tester, Hon. Jon, U.S. Senator from Montana......................     2
Murray, Hon. Patty, U.S. Senator from Washington.................     3
Sanders, Hon. Bernard, U.S. Senator from Vermont.................     3

                               WITNESSES

Mathewson-Chapman, MG Marianne, Ph.D., ARNP, U.S. Army (Ret.), 
  National Guard And Reserve Coordinator, Office Of Outreach To 
  Guard And Reserve Families, Veterans Health Administration, 
  Department of Veterans Affairs.................................     6
    Prepared statement...........................................     8
    Response to questions arising during the hearing from Hon. 
      Patty Murray...............................................    25
Mayes, Bradley G., Director, Compensation and Pension Service, 
  Veterans Benefits Administration, Department of Veterans 
  Affairs........................................................    14
    Prepared statement...........................................    16
Nelson, Donald L., Director, Yellow Ribbon Reintegration Program, 
  Department of Defense..........................................    19
    Prepared statement...........................................    21
Scotti, Joseph R., Ph.D., Professor of Psychology, West Virginia 
  University, Morgantown, WV.....................................    32
    Prepared statement...........................................    34
Livingston, COL Bradley A., Director of the Joint Staff, Montana 
  National Guard.................................................    39
    Prepared statement...........................................    41
Boyd, LTC John C., Deputy Chief of Staff for Personnel, Vermont 
  Army National Guard............................................    44
    Prepared statement...........................................    47
Meredith, SGT Roy Wayne, Team Leader, Maryland Army National 
  Guard..........................................................    51
    Prepared statement...........................................    53
Rasmussen, MAJ Cynthia M., RN, MSN, CANP, Combat Stress Officer, 
  Sexual Assault Response Coordinator, 88th Regional Readiness 
  Command........................................................    54
    Prepared statement...........................................    57

                                APPENDIX

Lucey, Kevin and Joyce, Parents of Cpl. Jeffrey Michael Lucey, 
  USMC Reservist; prepared statement.............................    73
    Addendum.....................................................    74
Kerr, Pat Rowe, State Veterans Ombudsman, Missouri Veterans 
  Commission; prepared statement.................................    75

 
  OVERSIGHT HEARING: VA OUTREACH TO MEMBERS OF THE NATIONAL GUARD AND 
                                RESERVES

                              ----------                              


                        WEDNESDAY, JULY 23, 2008

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SR-418, Russell Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Committee, presiding.
    Present: Senators Akaka, Rockefeller, Murray, Tester, and 
Sanders.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The Committee on Veterans' Affairs will 
come to order.
    I want to welcome all of you here today, and particularly 
our witnesses. Today, the Committee will look at the 
effectiveness of VA's outreach to members of the National Guard 
and the Reserves who have been mobilized and deployed to Iraq 
and Afghanistan.
    The Committee has held multiple hearings on VA benefits, 
health care, and services. However, this is the first time we 
are specifically focusing on the unique challenges confronting 
members of the Guard and the Reserves.
    In my own State of Hawaii, over 5,000 members of the Guard 
and Reserve have been deployed. The Hawaii National Guard is 
currently in the midst of its second deployment to Iraq, and 
over 85 percent of those mobilized are already combat veterans. 
It is important that these soldiers and all Reservists know 
that VA will be there for them when they return.
    After years of war, we appreciate that there are distinct 
challenges facing the reintegration of these citizen 
servicemembers. Unlike their active duty counterparts, Guard 
and Reserve veterans must transition from their civilian life 
and employment to active military service and back again.
    Despite VA's best efforts to conduct outreach to this 
population, it seems clear that some are still unaware of all 
that VA has to offer, and how to access those services and 
those benefits.
    I am concerned about the results from a recent VA IG report 
that shows that in 2006, VBA failed to send benefits packages 
to over 36,000 Reservists. VA employees mistakenly thought 
these Reservists were ineligible for these benefits. One would 
have thought that, after years of war, this process would be 
perfected.
    I am also concerned about how VA reaches out to members of 
the Individual Ready Reserve, and those who are discharged 
after their deployment. These veterans may have the benefit of 
a unit support during their reintegration.
    I am pleased that, beginning this fall, VA will resume 
using public service announcements and advertising. These 
announcements will provide another means to reach an entire 
veterans' population.
    More work needs to be done without question. I hope that 
both of our panels will shed some light on why we continue to 
hear from veterans that they just did not know about their 
eligibility for VA benefits and services. We need to know how 
VA and Congress can help bridge this information gap. This is 
particularly important for those who suffer from the invisible 
wounds of this war and may need more help readjusting to their 
civilian lives.
    I hope today's witnesses will provide us with a real sense 
of what the next steps are, so that no member of the Guard and 
Reserves is unaware of their eligibility and the benefits 
available to them.
    Are there further statements? Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    Chairman Akaka. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I appreciate you 
having this hearing. I also want to thank the witnesses for 
being here today, especially those National Guardsmen who will 
testify on the second panel. I want to thank you for being 
here, and thank you for your service. I think it means a lot to 
have you here today and to have you visit with us about what is 
going on from a Guard perspective.
    I particularly want to welcome Colonel Brad Livingston from 
the Montana National Guard. I was just doing a little math this 
morning in my head; I have known Brad for almost 35 years. It 
is good to have you here; it is good to have you back in 
Washington.
    I look forward to a good discussion this morning with the 
folks from the DOD and the VA about what Montana and other 
States represented here have done to take care of their 
Guardsmen. I hope we can get some agreement from the DOD and 
the VA that some of these ideas can be standardized and 
implemented in the Reserves and across State Guard units.
    Members of the Guard and Reserve still face some pretty 
unique challenges when it comes to demobilization. After 
deployment that can last longer than a year, we give these 
folks a new mission: getting back to their civilian lives in 
just 1 week. That is 1 week to trade in a rifle for a civilian 
job. That is 1 week to try to put aside patrols and convoys for 
parenthood and car pools.
    When the resumption of civilian life happens in a small 
town hundreds of miles away from anybody else who knows what 
that soldier is going through, that can make a mission every 
bit as tough as the missions they have executed in Iraq or 
Afghanistan.
    The good news is that part of what makes our military so 
strong is it is composed of citizen soldiers who find a way to 
do anything that is asked of them, but we need to do a better 
job of helping those folks accomplish the demobilization 
mission. To do that, we need to use every tool in the toolbox, 
and that is why I am so pleased that we have a number of State 
Guard units represented today to talk about what has worked 
and, quite frankly, what has not for their Guardsmen.
    The Montana National Guard has done some pretty interesting 
stuff when it comes to making the demobilization process work 
better for its troops. They have been great leaders on this 
issue, and there is a real credit given to Adjutant General 
Randy Mosley and a credit given to Colonel Livingston and his 
team.
    I am proud that my State has been a leader on the issue, 
but I do think we need to remember something about Montana's 
experience. It took a tragic suicide in 2007 of a young 
Guardsmen named Chris Dana for folks to understand the scope of 
this problem. We must not forget about the death of Specialist 
Dana, or the fact that we have lost far too many veterans to 
suicide since the Afghanistan and Iraq wars were begun.
    So, let me just say again how important this hearing is, 
and how important it is that we get this issue right. Our 
Reservists, our Guardsmen, and their families are counting on 
us for some results. I want to thank you all.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Tester.
    Senator Murray.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Chairman Akaka, for 
holding today's hearing on how the VA is responding to the 
needs of our members of the National Guard and Reserve when 
they return.
    Of the more than 800,000 Iraq and Afghani veterans that are 
eligible for VA care since 2002, fully half of them are members 
of the National Guard and Reserve. And unlike our active duty 
troops who come home from battle to a military base and built-
in support network, many of our Guard and Reserve members leave 
the battlefield and return home to family pressures and 
civilian jobs almost immediately; and unfortunately, many of 
them do have trouble making that transition.
    The skills that helped them deal with the horrific 
experiences they had on the battlefield often make it harder 
for them to return to everyday life. And unlike active duty 
troops, Guard and Reserve soldiers often live in remote rural 
areas in our States, and it makes it even more difficult for 
them to get access to the services and the benefits that they 
have earned.
    Now, the VA has targeted outreach programs in place to help 
these servicemembers, but we still, I think, today, miss far 
too many of our veterans who need help and really are not aware 
of the services and benefits they earned.
    The VA Inspector General issued a report late last week 
that reaffirmed that problem. It found that the VA failed to 
meet its statutory responsibility to inform new veterans of 
their benefits. In fact, that IG report found that the VA 
failed to send initial outreach letters to more than 65,000 
Iraq and Afghanistan veterans--more than half of them Guard and 
Reserve members.
    But really, the challenges go beyond outreach. The 
Department of Defense has found that members of the National 
Guard who were deployed to Iraq and Afghanistan are 25 percent 
more likely to suffer a combat-related psychological wound than 
our active duty soldiers who have been deployed. And we all 
know that members of the Guard and Reserve are twice as likely 
to have their VA claim denied than active duty servicemembers.
    This coming fall, I have 2,900 members of the Washington 
State National Guard who are going to be deployed to Iraq. They 
are in training right now, and I want to make sure that, as we 
take care of these men and women while they are serving us 
overseas it is equally important that we have the services in 
place when they come home a little over a year from now.
    So, this is an issue very important to me, Mr. Chairman, 
and I really appreciate the work of this Committee as we focus 
on this today.
    Thank you.
    Chairman Akaka. Thank you. Thank you very much, Senator 
Murray.
    Senator Sanders.

              STATEMENT OF HON. BERNARD SANDERS, 
                   U.S. SENATOR FROM VERMONT

    Senator Sanders. Thank you very much, Mr. Chairman, for 
holding this hearing. Let me just begin by saying that I concur 
with your remarks and those of Senator Tester and Senator 
Murray.
    I am delighted that we are going to be hearing later on 
from Colonel John Boyd who is the Deputy Chief of Staff for 
Personnel for the Vermont Army National Guard, who is going to 
testify about Vermont's veterans and family outreach program.
    Let me also welcome Major Randy Gates, who is the State 
Family Program Director--Family Readiness Program of the 
Vermont National Guard, who has joined Colonel Boyd here today.
    Mr. Chairman, as I think you have heard from other Members, 
what we all understand is that if we have the best services 
available, which we want, for those who are returning from Iraq 
and Afghanistan, it does not mean anything if these people do 
not know that the services are available. That is the bottom 
line, and I think it is pretty clear that, up to now, we have 
not done the kind of job on outreach to our veterans that we 
should have.
    And as I think you have heard from both Senator Tester and 
Senator Murray, both who come from rural States, when you have 
members of the National Guard who come from States as we do in 
Vermont where there are 500 people or 1,000 people in a town, 
sometimes you can get isolated. And the concern that we have is 
that somebody goes over and serves in Iraq, serves in 
Afghanistan, they come back home, they go to a small town, they 
have a whole lot of problems. The nature of PTSD, the nature of 
TBI, is not such that you jump up and say, hey, I have got a 
problem. That is not the nature of that illness.
    So how, in a dignified and respectful way, do you reach out 
to men and women in isolated areas, in rural areas, make them 
aware of the programs that we are developing, make sure that 
these programs are effective as they can be? How do you bring 
those people in?
    A couple of years ago, working with the Vermont National 
Guard and the Veterans Administration, we developed what we 
think is a pretty good program in the State of Vermont by which 
we are reaching out now to veterans and their families. We are 
knocking on doors, we are calling our people all over the State 
of Vermont. We are trying to make sure that nobody is left 
behind.
    And I think what is good about this hearing--and I will be 
jumping in and out, Mr. Chairman; I have got another hearing 
simultaneously, but I will be back--is it is important for us 
to learn what different States are doing. We can all learn from 
each other. There is good work going on around the country, I 
know, in Montana, Minnesota, elsewhere. We are doing good stuff 
in Vermont. Let's see what works; let's see what does not work.
    The current military situation presents some unique 
problems with TBI, with the number of cases of PTSD. I think 
everybody here is increasingly aware that we need better 
cooperation between the VA and National Guard. You cannot have 
these walls.
    The other thing, I think, we are also increasingly aware of 
is, that if a soldier goes over and leaves a wife or a kid 
home, you cannot ignore the wife and the kid. This is not just 
a soldier problem, this is a family problem. We have got 
hundreds of thousands of kids who have seen their parents go 
over, and we have got to deal with this as a family unit, and 
if it means making changes in the rules--things are different 
today than they were 30 years ago. We have got to deal with the 
whole family.
    So, there is a lot to learn. I think we are making some 
progress. We have got a long way to go. And I thank you very 
much, Mr. Chairman, for holding this hearing.
    Chairman Akaka. Thank you very much, Senator Sanders.
    I would like to invite the first panel to please come up: 
General Chapman, Mr. Mayes, and Mr. Nelson.
    We have two excellent panels. I would like to thank all of 
our witnesses again for being here today.
    In our first panel, I would like to welcome Major General 
Marianne Mathewson-Chapman, United States Army, Retired. Major 
General Chapman is the National Guard and Reserve Coordinator 
in the Office of Outreach to Guard and Reserve Families for the 
Veterans Health Administration, Department of Veterans' 
Affairs.
    I would also like to welcome Mr. Brad Mayes, the Director 
of the Compensation and Pension Services for the Veterans 
Benefits Administration in the Department of Veterans' Affairs.
    Finally, I want to welcome Mr. Donald Nelson, the Deputy 
Assistant Secretary for Reserve Affairs in the Department of 
Defense.
    We look forward to hearing from each of you, and your full 
statements will appear in the record.
    Major General Mathewson-Chapman, we will begin with you. If 
you would please give your statement.

  STATEMENT OF MARIANNE MATHEWSON-CHAPMAN, Ph.D., ARNP, MAJOR 
     GENERAL, U.S. ARMY (RET.), NATIONAL GUARD AND RESERVE 
COORDINATOR, OFFICE OF OUTREACH TO GUARD AND RESERVE FAMILIES, 
 VETERANS HEALTH ADMINISTRATION, DEPARTMENT OF VETERANS AFFAIRS

    Major General Mathewson-Chapman. Good morning, Mr. Chairman 
and Members of the Committee. Thank you for inviting me to 
speak about outreach and the cooperation between the Department 
of Veterans Affairs, Department of Defense, the National Guard, 
and the Reserves.
    I am joined today, as you just mentioned, by Mr. Bradley 
Mayes, Director of C&P Service for the Veterans' Benefits 
Administration. My written statement, which I request be 
submitted for the record, discusses VA's four major outreach 
efforts throughout the deployment cycle for members of the 
National Guard and Reserve, from pre-deployment to lifelong 
contact for health care and benefits.
    This statement, along with Mr. Mayes' testimony, are 
replete with descriptions of proactive VA outreach initiatives 
executed to meet the complex challenges of the National Guard 
and Reserves reintegrating home to their communities. War 
changes us all, and that includes the families; and VA has 
stepped up to meet this challenge.
    The following are four critical outreach initiatives and 
their stories that demonstrate the immediate impact on the 
Guard and Reserve as they transition from active duty to 
veterans. These initiatives demonstrate VA's critical outreach 
support in four areas: enrollment in health care during the 
mandatory briefings at the demobilization process; enrollment 
and referrals during the post-deployment health reassessment 
for Guard and Reserve members; and then reaching out to Guard 
and Reserve members through the combat veteran initiative; and 
finally, our partnership with the National Guard with the use 
of the transition assistance advisors.
    I would first like to illustrate the impact of VA outreach 
and enrollment at the demobilization sites. Since May 2008, VA 
has contacted over 4,000 Army soldiers at 12 Army 
demobilization sites to provide not only enrollment, but health 
care briefings and benefits briefings. We have been able to 
enroll 83 percent of them in VHA health care.
    At a recent event a female soldier was sitting in the 
audience otherwise composed entirely of men. VA staff members 
assisted all demobilizing soldiers in completing the 10-10EZ 
enrollment form for health care as part of their standard 
presentation. During the break, the female asked if VA really 
had a women's clinic. After being assured we do, the woman 
expressed her excitement that she would now be able to receive 
all of her health care at VA, particularly sensitive issues 
that require a female provider. She was also told that VBA has 
female benefits counselors to help meet her needs.
    The second major initiative exemplifies VA's partnership 
with the DOD in providing support at the post-deployment health 
reassessment, these PDHRA events are held at military units 
throughout the country on weekends at 3 and 6 months' post-
deployment.
    PDHRAs are a DOD program that provides education, 
screening, and global health assessment to identify deployment-
related physical and mental health concerns. VA provides 
support and appointments for follow-up evaluation of treatment, 
and also they learn about their benefits at this time.
    You might have recently read about the innovative program 
in The Baltimore Sun. For the last 18 months, Baltimore's VA 
Medical Center has been hosting PDHRAs in the hospital. VA 
clinicians saw over 100 members of the Maryland National Guard 
and screened them onsite at the hospital for everything from 
common aches and pains to mental health conditions. As a result 
of this in-hospital innovative program and screening, VA staff 
were able to provide several soldiers with immediate 
hospitalization and medical care.
    Next, I would like to highlight the impact of the Combat 
Veteran Initiative, which VA began in May. The call center 
staff has contacted by phone over 17,000 OEF/OIF combat 
veterans who have been injured and who may need the care and 
coordination care of a Care Manager.
    Presently, staff are contacting 510,000 National Guard and 
Reserve members. They are being called and asked if they would 
like to be enrolled, or for information about VA.
    In one case, our call center staff called a National Guard 
soldier and asked if he needed help or support. He said, I do 
not need the help, but my brother sure does. He is a combat 
Guard soldier and he is having trouble with readjustment issues 
since his deployment. VA contacted both brothers and enrolled 
them both in VA health care and assigned them to Care Manage to 
coordinate VA health care services and benefits.
    Another more dramatic example is a Guard soldier who was 
told he was not a veteran, though he even served twice in Iraq. 
When the program manager called him as a referral from the call 
center, he said this call could not have come at a better time, 
as he was having suicidal thoughts because he had no job and no 
money, and he did not know where to turn. He was happy that VA 
could coordinate the enrollment and appointments for him the 
next day.
    His mother called a social worker back and thanked the VA 
for saving her son's life. He was also referred on then, to VBA 
for C&P claim for his disabilities.
    Finally, I would like to highlight the continued 
partnership between the VA, the National Guard, VHA, and VBA 
together who trained the first Transition Assistance Advisors, 
or TAAs, in 2006. They were hired by the National Guard to 
conduct VA outreach to Guardsmen and Reservists in the 50 
States, the District of Columbia, and Guam, Virgin Islands, and 
Puerto Rico. TAAs are the critical link to facilitate access to 
VA information services, integrate the delivery of VA and 
community services throughout the State coalitions, as well as 
to notify VA staff when troops are returning.
    Since February 2008, they have reached out to more than 
85,000 Guard and Reserve members and family members in outreach 
efforts, facilitating over 1,000 referrals to VHA, VBA, and Vet 

Centers.
    I would like to conclude with a story that shows quite 
clearly the invaluable work of TAAs in performing outreach in 
hometown America.
    In one case, a deployed Guard soldier recently returned 
home and suffered a stroke. His wife took him to a nearby 
civilian hospital for care, but bills were mounting and the 
family needed help. A TAA was called by our outreach staff to 
assist the family and the Guard soldier with enrollment in 
health care and assistance in applying for disability benefits. 
The TAA was able to resolve the veteran's medical bills at the 
civilian hospital by contacting community resources and members 
of the State Coalition to assist them.
    These few examples of four key initiatives only begin to 
demonstrate the proactive joint efforts among VHA, VBA, and 
DOD, as well as proactive efforts throughout the deployment 
cycle that genuinely are impacting the lives of National Guard 
and Reserve men and women who have truly borne the battle. I am 
proud to participate in these efforts to meet the reintegration 
and homecoming needs of our Guard and Reserve.
    Mr. Chairman and Members of the Committee, this concludes 
my statement. I would be happy to address any questions that 
you may have on these initiatives.
    [The prepared statement of Major General Mathewson-Chapman 
follows:]
 Prepared Statement of Marianne Mathewson-Chapman, Ph.D., ARNP, Major 
  General, U.S. Army (Ret.), National Guard and Reserve Coordinator, 
   Office of Outreach to Guard and Reserve Families, Veterans Health 
             Administration, Department of Veterans Affairs
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for inviting me to speak about the cooperation between the Department 
of Veterans Affairs (VA), Department of Defense (DOD), the National 
Guard and the military reserves. I am joined today by my colleague, Mr. 
Bradley Mayes, Director, Compensation and Pension Services, Veterans 
Benefits Administration.
    From the start of Fiscal Year (FY) 2002 through the first quarter 
of 2008, over 837,000 servicemembers have separated from active duty. 
Slightly more than half of the returning servicemembers from Operation 
Enduring Freedom and Operation Iraqi Freedom were members of the 
National Guard and Reserves. I am pleased to report VA and DOD are 
coordinating their efforts more closely than ever before to ensure our 
newest veterans, including members of the National Guard and the 
Reserves, reintegrating back into their communities are knowledgeable 
about all of the VA benefits and services for which they are eligible 
and know how to access the services they need.
    VA has a long-standing commitment to serving this important reserve 
component of our Armed Forces. We are dedicated to providing the 
highest quality care and services to all who have worn the uniform in 
any branch of service including our newest veterans who are members of 
the National Guard and Reserve. We also recognize the importance of 
timely contact, and that not all separating servicemembers, or members 
of the National Guard and Reserve, will be interested in immediately 
enrolling in VA for health care or benefits. As a result, VA has 
developed a proactive multi-faceted strategy to provide key outreach at 
critical stages throughout the deployment cycle.
    Recently, DOD and VA have agreed to assign a VA Liaison to the DOD 
Office of Reintegration Program Office (ORP). This position will assist 
DOD in compliance with Section 582 of the FY 2008 National Defense 
Authorization Act (NDAA). There will be continual and interdependent 
collaboration between the ORP, VA and the Services' programs to further 
develop policies to meet the needs of veterans and servicemembers. VA's 
presence will bring specific expertise and knowledge to aid ORP in 
developing best practices based on VA's experience. A crucial component 
of this position will include supporting the field to better enable 
consistent implementation of policy and program decisions through 
coordination with the appropriate VA offices.
    My testimony today will provide a detailed description of VA's 
outreach efforts for non-severely injured National Guard and Reserve 
members during four phases of this deployment cycle. These four phases 
include: pre-deployment; during deployment and demobilization prior to 
separation from active duty; immediately post-deployment; and finally, 
life-long contact with the Guard or Reserve veteran. In each of these 
phases, VA works closely with DOD, Guard and Reserve families, 
communities, counties, state governments and community agencies to 
ensure we inform them about VA and to facilitate their access to VA 
services, benefits and health care.
                             pre-deployment
    Since November 2004, VA has provided benefits brochures to everyone 
inducted into the five military branches. This pamphlet delivers basic 
information on VA benefits and services at the start of their military 
career.
    In addition, VA supports efforts for early contact with National 
Guard and Reserve members and their families. Guard and Reserve members 
and families learn about VA services and benefits during Soldier 
Readiness Processing (SRP) events held prior to mobilization. These 
benefits outreach briefings continue throughout the deployment phase as 
VA collaborates with each of the services. VA provides outreach through 
family programs, town hall meetings and family training events. 
Families are a critical component in reaching veterans and providing 
information about how to access VA health care and the importance of 
seeking early assistance for needed health care services.
    Our Vet Centers regularly conduct local outreach initiatives and 
maintain strong working relationships with nearby Guard and Reserve 
units. In addition to routine visits, Vet Center representatives will 
sometimes host Open Houses onsite at Reserve units during the weekends 
where they can answer questions from family members and Reservists. Vet 
Center staff and GWOT counselors participate in pre-mobilization 
educational briefings where they are able to establish contacts and 
distribute information to family members.
                  during deployment and demobilization
    Our latest efforts to expand services during the deployment phase 
demonstrate further collaboration between VA and DOD as we establish a 
comprehensive, standardized enrollment process at 12 Army 
Demobilization sites. Since this pilot began on May 28, VA has 
contacted more than 2,000 separating Army Guard and Reserve members and 
offer them the opportunity to enroll in VA health care. VA has enrolled 
more than 80 percent of these veterans and this month we are expanding 
this program to the Navy at four sites. We will expand it further in 
August to the Marines and to the Air Force Reserves later this fall.
    DOD provides VA with dates, numbers of servicemembers demobilizing 
and locations for Reserve Component units when demobilization events 
occur. At these events, Veterans Health Administration (VHA) staff 
representatives from the local VA medical center, benefits specialists 
and Vet Center counselors are given 15 to 30 minutes during mandatory 
demobilization briefings for a scripted presentation. During this time, 
veterans receive information about recent changes in enrollment and 
eligibility, including the extended period in which those who served in 
combat may enroll for VA health care following their separation from 
active duty. They are also educated about the period of eligibility for 
dental benefits, which was recently extended from 90 days to 180 days 
following separation from service, by the National Defense 
Authorization Act for Fiscal Year 2008.
    This enrollment process has been streamlined and veterans are also 
shown how to complete the Application for Medical Benefits (the 10-
10EZ), which begins the enrollment process for VA health care. VHA 
staff members also discuss how to make an appointment for an initial 
examination for service-related conditions and answer questions about 
the process. These completed forms are collected at the end of each 
session. VA staff at the supporting facility match the 10-10EZ with a 
copy of the veteran's DD-214, their discharge papers and separation 
documents, scan them, and email or mail them to the VA medical center 
where the veteran chooses to receive care. The receiving facility staff 
enters this information into VA's electronic medical records; VA's 
Health Eligibility Center staff will then complete the enrollment 
process and send a letter to the veteran verifying their enrollment. 
Guard and Reserve veterans receive a special letter at the 
demobilization site identifying a toll-free number they can dial if 
they need to seek medical care before they have received their official 
enrollment letter in the mail. This is a process improvement strategy 
to facilitate access for Guard and Reserve members for needed health 
care prior to notification of official enrollment.
    VA staff also makes a straightforward presentation regarding the 
advantages of enrolling in VA care early, even though the 
servicemember/veteran may not need health care services at this time. 
Combat theatre veterans receive health care at no cost for any 
condition that might be related to their combat service. Essentially, 
VA reinforces a positive message that enrollment in VA health care, 
will benefit them both now and in the future.
    The Vet Center program is the VHA arm for community outreach to 
returning combat veterans. The outreach to provide veterans and family 
members with educational information about readjustment counseling 
services is one of the legislatively mandated missions of the Vet 
Center program. In response to the growing numbers of veterans 
returning from combat in OEF/OIF, the Vet Centers initiated an 
aggressive outreach campaign to welcome home and educate returning 
servicemembers at military demobilization and National Guard and 
Reserve sites. Through its community outreach and brokering efforts, 
the Vet Center program also provides many veterans the means of access 
to other VHA and Veterans Benefits Administration (VBA) programs. To 
augment this effort, the Vet Center program recruited and hired 100 
OEF/OIF veterans to provide the bulk of this outreach to their fellow 
veterans. To improve the quality of its outreach services, in June 
2005, the Vet Centers began documenting every OEF/OIF veteran provided 
with outreach services. The program's focus on aggressive outreach 
activities has resulted in the provision of timely Vet Center services 
to significant numbers of OEF/OIF veterans and family members. Since 
the beginnings of hostilities in Afghanistan and Iraq, the Vet Centers 
have seen over 288,000 OEF/OIF veterans, of whom over 216,000 were 
outreach contacts seen primarily at military demobilization and 
National Guard and Reserve sites and more than 72,000 were provided 
readjustment counseling at Vet Centers. The Vet Center Program has also 
provided outreach services to the United States Marine Corp IRR 
reservists across the Nation.
    The approach builds on a prior outreach effort conducted during the 
first Gulf War, which received the commendation of the President's 
Advisory Committee on Gulf War Veterans' Illnesses. In its final report 
of March 1997, the Committee cited the Vet Centers for providing 
exemplary outreach to contact and inform this veteran cohort about VA 
services. On October 2004, the U.S. Medicine Institute of Health 
Studies and Association of Military Surgeons of the United States 
reported that ``VHA's Vet Centers have proven a `best practice' model 
in fostering peer-to-peer relationships for those with combat stress 
disorders.''
                      immediately post-deployment
    Following demobilization, DOD regularly holds post-deployment 
health reassessments (PDHRA's) for returning combat Guard and 
Reservists between three and six months after separation from active 
duty. The PDHRA is a DOD health protection program designed to enhance 
the deployment-related continuum of care. PDHRA's provide education, 
screening, and a global health assessment to help facilitate care for 
deployment-related physical and mental health concerns. Completion of 
the PDHRA is mandatory for all members of the National Guard or Reserve 
who complete the post-deployment health assessment at the 
demobilization sites.
    DOD provides VA a list of locations and times where these events 
will take place--often at the Guard or Reserve unit. VA outreach staff 
from local medical centers and Vet Centers participates at these 
events. DOD clinicians conduct screening exams to veterans and VA staff 
are available to coordinate referrals for any veteran interested in 
seeking care from a VA facility. Vet Center staff members are also 
present to assist veterans with enrollment in VA for health care or 
counseling at a local Vet Center.
    PDHRA's are typically held in person with mandatory attendance for 
units of 30 or more servicemembers, while smaller units conduct their 
PDHRA's by phone using DOD's call center staff to conduct the 
screening. Almost 73 percent of all Reserve Component PDHRA referrals 
were to VA--either a Vet Center or a VA medical facility. VA's PDHRA 
mission is threefold: enroll eligible reserve component servicemembers, 
into VA health care; provide information on VA benefits and services, 
and; provide assistance in scheduling follow-up appointments. VA 
medical center and Vet Center representatives provide post-event 
support for all onsite and Call Center PDHRA events.
    VA medical centers and Vet Centers accept direct PDHRA referrals 
from DOD's 24/7 Contract Call Center. Between November 2005 and May 
2008, VA staff supported over 1,050 onsite and 380 Call Center PDHRA 
events. During that same period, DOD conducted 193,559 Reserve 
Component PDHRA screenings, resulting in more than 41,100 referrals to 
VA medical centers and 19,200 to Vet Centers.
    Another essential element of VA's outreach during the post-
deployment stage are the 100 Global War on Terror (GWOT) counselors 
employed by VA's Readjustment Counseling Service. Vet Center GWOT 
Veteran Outreach Specialists conduct a focused campaign to inform their 
fellow GWOT veterans about VA benefits and services. These GWOT 
Counselors attend demobilization, PDHRA and other activities, including 
``welcome home'' events in their hometown and community. These 
Counselors are performing a vital service, and their personal 
connection and dedication to the task at hand have helped countless 
veterans and their families throughout the reintegration process.
                           life-long contact
    While VA's participation at demobilization sites and in PDHRA 
events represents critical elements of our outreach strategy, we are 
well aware that not all veterans will enroll during this time and they 
may return home with limited knowledge of VA services. As a result, 
through a number of outreach initiatives, VA continues its efforts once 
members of the National Guard and Reserves have returned to their 
community. These measures range from nationwide to neighborhood 
outreach events and leverage VA's relationships with state and local 
partners, including a wide variety of organizations.
    In May 2005, VA and the National Guard entered into a partnership 
and signed a Memorandum of Understanding to enhance access to VA health 
care for members of the National Guard in each of the 50 states, 
District of Columbia, and territories of Puerto Rico, Guam, the U.S. 
Virgin Islands. In early 2006, the National Guard hired and funded the 
first 54 Transition Assistance Advisors (TAA's), while VA provided 
specialized training for them at the VBA Academy in Baltimore about VA 
benefits and health care services. In 2008, an additional six TAA's 
were hired to provide further outreach support in states with large 
pools of mobilizing National Guard members: Texas, Pennsylvania, 
Georgia, Florida, California, and Minnesota. VA outreach staff 
continues working closely with TAA's while they are in the field and 
serving OEF/OIF veterans, through regularly scheduled conference calls, 
newsletters, and annual training conferences that identify and 
disseminate best practices in each state. TAA's serve two critical 
missions: first, they perform local problem-solving for any specific 
issues facing veterans; second, TAA's bring together key leaders and 
organizations, such as State Directors of Veterans Affairs, Adjutants 
General, and VA leadership at the Network and facility level. The VHA 
OEF/OIF Office of Outreach also has strong ties with the Adjutants 
General of the National Guard, TAA's, and with State Directors of VA, 
all of whom can and do keep VA informed of any challenges in accessing 
VA health care or other issues in the state.
    TAA's have been the critical link in facilitating access to VA by 
National Guard and Reserve members by providing VA with critical 
information on numbers of returning troops, locations, and home coming 
and reintegration events. TAA's also facilitate enrollment into VHA 
care for returning troops.
    Moreover, Network, Regional Office, and Medical Center staff have 
signed a state Memorandum of Understanding with 47 states that define 
the roles and responsibilities of VA and the state Departments of 
Veterans Affairs. A few states prefer to operate under the national 
agreement reached between the National Guard and VA in 2005. These 
state partnerships are the foundation for the development of state 
coalitions with participation by VA, State Adjutants General, State 
Directors of VA, and community and state organizations to address the 
coming home needs of the Guard and the Reserve members.
    VA works with state governments to further our mutual goal of 
enhanced benefits and access care for Guard and Reserve veterans in 
multiple ways. Some examples include:

    <bullet> In Connecticut, the State has signed a Memorandum of 
Understanding with VA allowing severely injured veterans to volunteer 
to have their medical information shared with the state, and VA has an 
active campaign to encourage wounded veterans in the state to contact 
VA for enrollment and benefits.
    <bullet> In Delaware, the State signed a Memorandum of 
Understanding in September 2007 with the Delaware National Guard, the 
Delaware Department of Labor, VA, and other support agencies to 
establish clarity of communication and synchronization of efforts 
between each agency to provide veterans with transition assistance and 
guidance.
    <bullet> In Florida, a pilot program was established to allow for 
ease of transfer of information from VA to the state government for 
wounded servicemembers who volunteer to have their information shared.
    <bullet> In Ohio, the National Guard and the regional VA office are 
negotiating a Memorandum of Understanding to provide comprehensive 
informational sessions for members of the Guard and their families 
during different stages of deployment.
    <bullet> In South Carolina, the State has partnered with VA to 
offer job and health fairs for returning servicemembers.
    <bullet> In South Dakota, the State has established a seven step 
Reunion and Reintegration plan, a portion of which includes providing 
information on Vet Centers and PDHRAs.
    <bullet> In Minnesota, during the ``Beyond the Yellow Ribbon 
Reintegration Program'', VA participated in briefings to returning 
troops and families, enrolled members of the National Guard in VA 
health care, and supported family members in the Family Academy 
classes, which provided information about VA benefits and health care 
services for which the spouse or family of a veteran may be eligible.
Further Outreach Initiatives for Guard and Reserve Members:
    VA also conducts direct outreach by telephone through several 
initiatives, including the Secretary's recently announced call center 
campaign to contact every OEF/OIF veteran and servicemember, including 
members of the National Guard and Reserve, who have separated from 
service but who have not yet enrolled in VA health care. On May 2, 
2008, VA began contacting almost 510,000 combat OEF/OIF veterans to 
ensure they know about VA medical services and other benefits. The 
Department is reaching out to all OEF/OIF veterans to let them know VA 
is here for them. The first of those calls went to an estimated 17,000 
veterans who were sick or injured while serving in Iraq or Afghanistan. 
If any of these 17,000 veterans did not already have a care manager to 
work with them, VA offered to appoint one for them. The second phase of 
the call initiative is to contact those discharged from active duty but 
who are not yet receiving VA health care. Local VA facilities and 
network representatives are sent referrals to provide follow-up contact 
should the veteran want additional information or have unmet health 
care and benefit needs.
    In addition, the Secretary of Veterans Affairs sends a letter to 
newly separated OEF/OIF veterans. These letters thank veterans for 
their service, welcome them home, and provide basic information about 
VA health care and other benefits. Through the first quarter of FY 
2008, VA mailed more than 766,000 initial letters and 150,000 follow-up 
letters to new veterans including members of the Guard and Reserve.
    Families are a vital force in ensuring that veterans know how to 
access care and services they need. They are often the first to notice 
a change in behavior or any symptoms. VA works with National Guard 
family programs and provides literature on readjustment counseling and 
health care services to family program directors at annual training 
conferences. Many families attend ``welcome home'' events sponsored by 
the local VA Medical Center and Vet Centers identify other resources in 
the community where families and veterans can establish contact to meet 
their specific needs. VA is continuing its work with the Army's Warrior 
Transition Units at active duty Army bases and the nine community based 
health care organizations to ensure the leadership of these units is 
linked to case managers at VA medical centers and vocational 
rehabilitation services. VA also supports the Family Assistance Centers 
at Army bases with VBA counselors and vocational rehabilitation 
specialists who can support and extend VA's outreach efforts to help 
servicemembers to enroll in VA health care prior to separation from 
active duty, apply for a disability, or other VA benefits. Our Vet 
Centers can also provide outreach services to family members while a 
veteran is deployed. Many Vet Centers host family outreach events and 
other activities, such as picnics or fishing expeditions, both while a 
veteran is deployed and after he or she has returned. Vet Centers also 
work closely with the Reserve's Family Readiness Units to collaborate 
with them and support veterans and families through outreach, education 
and referral services.
Outreach Programs for Severely Injured National Guard and Reservists:
    For wounded warriors returning home, forty-three states currently 
participate in the State Benefits Seamless Transition Program. To date, 
350 severely injured veterans have signed the consent form authorizing 
VA to notify their local State Department of Veterans Affairs of their 
contact information when they return to their home state. The 
initiative involves VA health care liaison staff located at the 
following Department of Defense medical facilities:

    <bullet> Walter Reed Army Medical Center, Washington D.C.
    <bullet> National Naval Medical Center, Bethesda
    <bullet> Brooke Army Medical Center, San Antonio, TX
    <bullet> Darnall Army Medical Center, Ft. Hood, TX
    <bullet> Madigan Army Medical Center, Puget Sounds, WA
    <bullet> Eisenhower Army Medical Center, Augusta, GA
    <bullet> Evans Army Community Hospital, Ft. Carson, CO
    <bullet> Naval Medical Center, San Diego, CA
    <bullet> Womack Army Medical Center, Ft. Bragg, NC
    <bullet> Naval Hospital, Camp Pendleton, CA
    <bullet> Naval Hospital, Camp Lejeune, NC

    Under the program, wounded veterans returning to their home states 
can elect to be contacted by their local State Department of Veterans 
Affairs about state benefits available to them and their families. VHA 
Liaisons for Health Care identify injured military members who will be 
transferred to VA facilities, inform them about the program, and obtain 
a signed consent form from veterans electing to participate. These 
forms are faxed directly to an identified point of contact in the 
state's Department of Veterans Affairs. The state offices, in turn, 
contact the veterans to inform them of available state benefits.
    In order to participate in the program, State Departments of 
Veterans Affairs must provide a point of contact and dedicate a fax 
machine in a private, locked office to receive the release of 
information forms. VA asked states to participate in the program in 
February 2007 when it was expanded beyond the Florida pilot 
program.
    Moreover, the Federal Recovery Coordinator program has been created 
within VA, with the cooperation of DOD, to assist the most seriously 
injured servicemembers, whether they be members of the Guard and 
Reserve or not. These Coordinators act as facilitators to ensure all 
Federal benefits are made available to help the injured, ill, or 
wounded servicemember transition out of the military and into civilian 
life.
Media Campaigns
    One important area recently opened to us will improve our outreach 
efforts during all phases of a servicemember's career. On June 16, less 
than a month ago, Secretary Peake lifted VA's restriction on 
advertising. Our mission at the Department of Veterans Affairs is 
clear: to do all within our authority and ability to help 
servicemembers readjust successfully into civilian society after their 
military experience ends and to make sure they know the VA is there to 
provide health care, benefits and other services they have earned.
    Secretary Peake's decision requires the Under Secretaries to 
coordinate with the Assistant Secretary for Public and 
Intergovernmental Affairs about outreach, media plans, education, and 
awareness campaigns and initiatives, and for me to recommend to him 
further steps to improve our ability to reach veterans and their 
families. In the few weeks since the change, there have already been a 
number of meetings with the three Administrations and staff offices 
working together to move this effort forward. One of the key parts of 
the rescission allows the Under Secretaries to purchase advertising in 
media outlets for the purpose of promoting awareness of benefits and 
services, after coordinating with the Department's public affairs 
office.
    The decision allows us to use proven modern advertising techniques 
that will appeal to veterans of all ages and their family members. It 
will give VA, with its variety and diversity of services and benefits, 
the ability to provide the right message through the right medium to 
reach veterans. Traditional advertising venues such as broadcast and 
print are available to us. But we are also looking at social marketing 
and internet based non-traditional media such as YouTube, MySpace and 
Facebook, as well as podcasting. All can be considered and evaluated in 
our outreach effort to veterans and their families.
    Our goal is to reach veterans who have just returned from Iraq and 
Afghanistan as well those who served in World War II, Korea, the cold 
war, Vietnam, and the Persian Gulf War--we want to reach all veterans 
of all eras of service with the messages of greatest concern to them 
through the medium that is most effective.
    On November 14, 2006 VA submitted to Congress a 5-year strategic 
plan (2006-2011) which included an outreach component. At that time we 
were still precluded from using paid outreach advertising. It is now 
being revised to include a robust advertising approach. It is our goal 
to provide the updated outreach strategic plan to you in December 2008 
when we submit our scheduled Report of Outreach Activities to the 
Congress. We also aim to include this fiscal year's accomplishments of 
our current business plan objectives which will be linked to the 
strategic plan goals in the report.
    As we move forward we will work closely with you, and welcome your 
suggestions. We believe the opportunities are vast and we will pursue 
this new approach with vigor.
                               conclusion
    VA's mission is ``to care for those who have borne the battle,'' 
and it is a mission we take seriously. Every day our clinicians and 
staff are developing new methods for distributing outreach information 
to those in need and facilitating access to VA health care and 
benefits. I thank the Committee for your interest in this matter and, 
on behalf of VA, I thank DOD for their cooperative efforts in granting 
VA staff access to demobilizing servicemembers, veterans, and their 
families.

    Chairman Akaka. Thank you very much, General Chapman.
    Mr. Mayes.

   STATEMENT OF BRADLEY G. MAYES, DIRECTOR, COMPENSATION AND 
 PENSION SERVICE, VETERANS BENEFITS ADMINISTRATION, DEPARTMENT 
                      OF VETERANS' AFFAIRS

    Mr. Mayes. Mr. Chairman, Members of the Committee, I am 
pleased to be here today to speak on initiatives and outreach 
efforts undertaken by the Department of Veterans Affairs to 
National Guard and Reserve members returning from theaters of 
combat, operations, and demobilizing from active duty.
    As was mentioned earlier, I am accompanied by Major General 
Marianne Mathewson-Chapman.
    We are committed in our efforts to see that the Nation's 
citizen warriors and their families are honored for their 
service to our country and receive the VA services and benefits 
they have earned.
    As the number of National Guard and Reserve members serving 
on active duty has increased, VA has aggressively expanded its 
outreach efforts to inform deactivating members of the many 
services and benefits available to them.
    From the beginning of fiscal year 2003 through the end of 
June, 2008, we have conducted more than 8,600 briefings for 
Guard and Reserve soldiers, and we have provided information to 
approximately 510,000 combat OEF/OIF veterans.
    VA initiates outreach to National Guard and Reserve members 
at the beginning of their military career. Since November 2004, 
everyone inducted into the five military branches receives a VA 
benefits pamphlet at the military entrance processing station.
    This pamphlet provides inductees with basic information on 
VA benefits and services at the start of their military active 
service, because we want servicemembers to know that the VA 
will be there for them in the future.
    Regarding briefings, outreach briefings to demobilizing 
National Guard and Reserve components are generally one among a 
series of presentations scheduled for our returning groups. The 
briefings may be conducted at the military base where 
administrative demobilization activities occur, or they may be 
briefed later at the unit's home base, once the members have 
returned to their local community.
    Briefings at the demobe sites are generally abbreviated 
because National Guard and Reserve units are there for only a 
few days, with much out-processing to accomplish before 
returning to their home locations.
    Briefings to returning units at their home locations are 
generally part of a welcome home or a family activities day or 
job fairs at weekend drill sessions. Those might be TAP 
briefings, but that is really where we need to reach them, 
because we have time. The demobilization process--these 
servicemembers, they are trying to get home, and we are 
available for them when they come back to these drills.
    At all briefings, the attendees are provided with written 
informational materials that include the VA handbook, ``Federal 
Benefits for Veterans and Dependents,'' and VA Pamphlet 20-00-
1, ``A Summary of VA Benefits,'' and an insurance information 
folder. You have examples of those in the folders that we 
provided to the Committee Members.
    There are other outreach efforts. Along with face-to-face 
outreach efforts, we seek to ensure that a welcome-home package 
is sent to all returning National Guard and Reserve members. 
DOD provides us with the names and addresses of these returnees 
based on active duty separation records. The Veterans 
Assistance and Discharge System then generates a welcome-home 
package for recently separated veterans, including Reserve and 
National Guard soldiers.
    The mailing itself contains a letter from VA and a summary 
and timetable of VA benefits. In addition to the VADS mailings, 
a separate personal letter from the Secretary, along with 
benefits information, is sent to each returning OEF/OIF 
veteran.
    VADS also sends separate packages that explain education, 
loan guaranty and insurance benefits. A six-month follow-up 
letter with the same general benefits information is also sent 
to each returning member. And VA is currently working with DOD 
to update this electronic transfer of information.
    Partnerships in the past--outreach to Reserve and National 
Guard soldiers--was generally accomplished on an on-call or as-
requested basis, but with the onset of Operations Enduring 
Freedom and Iraqi Freedom, and the activation and deployment of 
large numbers of Reserve and National Guard soldiers, VA's 
outreach to this group has greatly expanded.
    VA has made arrangements with Guard and Reserve officials 
to schedule briefings for members who are being mobilized as 
well as being demobilized. In order to facilitate these 
outreach efforts, we have entered into joint agreements with 
Department of Defense, and these agreements provide for the 
sharing of information so that we know when there is going to 
be an assembly of returning National Guard or Reserve soldiers.
    VA and the National Guard Bureau, which represents National 
Guard units nationwide, have entered into a memorandum of 
agreement to establish the requirements, the expectations, and 
obligations of each organization with respect to assisting 
National Guard soldiers with demobilization issues.
    Among its provisions, the agreement calls for the National 
Guard Bureau to provide VA with timely and appropriate data on 
when and where groups of demobilizing servicemembers will 
return to their local communities. It also calls for the 
National Guard Bureau to establish opportunities for VA 
personnel to provide information to returning National Guard 
soldiers and their families in all the States and territories.
    And the agreement provides regional or local family 
activity days, where VA represents or presents health and 
benefits information to assembled groups within 3 to 6 months 
of demobilization.
    And finally, the handout entitled ``VHA/VBA Outreach for 
Guard and Reserve'' depicts these and other initiatives 
currently underway.
    While we have done much, there is more still to do, and we 
recognize that we must continually seek improvement and 
innovation in the way we reach out to those we at VA have the 
privilege of serving.
    Mr. Chairman, Members of the Committee, that concludes my 
testimony, and I would be happy to answer any questions that 
you may have.
    [The prepared statement of Mr. Mayes follows:]
  Prepared Statement of Bradley G. Mayes, Director, Compensation and 
   Pension Service, Veterans Benefits Administration, Department of 
                            Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to speak on initiatives and outreach efforts undertaken by 
the Department of Veterans Affairs (VA) to National Guard and Reserve 
members returning from theaters of combat operations and demobilizing 
from active duty. We are committed in our efforts to see that the 
Nation's Citizen Warriors and their families are honored for their 
service to our country and receive the VA services and benefits they 
have earned.
    As the number of National Guard and Reserve members serving on 
active duty has increased, VA has aggressively expanded its outreach 
efforts to inform deactivating members of the many services and 
benefits available to them. From the beginning of fiscal year 2003, 
through June 2008, VA has conducted more than 8,650 briefings and 
provided information to approximately 510,000 combat OEF/OIF 
veterans.
         benefits information at time of induction into service
    VA initiates outreach to National Guard and Reserve members at the 
beginning of their military career. Since November 2004, everyone 
inducted into the five military branches receives a VA benefits 
pamphlet at the military entrance processing station. This pamphlet 
provides inductees with basic information on VA benefits and services 
at the start of their military active service. We want servicemembers 
to know that VA will be there for them in the future.
                  transition assistance program (tap)
    One of the formal pre-discharge outreach programs in which VA 
participates is the Transition Assistance Program (TAP), which is 
operated in conjunction with the Department of Labor. TAP is conducted 
nationwide and in Europe and Asia to prepare retiring or separating 
military personnel for return to civilian life, and VA provides 
benefits briefings as a part of the program. At these briefings, 
servicemembers are informed of the array of VA benefits and services 
available, instructed on how to complete VA application forms, and 
advised on what evidence is needed to support their claims. Following 
the general instruction segment, personal interviews are conducted with 
those servicemembers who would like assistance in preparing and 
submitting their applications for compensation and/or vocational 
rehabilitation and employment benefits.
             disabled transition assistance program (dtap)
    As a part of TAP, servicemembers leaving the military with a 
service-connected disability, or those who think they may have a 
service-connected disability, are offered the Disabled Transition 
Assistance Program (DTAP). DTAP is an integral component of transition 
assistance for servicemembers who may be released because of disability 
incurred on active duty. Through VA's DTAP briefings, VA advises 
transitioning servicemembers about the benefits available through the 
Vocational Rehabilitation and Employment (VR&E) program. The goal of 
DTAP is to encourage and assist potentially eligible servicemembers 
with making informed decisions about the VR&E program and to expedite 
delivery of these services to those who qualify.
                        other benefits briefings
    In addition to TAP and DTAP briefings to separating and retiring 
servicemembers, VA conducts other benefits briefings at the request of 
DOD. One example is a presentation conducted at ``Commanders' Calls.'' 
Military commanders routinely have unit meetings with their assigned 
personnel. These meetings are referred to as ``Commander's Call.'' 
During ``Commander's Call,'' the commander usually informs personnel of 
on-going and future events, hot topics, and personnel issues. Sometimes 
guest speakers are invited to provide informational briefings. VA is 
typically asked to cover material on VA's Education and Loan Guaranty 
Programs.
    Outreach briefings to demobilizing National Guard and Reserve 
components are generally one among a series of presentations scheduled 
for a returning group. The briefings may be conducted at the military 
base where administrative demobilization activities occur or later at 
the unit's home base once the members have returned to their local 
community. Briefings at the demobilization site are generally 
abbreviated because National Guard and Reserve units are there for only 
a few days, with much out-processing to accomplish before returning to 
their home locations. Briefings to returning units at their home 
locations are generally part of a ``Welcome Home,'' ``Family Activities 
Day,'' or ``Job Fairs'' weekend drill session.
    At all briefings, the attendees are provided with written 
informational materials that include the VA handbook Federal Benefits 
for Veterans and Dependents, VA Pamphlet 20-00-1, A Summary of VA 
Benefits, and an insurance information folder.
                         other outreach efforts
    Along with face-to-face outreach efforts, VA seeks to ensure that a 
``Welcome Home Package'' is sent to all returning National Guard and 
Reserve members. DOD provides the names and addresses of these 
returnees based on active duty separation records. The Veterans 
Assistance at Discharge System (VADS) then generates a ``Welcome Home 
Package'' for recently separated veterans, including Reserve and 
National Guard members. The mailing itself contains a letter from VA 
and a summary and timetable of VA benefits. In addition to the VADS 
mailings, a separate personal letter from the Secretary, along with 
benefits information, is sent to each returning OEF/OIF veteran. VADS 
also sends separate packages that explain education, loan guaranty, and 
insurance benefits. A six-month follow-up letter with the same general 
benefits information is also sent to each returning member. VA is 
currently working with DOD to update the electronic transfer of this 
information.
                              partnerships
    In the past, outreach to Reserve and National Guard members is 
generally accomplished on an ``on call'' or ``as requested'' basis. 
With the onset of Operations Enduring Freedom and Iraqi Freedom (OEF/
OIF) and the activation and deployment of large numbers of Reserve and 
National Guard members, VA's outreach to this group has greatly 
expanded. VA has made arrangements with Guard and Reserve officials to 
schedule briefings for members who are being mobilized and demobilized.
    In order to facilitate these outreach efforts, VA entered into 
joint agreements with the Department of Defense (DOD). These agreements 
provide for the sharing of information so VA knows when and where a 
presentation may be given to an assembly of returning National Guard or 
Reserve members.
    VA and the National Guard Bureau (NGB), which represents National 
Guard units nationwide, have entered into a memorandum of agreement to 
establish the requirements, expectations, and obligations of each 
organization with respect to assisting National Guard members with 
demobilization issues. Among its provisions, the agreement calls for 
NGB to provide VA with timely and appropriate data on when and where 
groups of demobilizing servicemembers will return to their local 
communities. It also calls for NGB to establish opportunities for VA 
personnel to provide information to returning National Guard members 
and their families in all the states and territories. In addition, the 
agreement promotes regional or local ``Family Activity Days,'' where VA 
presents health and benefits information to assembled groups within 
three to six months of demobilization.
    VA has also reached agreements with individual National Guard state 
military departments to facilitate outreach efforts. An initial 
memorandum of understanding (MOU) was signed by VA and the Washington 
State Military Department. This served as a model for 47 other state 
and territorial military departments, which currently have an MOU with 
VA. Agreements with other states have been initiated and will be 
finalized in the near future. These agreements include the 
participation of other organizations within the states, such as state 
veterans organizations, state employment agencies, and state business 
associations, which contribute to the transition of National Guard 
members back into their local communities. Through the communication 
place for presentations, and returnees are identified for informational 
mailings. Communications are enhanced by VA military services 
coordinators, who remain in contact with the state National Guard 
headquarters.
    As a part of this partnership, the National Guard Bureau employs 60 
Transition Assistance Advisors (TAAs) for the 50 states and 4 
territories. The TAAs' primary function is to serve as the statewide 
point of contact and coordinator. They also provide information 
regarding VA benefits and services to Guard members and their families 
and assist in resolving any problems with VA healthcare, benefits, and 
TRICARE. VA and the National Guard Bureau teamed up at the beginning of 
the program in February 2006 to provide training to the TAAs on VA 
services and benefits. VA has participated in subsequent annual 
refresher training, as well as monthly TAA conference calls.
    Procedures for outreach presentations to demobilizing Reserve 
components are less formally established. Communications generally flow 
between a Reserve unit liaison and the VA regional office military 
service coordinator. There is currently an agreement pending between VA 
and the Army Reserve Headquarters which, when completed, will serve as 
the model for agreements with other military Reserve branches. It is 
anticipated that the terms of these agreements and the lines of 
communication established by them will be similar to those between VA 
and the National Guard.
    Another partnership between VA and DOD is designed to assist those 
National Guard and Reserve members who are seriously wounded while on 
active duty or develop a condition that causes them to be unfit for the 
military. VA and DOD are working closely on efforts to evaluate the 
disabilities of servicemembers still on active duty. Our goal in this 
process is to smooth their reintegration back into civilian life, with 
a focus on employment or independent living, should discharge from 
service become necessary. These efforts include services and outreach 
programs to regular military personnel, activated guard and reserve 
personnel, and inactive but drilling reserve component military 
personnel who may become unfit for duty. These efforts are coordinated 
through a Senior Oversight Committee (SOC) comprised of both VA and DOD 
representatives. One of the major projects being implemented is the 
pilot of a new Disability Evaluation System (DES). This process 
involves determining the extent of the servicemember's disability from 
a wound or other condition causing unfitness and determining a course 
of action based on medical examinations and an in-depth interview 
conducted by an experienced military services coordinator, who also 
assists the member in filing any claims. If the member is determined to 
be unfit by the military, the military services coordinator provides 
additional information and services to the member during his/her 
transition. VA has supported the DES process by providing information 
and assistance to DOD for the creation of a ``benefits book'' given to 
servicemembers and their families involved with DES.
                    outreach improvement initiatives
VADS Process Improvements
    In recent years, VA has made great strides in expanding and 
improving the outreach programs. Because this is a critical component 
of the VA mission, we continue to seek improvements in the delivery of 
information on VA services and benefits to those separating from active 
duty. One major improvement initiative involves the Welcome Home 
Package sent to recently separated individuals. During fiscal year 
2007, VADS generated approximately 188,000 outreach packages. The 
current VADS method, traditionally used to generate and mail these 
outreach packages, is scheduled to be replaced by a modern and more 
efficient system referred to as the VA/DOD Identity Repository (VADIR). 
One of the drivers for replacement of VADS is that deficiencies in the 
system caused a number of individuals not to receive their outreach 
package. When VA learned of this, a help team was immediately sent to 
the VADS location in Austin, Texas. The system was analyzed and 
corrective measures were taken. As a result of this, it became clear 
that the newly developed VADIR system was superior and should replace 
VADS. VADIR can provide VA with detailed electronic information 
directly from DOD on separating servicemembers that will replace the 
current paper-document-based method used by VADS. This interagency data 
sharing will eliminate error and facilitate a timely mailing of the 
outreach packages.
Relationship Building
    VA also continues to develop a closer relationship with National 
Guard and Reserve units in order to be available for in-person outreach 
briefings. Regardless of whether a briefing is needed at the 
demobilization site or the units home location, or whether it is a 
complete TAP presentation or a condensed time sensitive presentation, 
VA has made it known that we are always on call to help those who have 
served our country.
                               conclusion
    Mr. Chairman, VA outreach programs provide wide dissemination of 
information on the array of benefits and services available to National 
Guard and Reserve members. Our employees are dedicated to ensuring 
veterans receive the benefits and services they have earned through 
their service to our Nation, and we work diligently to provide 
information and assistance in a timely, thorough, accurate, 
understandable, and respectful manner.
    This concludes my summary of the outreach efforts undertaken by VA 
to provide returning National Guard and Reserve members with 
information on the VA services and benefits available to them. I would 
be pleased to answer any questions you may have.

    Chairman Akaka. Thank you very much, Mr. Mayes, for your 
statement.
    Mr. Nelson.

 STATEMENT OF DONALD L. NELSON, DEPUTY ASSISTANT SECRETARY FOR 
             RESERVE AFFAIRS, DEPARTMENT OF DEFENSE

    Mr. Nelson. Good morning, Chairman Akaka and other 
distinguished Members of the Committee. Thank you very much for 
inviting me to appear and speak about the outreach actions 
being taken by the Department of Defense, and the service 
components to benefit Reserve and National Guard soldiers 
ordered to active duty service.
    Let me preface my remarks this morning by way of pointing 
out that by way of personal background I served this great 
Nation for 34\1/2\ years, both active and Reserve, as an 
officer in the United States Navy. I am acutely aware that the 
challenge to the freedom of this great Nation is being met 
freely and wholly by the supreme commitment and unparalleled 
personal sacrifice of our all-volunteer active, Reserve, and 
National Guard forces.
    There is no question that our soldiers, sailors, airmen, 
Marines, and Coast Guardsmen deserve only the very best in 
terms in every conceivable benefit that a grateful Nation can 
bestow upon them for their service.
    For that reason, I am especially appreciative of this 
opportunity to appear before you and tell you what the 
Department of Defense has done and is doing to implement the 
Yellow Ribbon Reintegration Program mandated by Section 582 of 
the 2008 National Defense Authorization Act.
    Section 582 requires the Department of Defense to establish 
a national combat veteran reintegration program for Reserve and 
National Guard soldiers and their families. The program must 
provide deployment support and reintegration activities during 
all phases of deployment: pre-deployment, deployment, 
demobilization, and reconstitution.
    The Department of Defense established the Yellow Ribbon 
Reintegration Program to oversee the activities and services 
provided under this program on March 17, 2008, at 1401 Wilson 
Boulevard in Rosslyn, Virginia. We now have 11 persons working 
in that office on a full-time basis, including one Reserve 
Officer from the Army, Navy, Air Force, and Marines, 
respectively; a representative from the National Guard Bureau; 
a liaison officer from the Department of Veterans' Affairs; the 
Center for Excellence and Reintegration Director; and the 
Deputy Director of the Reintegration Program Office; plus two 
interns and a receptionist.
    The Center for Excellence has been established within the 
Reintegration Program Office to analyze and collect lessons 
learned and assess suggestions on program improvements from 
Reserve components and State National Guard organizations.
    There are a variety of additional organizations that 
provide services to assist Reserve and National Guard soldiers 
and their families during the entire deployment cycle 
including, but not limited to: the services and their 
respective Reserve components; other Federal agencies, most 
certainly including the Veterans' Administration; the National 
Guard in each State; State Veterans' Affairs departments; and 
other local offices and private sector organizations.
    Let me offer an executive summary current as of July 17, 
2008, of the deployment, support, and reintegration events that 
the services have held and are planning during the period from 
January 1, 2008, to September 30, 2008.
    Noteworthy is the magnitude of the events that have already 
been held and scheduled. Six components have conducted 338 
reintegration activities since January 2008.
    In addition, reintegration activities must be provided in 
the fourth quarter of fiscal year 2008 for Reserve and National 
Guard soldiers returning from deployment, with full 
implementation of support programs for all phases of the 
deployment cycle to be provided in fiscal year 2009.
    Moreover, the six components have also scheduled 141 
additional reintegration events for the fourth quarter of 
fiscal year 2008. The congressional mandate will continue to 
drive coordinated efforts among the service components and the 
Department of Veterans' Affairs and other organizations will 
further improve and standardize existing individualized 
programs.
    As I have previously stated, there are a variety of 
additional organizations that provide outreach services to 
assist Reserve and National Guard soldiers and their families 
throughout the deployment cycle, as described in the 
legislation. Topping the list are our colleagues from the 
Veterans Administration.
    Additionally, the Joint Family Support Assistance, which 
falls within the ambit of the Deputy Under Secretary of Defense 
for military, community, and family policy currently provides 
services in 15 pilot States, presently experiencing large 
numbers of mobilizing and demobilizing Reserve and National 
Guard soldiers, as well as those States with large numbers of 
personnel alerted for mobilization.
    The Department of Defense plans to expand beyond the pilot 
phase to include all 54 States and territories during fiscal 
year 2009. Specifically, the services offered by the Joint 
Family Support Assistance Program include: financial 
counseling, childcare, counseling on the effects of deployment 
on children and the effects of reunification, volunteer 
opportunities for spouses, support and assistance to 
geographically dispersed youth, separation and grief and loss 
issues, personal outreach visits by trained psychologists and 
other professionals, including members of the Chaplain Corps.
    In implementing the Yellow Ribbon Reintegration Program, I 
cannot overemphasize the priority that we in the Department of 
Defense give to family support programs, as well as to the 
formation of partnerships among DOD and the Veterans 
Administration and local mental health programs.
    The Department of Defense has been working at flank speed 
to establish and give shape to Yellow Ribbon Reintegration 
Program activities all over the Nation, as required by the 2008 
National Defense Authorization Act.
    After a 6-month monumental effort by the Department of 
Defense to ensure compliance with all rules, regulations, 
national security requirements, and following coordination by 
and through all service components, I am extremely pleased to 
be able to report that on July 17, 2008, Secretary of Defense 
Robert M. Gates signed the memorandum establishing the Under 
Secretary of Defense for Personnel and Readiness as the 
official executive agent for the Yellow Ribbon Reintegration 
Program, as required by the legislation.
    On the next day, July 18, 2008, just 5 days ago, the Under 
Secretary signed the directive-type memorandum that requires 
the services and their components to implement the 
reintegration programs in the fourth quarter of fiscal year 
2008. That memorandum also requires the service secretaries to 
provide service-specific implementation instructions to fully 
support robust, high-quality deployment support programs in the 
first quarter of fiscal year 2009.
    Finally, I am very pleased to report that the Department of 
Defense has received funding for the fourth quarter of fiscal 
year 2008, and is developing the program's funding requirements 
for future years.
    Let me conclude my remarks by stating that the Yellow 
Ribbon Reintegration Program is all about our troops. Through 
the implementation of this program, we must meet our sworn 
responsibility to best serve our soldiers, sailors, airmen, 
Marines, and Coast Guardsmen who serve this great Nation.
    I am proud of the ongoing efforts of the Department of 
Defense to fully implement this new program. What our troops 
deserve is only the very best.
    I very much appreciate the fact that you have invited me. 
On behalf of the Department of Defense, I look forward to 
working closely with all of you and your respective staffs to 
ensure that the Yellow Ribbon Reintegration Program is a 
smashing success. Thank you, again.
    [The prepared statement of Mr. Nelson follows:]
    Prepared Statement of Donald L. Nelson, Director, Yellow Ribbon 
              Reintegration Program, Department of Defense
    Chairman Akaka and Members of the Committee: Thank you for your 
invitation to discuss DOD and VA cooperation on the reintegration of 
our National Guard and Reserve veterans. As you know, Section 582 of 
the 2008 National Defense Authorization Act required the Department of 
Defense to establish a national combat veterans reintegration program 
to provide National Guard and Reserve members and their families with 
sufficient information, services, referrals, and proactive outreach 
opportunities throughout the entire deployment cycle. I'm pleased to 
tell you that the DOD Yellow Ribbon Reintegration Program Office opened 
on March 17, 2008, in Suite 401, at 1401 Wilson Boulevard, in 
Arlington, VA. The office has a toll free number of 866-504-7092.
    This office has liaison personnel from the National Guard, the Army 
Reserve, the Navy Reserve, the Marine Corps Reserve and the Air Force 
Reserve, serving as subject matter experts to assist in implementing 
the program. Veterans Affairs Deputy Secretary Gordon Mansfield has 
also committed to continuing and strengthening his Department's 
partnership with the Department of Defense by placing a subject matter 
expert from the VA on our staff. We are working closely with the VA 
Veterans Health Administration and the Department of Defense Outreach 
Office, which focus their efforts on outreach to National Guard and 
Reserve members and their families. We also work with the National 
Guard Transition Assistance Advisors, the National Association of State 
Directors of Veterans Affairs, the Department of Defense Joint Family 
Resource Center and their Joint Family Support Assistance Program, as 
well as each of the National Guard and Reserve family program offices. 
Our purpose in doing so is to ensure that the Department of Defense is 
doing everything possible to make the best use of available resources 
in meeting the deployment support requirements of our returning 
military veterans, especially those that are geographically separated 
from military installations and dispersed throughout all 54 states and 
territories.
    The Directive-Type Memorandum that implements the program requires 
the Services and their Reserve components to provide 30-, 60-, and 90-
day reintegration programs for their returning members by the 4th 
quarter of this fiscal year. It also requires them to implement robust 
deployment support and reintegration programs beginning in the 1st 
quarter of fiscal year 2009. Our office will monitor and manage these 
programs at the strategic level and ensure that locally available 
resources are used to the maximum extent possible, while also making 
sure that the availability of these programs is shared between the 
components to allow members and families to access them at the location 
closest to where they reside.
    The Department of Defense recognizes that support for families and 
employers is vital to success. The Department has devoted substantial 
resources and efforts toward expanding support for our families. The 
challenge is particularly acute for widely dispersed reserve families, 
many of whom do not live close to major military installations. Thus, 
we have developed and promoted web sites and electronic support for our 
military families, and the use of nearly 700 military family service 
centers for all Active, Guard and Reserve members and their families to 
provide personal reintegration contacts, and we have hosted and 
attended numerous family support conferences and forums. Reintegration 
training and efforts to support members and their families following 
mobilization, particularly for service in the combat zones, are vital. 
The reintegration program in Minnesota has proven to be an exceptional 
success and forms the basis for the DOD Yellow Ribbon Reintegration 
Program with its Yellow Ribbon Reintegration Center of Excellence for 
all Guard and Reserve members. The Department is fully committed to 
implementing this program, which will provide Guard and Reserve 
members, and their families, the support that will help them during the 
entire deployment cycle--from preparation for active service to 
successful reintegration upon return to their community, and beyond. We 
will continue to work with Veterans Affairs, State Governors and their 
cabinet members, their Adjutants General, the State family program 
directors as well as with the Military Services and their components to 
ensure that an integrated support program is delivered to all Guard and 
Reserve members and their families.
    The support for employers over the past six years mirrors the 
increased support and emphasis upon families. We doubled the budget of 
the National Committee for Employer Support of the Guard and Reserve 
(ESGR). We developed an employer database that identifies the employers 
of Guard/Reserve members, and expanded the ESGR state committees and 
their support structure (over 4,500 volunteers are now active on these 
committees) and we are reaching out to thousands of additional 
employers every year. The Freedom Awards Program and national ceremony 
to recognize employers selected for this Award has become a capstone 
event, in which the President, in each of the past two years, 
recognized the annual Freedom Award winners in the Oval Office (15 
recipients per year are selected from more than 2000 nominees from 
small business, large business, and the public sector). Never in the 
history of the Guard and Reserve have families and employers been 
supported to this degree, and they appreciate it, as this effort is 
critical to sustaining an Operational Reserve.
    The Senate Committee on Veterans Affairs has always been very 
supportive of our National Guard and Reserve Forces. On behalf of those 
men and women, I want to publicly thank you for all your help in 
providing for them as they have stepped up to answer the call to duty. 
Secretary Gates and I are deeply grateful, our military personnel and 
their families certainly appreciate it, and we know we can count on 
your continued support. Thank you for this opportunity to discuss the 
Yellow Ribbon Reintegration Program on behalf of our Guard and Reserve.

    Chairman Akaka. Thank you very much, Mr. Nelson.
    Major General Chapman and Mr. Nelson, I am concerned that 
the efforts of commands to identify and help those who may be 
suffering from emotional trauma may not be entirely focused. 
The approach seems to be one of providing information to a 
large gathering rather than working to identify those in need 
and so as to reach them in a more appropriate setting.
    I would add that sometimes these sweeping approaches can 
hurt overall morale while still not reaching those in need. The 
units' temporal and elements of the military culture create a 
wall that is hard for servicemembers to breach.
    My question to you is, what can VA do to create an open and 
private environment in which servicemembers will be able to ask 
for help?
    Major General Mathewson-Chapman. I will begin on that 
question.
    First of all, what we have found very popular and very 
comfortable to use is our readjustment counseling centers, or 
Vet Centers, as they are known. Veterans learn about them at 
the demobilization process, because they do have a 15-minute 
briefing by a combat veteran. So, that is the first step, the 
choke point, that we call it, as they are coming through.
    If you have read in the newspaper recently, they are 
getting 232 of those Vet Centers to be built in small 
communities. They are storefront operations. They are not in 
the hospital. And you know the stigma of coming into a hospital 
and asking for mental health care. We are finding that they are 
coming to the Vet Centers.
    VA is getting ready to add another 39 centers in a lot of 
small communities in America by 2009, then there will be a 
total of 271 of those centers.
    Again, VA is adding additional mental health resources at 
community-based outpatient clinics that, again, are not in the 
hospital. They are in small communities providing the outreach, 
but also, mental health facilities have mental health 
specialists there.
    They are adding another 44 new community clinics, and also 
in our rural health initiative in small communities--they do 
not have the base to have a full-time large clinic. They have 
outreach centers, again, to be able to provide mental health 
services.
    The family members--as we work with family programs, we 
found the family is the key, the hook; because if we can 
educate the family, the spouse, the mother, the sister of what 
to look for when your spouse comes home, and where to go, how 
to access those services, then we also are reaching out to 
those with pamphlets and information. Our TAAs are out there 
working with the family programs.
    We are doing the outreach piece. It is more than just the 
education, but it is how to access the system, and that is the 
critical component--how to get in when I need it.
    Chairman Akaka. Right.
    Major General Mathewson-Chapman. And the call center, 
again, will also call them, as I gave an example of an 
individual--it was just at the right time that he was called. 
And all of them will be called to make sure that they are 
transitioning home successfully.
    Chairman Akaka. Thank you.
    Mr. Nelson, would you have any comment?
    Mr. Nelson. I would just add, Mr. Chairman, that at the 
reintegration activities--at the 30-, 60-, and 90-day 
intervals, beginning with the 30-day reintegration activity--
servicemembers are required to fill out a post-deployment 
health assessment. And at the 90-day level, they are required 
to fill out a post-deployment health reassessment form.
    OSD policy currently vests in unit commanders the 
discretion to order members to active duty for a day or so--
whatever the period is to be required--so they must fill out 
the post-deployment health reassessment form.
    And when the forms are being executed, we have, on station, 
professionals--fully trained psychologists, doctors, some 
doctors who are psychiatrists, nurses, and other health care 
professionals--whose job it is to review the answers and to 
offer themselves as available to talk to anyone who may have 
indicated that they do have a problem.
    And those who are perceived to have a problem, even though 
they do not profess on paper to have a problem--we are making 
our very best efforts to deal with them, because we interview 
family members.
    For example, at the 30-day point, members have been home 
with their families, the same at 60, the same at 90 days. So, 
we have an opportunity to talk to family members, coworkers, 
employers, friends, and other individuals who may have been 
able to assess the behavior of the individual on an individual 
basis following release from active duty.
    The system certainly is not perfect, but we are making 
every effort to work out the kinks. I could not agree more that 
this is exceedingly important, and we are doing our level best 
to make sure that no one gets through the system who has a 
problem who is not completely treated by existing facilities 
that are there to treat people.
    Chairman Akaka. Thank you very much.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    This past March, in my home State of Washington, a National 
Guardsman and former Stryker Brigade soldier by the name of 
Specialist Timothy Juneman tragically took his own life--a 
story that we are hearing, you know, far too often.
    Now, the Spokane VA psychiatrist who was treating that 
young man wrote in his medical records that imminent 
redeployment to Iraq with the National Guard was a major 
stressor contributing to his condition. The week before he took 
his own life, he received final notification that the National 
Guard had rescinded a promise not to send him back to Iraq for 
2 years.
    So, despite the VA's assessment that redeployment was 
causing him this serious mental hardship, the Spokane VA could 
not contact the Washington Army National Guard to advise 
officials of that diagnosis. And I am told that the VA cannot 
inform the Department of Defense about the medical conditions 
of active veterans such as Guard and Reserve members without a 
patient's consent.
    Now, I understand and have no doubt that there are good 
reasons for that policy, but I am wondering if there should not 
be an exception in extreme cases like this, like suicide; and I 
wondered if all of you could comment on that for me this 
morning.
    Major General Mathewson-Chapman. I can comment on--I know 
this case is under review, but I think what you are referring 
to is, again, notifying DOD of high-risk individuals.
    Senator Murray. That is correct.
    Major General Mathewson-Chapman. And that is true--because 
of the policy laws, we cannot tell a commander that someone is 
high risk. It has to--the individual soldier has to sign out 
his own medical records to get his records--to be able to give 
to the commander--when being requested.
    I do not have an answer for that.
    Senator Murray. Is there any way to make an exception in 
extreme circumstances?
    Major General Mathewson-Chapman. On the VA side, I do not 
know. It is something that I can certainly take for the record 
and see if the VA has some answers for that and get back to 
you.
    Senator Murray. Anybody else? Anything we can do?
    Mr. Nelson. We make every effort, Senator Murray, to make 
sure that such tragedies do not occur, by virtue of the 
professionals that we have to assess these situations, as I 
indicated just a moment ago.
    The privacy statutes to which my colleague referred do 
place some restraints on the release of information. I would 
also have to take that issue for the record, because I am not 
personally familiar with the scope and extent of those privacy 
regulations, but I do know that they are out there.
    That said, I would be happy to take the issue for the 
record and get together with my colleague on this.
    [The response from VHA follows:]
Response to Question Arising During the Hearing by Hon. Patty Murray to 
     Veterans Health Administration, Department of Veterans Affairs
    Question. Is there any way to VA can share medical records with DOD 
in an extreme case, such as the risk of suicide?
    Response. The Health Insurance Portability and Accountability Act 
(HIPAA) prohibits the Department of Veterans Affairs (VA) from 
disclosing protected health information without the patient's express, 
signed, written authorization or pursuant to legal authority prescribed 
in Federal laws and regulations. There are, however, exceptions which 
permit, but do not require, the Department of Veterans Affairs (VA) to 
disclose personal health information to other entities, including the 
Department of Defense.
    The intent of HIPAA is to protect the patient from unwanted 
releases of information, thus helping to create an environment of trust 
for patients and providers when discussing personal health information.
    VA cites two relevant authorities under which VA may legally 
disclose health information to the Department of Defense (DOD) without 
obtaining the express authorization of the patient:
    1. Serious Threat to Health or Safety: (HIPAA 45 CFR 
164.512(j)(1)(i); 38 U.S.C. 5701(b)(3); and Privacy Act 5 U.S.C. 
552a(b)(8)): Protected health information, including mental health 
information, may be disclosed to DOD when a VA clinical provider 
determines that such a disclosure would serve to avert a serious threat 
to health or safety. VA clinicians are aware of and adhere to the duty 
to warn, which exists if, in a clinical case, a patient presents a 
clear danger to him or herself or others. Our health care professionals 
provide immediate care to anyone in need. If the patient is competent, 
VA requests a patient consent to a disclosure of information as needed. 
If a patient refuses to accept treatment, VA works under state 
authorities to provide treatment through involuntary commitment or 
other means, as warranted.
    VA may disclose information to DOD. Once DOD is notified of the 
serious threat, the patient must be provided a written notification to 
his or her last known address, indicating that a disclosure was made to 
DOD.
    2. To a DOD or Other Health Care Provider for Treatment of the 
Individual: (HIPAA 45 CFR 164.502(a)(1)(ii); 38 U.S.C. 5701(b)(3); 38 
U.S.C. 7332 (2)(A), and (3)(e)(2); and Routine Use #43 under Patient 
Medical Records-VA (24VA19) Privacy Act system of records): Protected 
health information may be disclosed to DOD or other health care 
providers in order for them to provide treatment to the individual. If 
a patient is being seen or needs to be seen by a DOD health care 
provider, VA may disclose the patient's health information, including 
mental health information, to the DOD health care provider in order for 
DOD to provide care to the patient. VA must have knowledge of a 
treatment relationship between the patient and the DOD health care 
provider prior to disclosing the patient's health information to the 
DOD health care provider.

    Senator Murray. OK. I would really appreciate you taking a 
look at that policy, because it seems to me, in those extreme 
cases, when clearly that is the stressor, there should be 
communication and work to make sure that situations like that 
do not occur. So, I would really appreciate an answer back for 
the record. Thank you.
    On another topic, we know that Guard and Reserve veterans, 
as I said earlier, are twice as likely to have their disability 
compensation claim rejected by the VA.
    Last year, I put an amendment on the Defense Authorization 
Bill that requires the Secretary of Defense and the Secretary 
of Veterans Affairs to present a plan to expand the Benefits 
Delivery at Discharge Program to National Guard and Reserve 
members in order to reduce that discrepancy.
    Mr. Nelson and Mr. Mayes, perhaps you could give me a quick 
synopsis of where that is and when we are going to see it.
    Mr. Mayes. Senator Murray, I will try and take that.
    We just--the Compensation and Pension Service within the 
Veterans Benefits Administration--we just issued policy 
guidance, I believe it was last month. Essentially, what we 
have done is expanded the BDD program to any separating 
servicemember who files a claim 60 to 180 days from separation.
    So, before we changed our policy, the BDD program was 
limited to places where we had formal agreements with the 
Department of Defense. And if you count the Coast Guard, we had 
153 of those agreements in place, actually.
    And so, what we have done is said, if we can get that claim 
within that window, then we will call it a BDD claim. In order 
for it to be a BDD claim, we need some things, though, because 
we want to expedite the delivery of the benefits. And what we 
need is a signed application. So, we need to sit down with the 
servicemember, find out what disabilities they have that they 
are claiming.
    We have to comply with our statutory requirement to fully 
notify them of what it takes to successfully prosecute a claim 
as a result of the Veterans' Claims Assistance Act of 2000. So, 
we have to provide that notice, and then we get from them what 
is called a notice response, essentially, which is telling us 
we have everything that there is for us to review to make a 
decision.
    Senator Murray. So, it is a communication issue of going 
back and forth when they are out in the States and regional 
areas and you do not have face-to-face contact?
    Mr. Mayes. Well, what we want to do and what we are doing 
is having that face-to-face contact, and we are doing it--and 
that is BDD.
    If I might--we actually have expanded that even further and 
created what we call Quick Start claims so that if you have a 
servicemember that maybe is not able to file a claim in that 
60- to 180-day window, but is pre-separation, then we will do 
the same thing.
    In order for this to be successful, we need to be able to 
have those elements of the claim, and primarily, the service 
treatment records. We are reaching out to Guard and Reserve 
soldiers at the time we provide benefits briefings.
    Now, it may not be TAP because, as I said in my statement, 
when they are demobilizing, they want to get home.
    Senator Murray. Right. We know that.
    Mr. Mayes. But we are available, and we are there when they 
come back to these family days or their first drill. And at 
that time, we give them the briefing.
    And we are also setting up claim workshops in instances 
where the command allows us to be there for enough time to sit 
down with the demobilized Guard and Reserve soldier, go ahead 
and take the claim. Hopefully, we can get the notice response, 
we can get the service treatment records, and then we feed it 
right into the system. And because they are OEF/OIF claims, we 
are expediting the processing of those claims.
    Senator Murray. Should those TAP attendances be mandatory? 
Would that help?
    Mr. Mayes. Well, I get that question a lot.
    I would say that TAP, really, in its original--as it was 
originally created was designed for active duty component, 
because you--when someone is getting ready to separate, they--
typically they are going to have some time.
    Retirees, we can give that TAP briefing up to 2 years prior 
to separation, for others a year prior to separation. We can do 
it 180 days after separation.
    But the Guard and Reserve soldier, I mean, they are coming 
out of theater, they are going to the demobe site for 3 or 4 
days, and then they go home. Whether you call it TAP or a claim 
workshop or a family day when they come back to that first 
drill, you know, I do not want to say that it should be 
mandatory. I think what needs to be mandatory is VA have an 
opportunity to present the benefits and services that are out 
there for them.
    Senator Murray. And today they do not have that?
    Mr. Mayes. I think they do in most cases. I really think 
that they do. And if there is a servicemember that is denied 
that opportunity, I would suggest that DOD has to provide that 
opportunity.
    But I think they are getting the opportunity, and I would 
defer to my colleague.
    Senator Murray. Well, Mr. Nelson, should that be mandatory?
    Mr. Nelson. The general program?
    Senator Murray. Yeah.
    Mr. Nelson. I would agree with my colleague that the 
assistance program started off as a function of the Department 
of Labor and primarily was, and is--a program directed toward 
active duty personnel who are separating--thank you--who are 
separating from the service as opposed to Reservists and 
Guardsmen who are going back to their civilian jobs; and, more 
likely than not, may be subject to being recalled--their 
being--to be reconstituted to somewhere downstream.
    They will remain in the Guard and Reserve program. The 
people to whom the TAP program should be directed are those who 
are separating, because they are the people who are the 
potential beneficiaries of all the elements of the TAP program. 
I would agree with Brad on that.
    Senator Murray. Well, when we see a VA IG briefing that 
says the TAP briefings did not meet the VA set goal of 53 
percent, I think we still have work to do; and we have got to 
figure this out.
    Mr. Chairman.
    Chairman Akaka. Thank you. We will have another round here.
    Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. I want to 
thank the witnesses for testifying today. I do not really know 
where to start, but will start here.
    As for Mr. Nelson, some of the witnesses' testimony in the 
next panel talk about requiring servicemembers to complete the 
10-10EZ during demobilization. You say that you offer them a 
chance to enroll in the VA through increasingly standardized 
demobilization processes. What is wrong with an actual 
requirement that the member fill out the form? Major General 
Chapman, you can answer it, too.
    Go ahead.
    Major General Mathewson-Chapman. I am a little confused on 
your question. This is the first time we have been allowed in 
to the demobilization process, and we cannot mandate, requiring 
that everyone fills it out; but we are certainly encouraging 
them and teaching them how to fill out an abbreviated form 
rather than the long, cumbersome form.
    Senator Tester. So, why can't you require it?
    Major General Mathewson-Chapman. Why can't we require them 
to fill that out?
    Senator Tester. Yes.
    Major General Mathewson-Chapman. I have just been told that 
we cannot mandate--VA cannot mandate to DOD because they are 
still active duty soldiers--they are not veterans yet--that 
they have to fill it out.
    Now, in Montana, the Adjutant General has mandated that all 
of his Guardsmen complete the forms. We do know about Montana's 
program, and other States are doing the same thing.
    So, whether it is at the demobilization station--we are 
encouraging them, and we are actually counting the numbers of 
those that are at the demobe site and how many forms we 
actually collect. And what we are finding--many of them are 
already enrolled. Many of them are going to stay on active 
duty, so they are certainly not veterans.
    So, we are getting 100 percent of those that are 
demobilizing--going through the system, completing the forms, 
and submitting them. And we have developed a standardized 
process now so that paperwork goes to where your home of 
record--where you want to receive your care, back to that field 
site--and then they register them into the system, and then we 
complete the final enrollment. It takes about--anywhere--two to 
4 weeks.
    Senator Tester. For those that fill it out?
    Major General Mathewson-Chapman. For those that fill it 
out.
    But right now, we are finding across the board 100 percent 
of them that are at the demobilization site are filling them 
out.
    Senator Tester. What----
    Major General Mathewson-Chapman. At the 12 sites, soon to 
be 15 sites.
    Senator Tester. And does that include all of the returning 
folks, the ones that----
    Major General Mathewson-Chapman. Right. Well, we are asking 
them to----
    Senator Tester [continuing]. The demobilization, is that 
everybody that returns from theater.
    Major General Mathewson-Chapman. Yes, yes.
    Senator Tester. So, everybody who returns fills out the 10-
10EZ form?
    Major General Mathewson-Chapman. Yes. And if they feel they 
are already enrolled, we encourage them to please fill out the 
top part so we can verify their enrollment.
    Senator Tester. OK.
    Major General Mathewson-Chapman. So, we do have forms on 
everyone.
    Senator Tester. OK. One of the things that the Montana 
Guard has also done is extend out the post-deployment health 
assessment to 2 years instead of 90 to 180 days. Obviously, it 
means tracking a servicemember's mental health status for 
longer than what is currently done. I think it is a decent 
idea, because mental health issues do not always manifest 
themselves right away.
    What is your sense about whether this is worth doing in 
other States?
    Major General Mathewson-Chapman. Well, this is--again, the 
PDHRA is a DOD program, and I would probably refer----
    Senator Tester. Mr. Nelson.
    Major General Mathewson-Chapman [continuing]. To my 
colleague.
    Senator Tester. Mr. Nelson, I can repeat the question if 
you want. If you heard it----
    Mr. Nelson. I heard the question, which was--the post-
deployment health reassessment is a form that servicemembers 
are required to fill out at the 90-day point.
    As a matter of policy, we--let me back up. The Commission 
on the National Guard and Reserve has met, and we expect to 
have a final recommendation to Secretary Gates on August 29, 
2008; and there are no less than 95 separate recommendations 
that that Commission dealt with.
    And one of them--in fact, several of them--touch upon a 
concern the post-deployment health assessment and the post-
deployment health reassessment forms. And I believe that the 
numerical sequence of those forms is, like, from 73 through 80. 
The services have basically concurred--with the exception of 
the Army--with all seven of those recommendations.
    Senator Tester. Does one of the recommendations include the 
reassessment out 2 years?
    Mr. Nelson. Not to my knowledge. Not to my knowledge. I 
cannot answer--not to my knowledge.
    Senator Tester. So, just to get back on question, I mean, 
the signature injury coming out of multiple deployments in Iraq 
especially is mental health issues. They often do not crop up 
immediately. They often crop up even longer than 2 years.
    So, what would be wrong with extending that from 90 to 180 
days to 24 months.
    Mr. Nelson. I am not a health care professional. I do not 
think I am qualified to answer that question. I am not a health 
care professional. But I can assure you we will look into that 
for you sir.
    Senator Tester. Thank you very much. I appreciate that.
    I got to have a question for Mr. Mayes, because I do not 
want him to feel left out here.
    The process for arranging VA briefings for a returning 
Reserve unit is still fairly informal--meaning that it really 
depends on the individual's commander's willingness and ability 
to connect with the VA.
    Do you anticipate the relationship becoming more formal 
between the Reserve units and the VA?
    Mr. Mayes. Yes, I do. I think you are familiar with the 
relationship with the National Guard, and it is more 
formalized. We have a national MOU, and then we have MOUs at 
the State level. We have put those in place because it does lay 
out expectations on both sides, and we are exploring a national 
MOU with the Reserves.
    Senator Tester. OK. When do you anticipate that occurring?
    Mr. Mayes. It is well underway, but I cannot give you a 
date at this time.
    Senator Tester. OK. In your testimony you talked about a 
lot of outreach you are doing, and it all sounded decent. It 
sounded good.
    One of the things that crossed my mind, your position is 
compensation benefits for the VA.
    Mr. Mayes. Yes, sir.
    Senator Tester. And it deals with Guardsmen and 
Reservists--probably among others--but Guardsmen and Reservists 
who are returning from combat that are under special conditions 
unlike active duty folks. And in rural areas, it becomes an 
issue. In my opening statement, I talked about folks who go 
into rural areas, and we are talking frontier areas where they 
are kind of on their own to get back into society unless VA 
reaches out.
    You have talked about welcome-home packages and briefings. 
Do you have folks on your staff that have been through the Iraq 
conflict that can talk about things that will get the attention 
of Guardsmen and Reservists who are coming back from theater?
    What I am talking about is--I get a lot of information 
everyday being a U.S. Senator, and some of it I look at and 
some of it I do not. And my guess is that the folks coming back 
from Iraq and Afghanistan probably are getting a lot of 
information, whether it is written or verbal or whatever, and 
some of it will catch their attention and some of it will not.
    So, it would seem to me that the folks coming back would 
have an idea on what catches people's attention and what does 
not. So, do you have folks in your shop that have been through 
the war?
    Mr. Mayes. Yes, sir, we do. We have people who have been 
through this conflict, been through Desert Storm, as well.
    Senator Tester. Working for you?
    Mr. Mayes. Working for me, yes, sir.
    Senator Tester. OK. Well, that is good.
    All right. Thank you, Mr. Chairman.
    Mr. Mayes. You know, if I might----
    Senator Tester. Yes.
    Mr. Mayes [continuing]. Expound on that just briefly.
    I met with a severely injured Captain--she was severely 
injured in Iraq-- and we sat down and talked about that. And 
you know, one of the things that she said is you have to look 
at different ways of reaching these folks, and I think that is 
where, maybe, you were going with that.
    And I anticipated the question from the Committee, you 
know, is there something you can do better? And I think we have 
got to--in my oral statement, I said that we have got to be 
innovative. And I think that is an area that we have got to 
explore, because there are people out there using text 
messaging and podcasts, and things out there, frankly, that I 
do not know about. But we sat down with this individual, we got 
those ideas, and we are exploring that so that we can sort of 
communicate in the language of this modern warrior. It is a 
little bit different than you would communicate with a veteran 
who served in World War II, possibly, or Korea.
    So, I appreciate the question.
    Senator Tester. Yes. Just one more, if I might, Mr. 
Chairman, because your answer brought some things to mind that 
Major General Chapman talked about in her testimony.
    You are dealing with folks who have been brought out of--
they are in the Guard and Reserve, which has been a part-time 
job, and they are put into a full-time situation, and they 
leave their normal full-time job, and it can result in 
financial difficulties. And that, by the way, can translate 
into mental difficulties. Is there anything that the VA can do 
to help those folks that are in a situation--are there benefits 
out there?
    Let me give you an example. I was in Great Falls, Montana, 
about a month ago. A guy walked up to me and said, I was going 
to college--he was in the Reserves, I believe, maybe the 
Guard--and I was in Iraq, did my time in Iraq; came back. He's 
got student loans though, cannot go to college anymore. He has 
got PTSD, cannot stay focused, and he has got these loans that 
are available that have to be paid now that he is out of 
college. Is there anything the VA can do to help folks like 
that that are in that condition?
    Mr. Mayes. Well, the situation that you described, it 
sounds to me like this veteran--and this is a hypothetical--but 
this veteran has disabilities that are related to their 
military service.
    And so--I mean, the essence of the Disability Compensation 
Program is that we provide a monetary benefit, compensation, 
for someone who is suffering from a disability or disease that 
was due to their service.
    So, I would say yes. And if it is so severe that it 
precludes employment, we have a provision in our rating 
schedule that allows us to pay a total evaluation based on 
individual unemployability. So, I would say that is available.
    If they have a VA home loan, we can work with them to try 
and prevent that loan going into foreclosure. So, there are 
some things in our tool bucket, as you mentioned in your 
opening statement, that we have that we can do.
    Senator Tester. That is good to know. And this is it, but 
with the caveat that a lot of these folks are not getting 
through the door, which is a problem.
    So, thank you.
    Chairman Akaka. There are many things that we need to do in 
policy to deal with the problems that are facing us at this 
time, and we need to do this.
    Major General Mathewson-Chapman. Thank you, Mr. Chairman.
    Mr. Mayes. Thank you.
    Chairman Akaka. I want to thank our first panel for your 
responses and your presence here, as well.
    Again, I repeat, I am so glad that we are holding this 
hearing on the Guard as well as the Reserve. There are many 
things that we need to do in policy to deal with the problems 
that are facing us at this time. We need to do this, so, we 
need to work together. So, I want to thank the first panel for 
being here this morning.
    Mr. Mayes. Thank you, Mr. Chairman.
    Major General Mathewson-Chapman. Thank you.
    Mr. Nelson. Thank you.
    Chairman Akaka. I call up the second panel.
    First, let me welcome Dr. Joseph R. Scotti, who is 
Professor of Psychology in the Eberly College of Arts and 
Sciences at West Virginia University--at West Virginia 
University. You may be seated.
    Next, I want to welcome Colonel Bradley E. Livingston, 
Chief of the Joint Staff of the Montana National Guard.
    Next, Lieutenant Colonel John Boyd, who is Deputy Chief of 
Staff for Personnel from the Vermont National Guard.
    Also, welcome to Sergeant Roy Wayne Meredith, an Infantry 
Team Leader from the Army National Guard.
    And finally, welcome to Major Cynthia Rasmussen, a Combat 
Operational Stress Officer for the 88th Regional Readiness 
Command, Surgeon General's Office, out of Fort Snelling, 
Minnesota.
    Your full statements will appear in the record, and we look 
forward to hearing from all of you. We will start with Dr. 
Scotti, if you will please begin with your statement.
    Dr. Scotti.

STATEMENT OF JOSEPH R. SCOTTI, Ph.D., PROFESSOR OF PSYCHOLOGY, 
 EBERLY COLLEGE OF ARTS AND SCIENCES, WEST VIRGINIA UNIVERSITY

    Mr. Scotti. Mr. Chairman and Members of the Committee, 
thank you very much for having me today. This is really a great 
honor and a super opportunity to present some findings from a 
survey we did in West Virginia.
    I am a licensed psychologist and a professor of clinical 
psychology in West Virginia. I am not an ivory tower 
psychologist who just runs out and does research. I want to 
apply that research, I want to use it. I have many years of 
experience working with the Morgantown Vet Center and the 
Clarksburg VA and veterans of many eras. So, this is research 
that I hope will lead to application.
    I am going to summarize some of our results. The full 
findings are in my report. Basically, we looked at 848 veterans 
in West Virginia, 57 percent of whom were in the National Guard 
or Reserve, and 52 percent of whom resided in rural areas of 
our State. There were earlier comments about the importance of 
looking at rural veterans. I would like to emphasize that.
    It is no surprise to anyone here that being in combat leads 
to Post Traumatic Stress Disorder, depression, and other mental 
health problems. The present military conflict is particularly 
unique, given that it involves the National Guard and many of 
the issues that have already been stated here in terms of their 
training and deployment back home.
    The information I have here is also important because it is 
not, as in many studies, just from veterans who seek treatment 
at the VA. This is from a group of veterans who applied for 
benefits from the State and that makes them a rather different 
population.
    I want to emphasize several points. One is that the 
veterans in the National Guard and the Reserve were more likely 
to be in the Army, were more likely to have combat exposure (as 
opposed to active duty personnel), if they were from rural 
areas of the State. In terms of Post Traumatic Stress Disorder 
and depression, we found that a third of these veterans--more 
so in rural areas of the State and more so if they were in the 
National Guard--were experiencing Post Traumatic Stress 
Disorder, and about 40 percent were experiencing depression. 
Overall, between these two 47 percent--almost half--were 
experiencing PTSD and/or depression. Again, more likely in the 
Guard, more likely in rural areas.
    We also looked at access or utilization of services. And in 
this particular study, the veterans are reporting high 
awareness of services from all levels, from informal contacts 
all the way up to VA hospitals and Vet Centers. However, this, 
again, is also already a group that sought monetary 
compensation from the State. So, they may be a particularly 
aware group.
    This group, only about 50 percent have had some contact 
with the VA, and only about 40 percent find that their services 
are helpful. And I can elaborate on why that might be during 
the question period.
    One of the points that I want to make is that the VA and 
the Department of Defense--although I think it does a wonderful 
job, I have had the experience of working with the VA--they 
need not be the sole source of help for these veterans. There 
is a great civilian network available, and I think with 
community mental health professionals, primary care 
professionals, and private practice that we can go a long way 
in supplementing VA services.
    I wanted to make a couple of recommendations, and I was 
glad to hear that funding for the post-deployment programs for 
the National Guard is going to be forthcoming. That is sorely 
needed, and I hope that it is funded at an adequate level. We 
need to provide support and disseminate effective treatments at 
many levels, including the VA and down all the way to private 
care practitioners. I hope that we would have support and 
funding for linking many of the local State and Federal 
agencies in doing all this work.
    I have many additional comments that I want to make, 
especially in response to some of the prior testimony; so, I 
will conclude my formal comments, but I am hoping to answer 
many questions. Thank you.
    [The prepared statement of Mr. Scotti follows:]
Prepared Statement of Joseph R. Scotti, Ph.D., Professor of Psychology, 
                  West Virginia University, Morgantown
    Chairman Akaka, Ranking Member Burr, and Members of the Senate 
Committee on Veterans' Affairs: Thank you for the honor and the 
opportunity to provide the following testimony.
    I am Joseph R. Scotti, Ph.D., a West Virginia licensed clinical 
psychologist and a professor of psychology at West Virginia University 
(Morgantown, WV), where I have been employed for the past 18 years. I 
have conducted service, teaching, and research in the area of Post 
Traumatic Stress Disorder (PTSD) in a wide-range of populations (e.g., 
children, college students, adults) that have experienced a variety of 
traumatic stressors (e.g., combat, motor vehicle accidents, sexual 
assault, and technological/industrial accidents). I have worked with 
combat Veterans of various eras (WW II, Korea, Vietnam, Desert Storm, 
and the current conflicts) since 1989 in various capacities, including 
over 12 years of consultation services (involving assessment, 
diagnosis, and treatment) at the Morgantown Vet Center (a Center that 
has distinguished itself as ``Best Vet Center in the Nation'' for 
multiple years) and the Louis A. Johnson VAMC (Clarksburg, WV), and 
through clinical services offered within the Department of Psychology 
at West Virginia University. I have multiple publications in journals 
and books, and dozens of conference presentations on PTSD in general, 
and combat veterans in particular. Presently, I am conducting research 
with my colleagues on Veterans of recent conflicts, and am 
collaborating with the West Virginia National Guard Family Assistance 
Center to provide services to military service personnel and their 
families.
    This testimony is provided to summarize key findings from a survey 
research study conducted by my colleagues and myself with Veterans from 
West Virginia who have been deployed in various areas of the Middle 
East as part of Operation Enduring Freedom (OEF), Operation Iraqi 
Freedom (OIF), and related military operations.
    The testimony shall show that for military personnel from the State 
of West Virginia:

    1. Those who served as members of the National Guard and Reserves 
experienced exposure to combat and related war zone stressors at a 
level equal to that of Active Duty personnel.

    (a) Those Veterans from Rural Counties of West Virginia experienced 
    greater combat exposure than those from Urban West Virginia 
    Counties.

    2. Those Veterans who served as members of the National Guard and 
Reserves are experiencing a greater negative impact on psychological 
and daily functioning than are Active Duty personnel.

    (a) Those Veterans from Rural Counties of West Virginia are 
    experiencing a greater negative impact than those from Urban West 
    Virginia Counties.
    (b) The negative impact extends beyond the Veterans themselves and 
    includes significant others and children.

    3. Awareness of a wide range of services and supports to address 
the negative impact on the psychological and daily functioning of 
Veterans is generally high (80% to 90%).

    (a) Utilization of services and supports varies by level, but 
    typically, one-third to one-half or more of veterans in need are 
    not utilizing professional or VA-related services.
    (b) Only about one-half of Veterans report that a service they have 
    utilized was ``helpful'' to them.
                               background
    This survey research study was conducted by the Veterans Work Group 
at West Virginia University (Project Coordinators: Virginia Majewski, 
Ph.D., School of Social Work, and Joseph R. Scotti, Ph.D., Department 
of Psychology; Key Contributing Members: Hilda R. Heady, M.S.W., 
Associate Vice President for Rural Health, and Roy Tunick, Ph.D., 
Department of Counseling and Rehabilitation Counseling). The survey was 
requested and funded by the West Virginia State Legislature Select 
Interim Committee on Veterans' Issues (Co-Chairs: Delegates Barbara E. 
Fleischauer and Richard J. Iaquinta, and Senator Jon B. Hunter) in 
response to that Committee's concerns regarding the need for and access 
to mental and physical health services among West Virginia's military 
personnel (particularly the National Guard and Reserve) who were 
returning from OEF/OIF and related deployments.
    The survey study was funded in October 2007, conducted during 
November 2007 to April 2008, and the resulting data have since been in 
various stages of analysis. The survey was an intentionally brief 108 
questions in order to maximize response rate. The focus was on 
demographics, deployment experiences, the impact of those deployment 
experiences (in terms of symptoms of PTSD and depression, and changes 
in various areas of basic functioning), and awareness and use of a wide 
range of services. The staff of the WV State Division of Veterans 
Affairs mailed the survey to 6,400 WV Veterans from their mailing list 
of Veterans who had applied for the WV State Bonus ($600) for having 
served overseas. Approximately 1,000 surveys were undeliverable; 
approximately 1,100 completed surveys have been returned (a 20% 
response rate: 1,100/5,400). This testimony is based on 848 surveys 
presently entered into the survey database and which represent those 
Veterans who have served in the present conflicts of interest.
    It is well established that there is an association between 
exposure to combat and other war zone stressors and the occurrence of 
mental health problems such as PTSD, depression, and substance abuse. 
Such research has almost exclusively been conducted with military 
Veterans who had enlisted or were drafted directly to active duty, and 
primarily with Veterans who were identified through VA patient roles. 
The present military conflicts (i.e., beginning with Operations Desert 
Shield and Desert Storm to OEF and OIF) are unique in the inclusion of 
members of the National Guard in military conflicts outside the borders 
of the United States. Given the differences in the intensity, 
regularity, and type of training between active military and National 
Guard units, the impact of combat and related war zone stressors on 
members of the National Guard who have served in the conflicts overseas 
is a relative unknown. Thus, a portion of this testimony is dedicated 
to establishing the differential impact of war zone stressors on 
members of the National Guard, as compared to Active Duty personnel. 
Further, the Veterans in this survey were not accessed through VA 
patient roles, but rather through the WV State Division of Veterans 
Affairs. Thus, the information presented here represents both Veterans 
who have and have not sought VA services.
                        survey research findings
General Demographics and Combat Exposure
    Overall, the 848 persons (9% Female) in the study averaged 38 years 
of age (20-64 years) and were primarily white (96%, as reflects the 
demographics of WV). They came from all 55 counties in WV, with 57% 
reporting service in the National Guard or Reserves and all currently 
residing in WV. Of the 43% reporting Active Duty service, 56% were 
still out-of-state and primarily at a military base. Furthermore, of 
the 621 personnel residing in WV, 48% resided in the 13 urban counties 
of the State; 52% in the other 42 rural counties. All respondents 
indicated at least a high school degree and 30% reported some college. 
Active Duty personnel were younger, on average, than members of the 
Guard/Reserves (35 vs. 40 years), and were somewhat more ethnically/
racially diverse (93% vs. 97% white). (We note an overwhelmingly 
positive response to this survey, with 87% or respondents reporting 
that the survey was ``Worth the Time to Do.'')
    All respondents had been deployed at least once to the Persian Gulf 
Region since 1990 (97% since the year 2000) in--or in support of--
various operations: Iraq (71%), Afghanistan (16%), the Persian Gulf 
Region (32%; e.g., Kuwait, Oman, Qatar, Saudi Arabia, Turkey), KFOR/
SFOR (the Kosovo Force/Stabilization Force in the Balkans region; 14%), 
and Operations Desert Shield/Desert Storm (10%). Prior duty in 
Operation Restore Hope (Somalia, 1%) and Vietnam (2%), among other 
conflicts and operations, was additionally reported. Multiple duty 
stations and or deployments were reported by 43% of the respondents.
    All branches of military service were represented; however, members 
of the Guard/Reserves were more likely to be in the Army (78%) than 
were Active Duty personnel (48%), and were more likely to report Combat 
Support Duty (70% vs. 60%) and less likely to report direct Combat Duty 
(43% vs. 52%).
    The Combat Exposure Scale (CES) was utilized to quantify the level 
of exposure to combat and war zone stressors, including engagement in 
patrols and dangerous duties; firing rounds at enemy forces; seeing 
someone hit by rounds or explosive devices; and the percentage of unit 
personnel who were wounded, killed, or missing. The CES score can be 
quantified as indicating Light, Light-Moderate, Moderate, Moderate-
Heavy, and Heavy levels of combat exposure. The average score for both 
Guard/Reserve and Active Duty personnel was in the Moderate range; 
however, over 20% of Guard/Reserve and Active Duty personnel 
experienced Moderate-Heavy to Heavy levels of combat exposure.
    Urban-Rural Differences. Veterans from Rural Counties of WV 
differed from those residing in Urban Counties in several ways. Rural 
Veterans were: (a) more likely than Urban Veterans to have been in the 
Army (83% vs. 60%), (b) to report Combat Duty (71% vs. 39%), and, (c) 
to report more exposure to a Moderate Level of combat (based on the 
Combat Exposure Scale; 33% vs. 23%) and less exposure to a Light Level 
of combat (16% vs. 28%).
Impact on Mental Health
    Commonly used and well-validated self-report measures of PTSD and 
depression symptoms were utilized (PTSD Checklist, Center for 
Epidemiological Studies--Depression Scale) to evaluate the possible 
impact of combat exposure on the respondents.
    [Symptoms of PTSD include reexperiencing the traumatic event, such 
as nightmares and intrusive thoughts; avoiding reminders of the event, 
including people, places, and activities; and hyperarousal, which 
includes exaggerated startle response, irritability, sleep disturbance, 
and concentration problems. Symptoms of depression include prolonged 
sadness, low self-worth, sleep and appetite disturbances, self-blame, 
and suicidal ideation.]
    Using the recommended cutoff scores for these two measures (greater 
than 43 on the PTSD Checklist and greater than 15 on the CES-Depression 
Scale), 35% of the Veterans had scores suggesting clinical levels of 
PTSD, and 43% had scores suggesting clinical levels of Depression. 
Given the high concordance of depression with PTSD (a correlation of 
.85 in this study), Veterans were classified as having PTSD and/or 
Depression (PTSD/Depression Group: 47% of the respondents) or as not 
meeting criteria for either (Other Veterans Group: 53%).
[NOTE: It should not be assumed that the Other Veterans Group was free 
of mental health problems. The Other Veterans did not meet criteria for 
PTSD or Depression, but may well exhibit other anxiety disorders, 
substance use/abuse problems, sleep disturbances, and a range of sub-
clinical symptoms. Further, we did not directly evaluate Traumatic 
Brain Injury in this study.]
    By point of comparison, the 35% rate of PTSD in the present study 
is similar to the 31% lifetime rate for PTSD reported in the National 
Vietnam Veterans Recovery Study (NVVRS). Further, the recent Rand 
Corporation Report (The Invisible Wounds of War, 2008) summarizes some 
22 prior studies of OEF/OIF Veterans, giving a typical range of 5-15% 
for the occurrence of PTSD, but with some studies reporting rates as 
high as 30%. As if often seen in the trauma literature, rates vary by 
assessment measure and criteria, sample characteristics, and time since 
event, among other factors.
    In this case, we note that members of the Guard/Reserves were more 
likely than Active Duty personnel to meet the criteria for PTSD/
Depression (51% vs. 40%), despite having similar demographic 
backgrounds and combat experiences. This result may reflect the impact 
of pre-deployment preparation and training, support of families during 
deployment, and post-deployment debriefing and support resources.
    Urban-Rural Differences. One characteristic that is related to 
mental health outcome in this study is whether the Veteran lived in an 
Urban or Rural County (a factor not investigated in the research 
summarized in the Rand Report). Veterans residing in West Virginia 
(primarily Guard and Reserves) were more likely to meet criteria for 
PTSD/Depression if they lived in a Rural County (58%) versus an Urban 
County (44%). Note, however, that county of origin may be a proxy for 
multiple other variables, including that persons in rural counties may 
have a lower income, lower employment levels, lower quality of 
education, dispersed support systems, greater transportation problems 
(roads, gas prices, reliable vehicles, and public services), and 
general availability and access to mental and physical health agencies 
and other support services.
Suicide Risk
    Due to growing concerns about the increased rates of suicide among 
OEF/OIF Veterans, we reviewed the data for three factors that have been 
shown to be associated with increased suicide risk: high levels of 
symptoms of depression and PTSD, and high levels of combat exposure 
(Rand Corporation, 2008). In this sample, 8% of the Veterans had scores 
consistent with this ``risk profile,'' suggesting high risk for 
suicide.
Impact on Daily Functioning and Family
    We asked participating Veterans to report both how they currently 
were functioning in daily life, and how their level of functioning had 
changed from prior to their most recent deployment. Overall, veterans 
did not differ in their reported level of functioning by their type of 
service (Guard/Reserves vs. Active Duty), and time since last 
deployment was not related to impact (i.e., functioning did not improve 
over time).
    As would be expected, Veterans with PTSD/Depression reported 
greater declines in pre- to post-deployment functioning on a 10-point 
scale (1 = extremely poor, 10 = extremely good), averaging less than a 
1-point decline in rated functioning for Other Veterans, and averaging 
over a 3-point decline for those with PTSD Depression in the areas of: 
(a) Physical Health (-1.4 vs. -3.7), (b) Mental Health (-0.8 vs. -4.1), 
(c) Family Relationships (-0.6 vs. -3.8), (d) Social Support (-0.2 vs. 
-2.5), and (e) the Behavior and Academic Progress of Children (-0.2 vs. 
-1.5). Further, when rating overall current functioning, 60% of 
Veterans with PTSD/Depression rated at least one area of functioning 
(Work/School, Military Duties, Home/Family, Social/Friends) as Poor or 
Extremely Poor, as compared to only 7% of Other Veterans. It is 
critical to note here that the impact of PTSD/Depression goes beyond 
the mental and physical health of the Veteran; it also negatively 
impacts significant others, children, friends, and work.
    Urban-Rural Differences. Those Veterans residing in Rural Counties 
were differentially impacted as compared to the Urban cohort. First, 
Rural versus Urban Veterans reported a more negative impact on Mental 
Health (-3.0 vs. -2.1) and Family Relationships (-2.7 vs. -1.8). 
Second, 43% of Rural Veterans rated at least one area of functioning 
(Work/School, Military Duties, Home/Family, Social/Friends) as Poor or 
Extremely Poor, as compared to 25% of Urban Veterans. Finally, and most 
telling, only 7% of both Urban and Rural Veterans without PTSD/
Depression rated at least one area of functioning as Poor or Extremely 
Poor, as compared to 48% of Urban Veterans with PTSD/Depression. Over 
two-thirds (69%) of Rural Veterans with PTSD/Depression rated at least 
one area of functioning as Poor or Extremely Poor.
Service Awareness and Utilization
    The above statistics establish that, as a group, members of the 
West Virginia National Guard and Reserves who served in the recent 
conflicts are experiencing a differentially greater mental health 
impact than Active Duty Veterans from West Virginia. Furthermore, 
Veterans residing in the Rural Counties of West Virginia are 
experiencing both a greater mental health impact and greater declines 
in functioning. It is then important to know if either Guard/Reserve 
Veterans or Veterans from Rural Counties are differentially aware of 
and seeking services.
    To address this issue, the survey included a series of questions 
asking whether the Veterans were aware of a wide range of support and 
service options, whether they had used those services and support, and 
whether the services and supports had been helpful or not. The 
intentional brevity of the survey only allowed the respondents to 
indicate use of a service, such as a VAMC. They were not able to 
indicate the specific services accessed, such as the medical, 
psychiatric, or benefits services at a VAMC. Further, use of a service 
could have been by phone, mail, or in person. Thus, these results only 
indicate some contact with a service, not the method of contact, 
specific aspect of the service utilized, nor the duration of service 
utilization. With these caveats, the general findings are next 
presented.
    Awareness of Services. Overall, West Virginia Veterans reported 
being aware of the availability of a wide-range of services and 
supports at each of five levels: (a) 92% reported the availability of 
Informal Supports (e.g., family, friends, other veterans), (b) 87% 
reported the availability of Formal Supports (e.g., Veterans 
organizations and other support groups), (c) 84% reported the 
availability of Emergency Medical Services (e.g., crisis line, 
emergency room), (d) 91% indicated being aware that services from 
Mental Health Professionals were available (e.g., clergy, counselors, 
psychologists, social workers, etc.), and, (e) 88% were aware that they 
could receive services from Center-Based Facilities (e.g., VAMC, Vet 
Center, community mental health center). These rates of awareness of 
availability did not differ by type of duty (Guard/Reserves versus 
Active Duty). Urban Veterans without PTSD/Depression were somewhat more 
aware of the availability of Emergency Medical Services than were Rural 
Veterans with PTSD/Depression (89% vs. 79%).
    Use of Services. It would appear that awareness of services is 
quite high, although there is some room for improvement. Whether those 
services have been utilized or not is the next question. Regardless of 
status, 72% of Veterans in the survey reported use of Informal 
Supports. Use of Formal Supports (53% overall) was more likely to be 
reported by Veterans with PTSD/Depression (62%) than Other Veterans 
(44%), as was the use of Emergency Medical Services (29% vs. 43%; 36% 
overall). Mental Health Professionals (62% overall) were used by 54% of 
Other Veterans and 70% of those with PTSD/Depression. Within the 
variety of Mental Health Professionals, Veterans with PTSD/Depression 
who lived in Rural Counties were the most likely group to use physician 
services (67%). Services at Center-Based Facilities (54% utilization, 
overall; including Vet Centers and VAMCs) were used more by Veterans 
with PTSD/Depression (65%) than Other Veterans (43%); within this set 
of services, hardly any use of community mental health centers was 
reported (5%).
    Overall, the utilization of a wide range of supports and services 
is rather high, although clearly one-third or more of Veterans who are 
potentially in need of services are not accessing them. Further, the 
focus here is on a limited set of mental health issues, and not 
physical health and other areas of concern (including TBI and substance 
use/abuse). Nationally, about 39% of Veterans have at least one contact 
with the VA system. The overall 37% utilization rate for Vet Centers 
and 58% for VAMCs by West Virginia Veterans is apparently higher than 
the national figures, and is likely due to the density of services in 
West Virginia, with coverage by four different VISNs (4, 5, 6, 9) and 
including four VAMCs, eight Vet Centers, and multiple CBOCs and 
contract clinics in the most rural counties. The utilization rate 
reported here may also be higher due to the very broad definition of 
``service use'' in this survey.
    Helpfulness of Supports and Services. Overall, 65% of the 
respondents indicated that use of Informal Supports was helpful to 
them; 53% indicated that services of Mental Health Professionals were 
helpful. Formal Supports were helpful to 45% overall, but more so to 
Veterans with PTSD/Depression (50%) than Other Veterans (39%). 
Emergency Medical Services were helpful to 32% of the respondents who 
used them (36% of Veterans with PTSD/Depression, 26% of Other 
Veterans). Finally, while 45% found the Center-Based Facilities to be 
helpful, again Veterans with PTSD/Depression (52%) found the services 
more helpful than did Other Veterans (36%). Although we cannot 
determine from this survey if Veterans were seeking or receiving those 
services most appropriate to their individual situations, it is 
disheartening to see that less than half of Veterans (including those 
with mental health issues and declines in functioning) are reporting 
the receipt of helpful 
services.
                        conclusions and concerns
    The prior sections support the initial statements concerning the: 
(a) high level of combat exposure experienced by members of the West 
Virginia National Guard and Reserves, with higher exposure by Rural 
than Urban Veterans; (b) greater negative impact on the psychological 
and daily functioning (of Veterans and their significant others and 
children) experienced by members of the National Guard and Reserves, 
with greater negative impact on Rural as compared to Urban Veterans; 
and, (c) apparent under-utilization of various levels of support and 
services, and the much less than complete satisfaction with the 
``helpfulness'' of those services, despite generally high rates of 
awareness of service availability among Veterans.
    These findings point to significant concerns regarding the 
provision of adequate services to all Veterans, but especially members 
of the National Guard and Reserves, and those from rural areas of Our 
Nation. These findings, coupled with the fact that the respondents in 
WV seek out individuals in their informal helping systems first, and 
given that there are multiple levels of services and supports that 
Veterans utilize, we need not depend solely on the VA and DOD for the 
provision of those services and supports. Further, as the need for 
services goes well beyond Veteran themselves, but includes their 
children and immediate and extended families, the need for a wide range 
of family support services is evident--this being an area well beyond 
typical VA services. In West Virginia, for example, the Council of 
Churches has developed CARE-Net, a grassroots network of houses of 
worship and their local communities to provide support, services, and 
referrals to Veterans and their families. Further, the West Virginia 
National Guard Family Assistance Center is consulting with other States 
(such as Minnesota) about the development of a full circle of programs 
and supports that run from pre-deployment, during deployment, and 
following deployment. Although the Guard is now mandated to provide 
homecoming and follow-up programs, States are left to develop and fund 
those programs.
    In West Virginia, we are also collaborating with the VA, AHEC (Area 
Health Education Centers), and the Citizen-Soldier Program to bring to 
our State a model program for disseminating information, providing 
continuing education to community providers, and linking agencies. 
These sorts of efforts are arising at all levels due to the 
overwhelming need to support and serve Veterans and their families, and 
to reintegrate Veterans back into their families and communities. It is 
recognized that the VA and DOD need not--and perhaps should not be 
expected to--do it all, even if such were possible. We recognize that 
it takes a community--not an agency--to welcome a Veteran home.
    In our work, we have thus formulated a number of questions that 
will need to be addressed, including:

    1. How will we network the multiple levels of service, from 
informal/grassroots groups to state programs and facilities to Federal 
programs and facilities?
    2. How will we identify and follow Veterans over years to decades, 
from initial return from deployment to resolution of identified 
problems?
    3. How will we identify and follow those Veterans in most immediate 
need and those at greatest risk for suicide?
    4. How will we ensure that all Veterans have equal access to 
services, including rural and minority Veterans, those who have been 
other than honorably discharged, and those who commonly do not seek 
treatment or experience significant barriers to service access?
    5. How will we ensure that Veterans are able to return--as soon as 
possible--to a productive life?
    6. How will we ensure that the Families of Veterans receive the 
support and services that they need at all stages of their Veteran's 
deployment?
    7. How will we ensure adequate funding for services and related 
research?
    8. How can we do our best, as a Nation, to fully honor the 
commitments and sacrifices of Veterans and their Families?
                            recommendations
    In response to these data, the above questions and concerns, and 
our personal experiences working with Veterans, families, communities, 
agencies, and committed professionals, we have formulated three key 
recommendations:

    I. Fully fund and support homecoming programs to enable the 
National Guard to adequately prepare their personnel and families for 
upcoming deployment; provide support and services during deployment; 
and offer support, services and referrals post-deployment (such as at 
the required 30-, 60-, 90-, and 180-day reunions).
    II. Support and fund the dissemination and evaluation of best 
practices in a broad array of areas, including: (a) group and 
individual treatment of combat-related PTSD (and comorbid depression, 
substance abuse, family violence, etc.); (b) identification of suicide 
risk and provision of related risk reduction services; (c) 
reintegration to community, work, and educational settings; and (d) 
child and family support and therapy services. Such dissemination 
should occur with a range of professionals (e.g., clergy, social 
workers, psychologists, vocational counselors, physicians and other 
primary care professionals, psychiatrists, teachers), and in a range of 
settings (e.g., from private mental and physical health practitioners; 
to local grade schools, technical schools, and colleges; houses of 
worship; community mental health centers; community health centers, 
hospitals, and rural health clinics; to state agencies, military units, 
and AHECs; to Federal agencies, such as Vet Centers, CBOCs, and VAMCs).
    III. Support and fund the linking of local, state, and Federal 
agencies in a coordinated effort of overlapping lay, volunteer, 
paraprofessional, and professional services and resources in order to 
meet the tremendous mental health, physical health, and quality-of-life 
needs of our Military Personnel.

    Chairman Akaka. Thank you very much, Dr. Scotti.
    Colonel Livingston.

STATEMENT OF COLONEL BRADLEY A. LIVINGSTON, CHIEF, JOINT STAFF, 
                     MONTANA NATIONAL GUARD

    Colonel Livingston. Mr. Chairman and Members of the 
Committee, thank you for the opportunity to provide testimony 
on the Montana National Guard's efforts to strengthen our post-
deployment and reintegration process.
    My testimony today reflects my personal views, and does not 
necessarily reflect the views of the Air Force, the Department 
of Defense, or the Administration.
    Again, I am Colonel Brad Livingston, the Director of the 
Joint Staff for the Montana National Guard. As previously 
identified, in March 2007, the Montana National Guard lost a 
soldier to a suicide linked to PTSD. That action prompted 
Montana's Governor Brian Schweitzer and the Adjutant General 
Randy Mosley to form a post-deployment health reassessment 
program task force to evaluate the post-deployment process used 
by the Montana National Guard.
    We asked the task force, comprised of non-DOD subject 
matter representatives from a variety of areas--for example, 
mental health experts, Veterans Administration, local 
ministers, and State government officials to evaluate our 
current process, and to recommend actions for program 
improvements.
    After nearly 3 months of meeting, the PDHRA task force 
reported--confirmed that the Montana National Guard was 
following and, in many cases, exceeding established Department 
of Defense and National Guard Bureau program guidelines, yet 
the task force made fourteen recommendations in an effort to 
improve our program. Due to the time, I will not go through all 
14 of them, as they are in my written testimony.
    As previously identified, all returning soldiers and airmen 
now complete the VA form 10-10EZ to enroll for VA benefits. 
This expedites follow-on care through the VA in the event that 
it becomes necessary.
    The assistance we have received from the Fort Harrison 
Veterans Administration team has been key in our improved 
program. The current PDHRA program conducted within 90 and 180 
days after redeployment has been extended to 2 years. 
Redeploying soldiers and airmen receive a behavioral health 
review either through a post-deployment health reassessment or 
a periodic health assessment conducted every 6 months for 2 
years.
    Montana implemented the periodic health assessment in June 
2007. This new program replaced the formal annual medical 
certificate and the 5-year physical program with an annual 
medical review. The new review is required every year, and 
includes a self-assessment by medical examination and a face-
to-face meeting with a physician or a physician assistant.
    Montana Senators Max Baucus and John Tester met with Dr. 
Chu, Under Secretary for Defense for Personnel and Readiness, 
DOD, and secured an additional PDHRA cycle for Montana. This, 
again, allowed us to expand our current review out to the 2-
year mark.
    The Montana National Guard formed a pilot program with 
TriWest Health care Alliance to place behavioral health care 
specialists at both the Joint Force Headquarters in Helena, 
Montana, and the 120th Fighter Wing Headquarters in Great 
Falls. This program incorporates a face-to-face with a 
behavioral health specialist into our annual periodic health 
assessment program. The pilot began in June 2008, and will 
continue through December 2008. At that time, we will evaluate 
the effectiveness, along with the options for future 
participation.
    The Montana National Guard Public Affairs office developed 
a comprehensive marketing plan for our outreach efforts. A 
large part of the plan included development of a PTSD outreach 
video and brochures that have been used as an educational tool 
to help Montana build a stronger community partnership with 
medical behavioral health providers, churches, Veterans service 
organizations, and both the State and Federal--and employees 
throughout the State of Montana.
    Additionally, we conducted community presentations and a 
presentation of Picking up the Pieces, a DVD that we produced, 
along with a short presentation on PTSD in 20 Montana 
communities that host a National Guard Armory. Our goal was to 
provide education on the Guard's progress in addressing PTSD, 
elevate the public's awareness, and involve Montana 
communities' efforts to address the issues of PTSD within the 
Montana National Guard and other service components.
    The Montana National Guard continues to move forward in its 
implementation of the task force recommendations and our new 
development cycle support beyond the Yellow Ribbon Program. We 
appreciate the assistance received from our congressional team, 
the Governor, the National Guard Bureau, the Department of 
Defense, and our many community partners who have contributed 
their assistance and support in our efforts. We believe it 
takes a community to return a veteran from combat.
    On behalf of Governor Schweitzer, Major General Mosley, and 
more than 3,700 men and women of the Montana National Guard, 
thank you for your continued support and commitment to 
Montana's veterans and their family. Thank you.
    [The prepared statement of Colonel Livingston follows:]
 Prepared Statement of Colonel Bradley A. Livingston, Director of the 
                  Joint Staff, Montana National Guard
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to provide testimony on the Montana National Guard's 
efforts to strengthen our post-deployment and reintegration processes.
    ``My testimony today reflects my personal views and does not 
necessarily reflect the views of the Air Force, the Department of 
Defense, or the Administration.''
    I am Col. Brad Livingston, the Director of the Joint Staff for the 
Montana National Guard. In March 2007, the Montana National Guard lost 
an Army Soldier to a suicide linked to Post Traumatic Stress Disorder 
(PTSD). That action prompted Montana's Governor, Brian Schweitzer, and 
Adjutant General, Randy Mosley, to form a Post-Deployment Health 
Reassessment Program (PDHRA) Task Force to evaluate the post-deployment 
processes used by the Montana National Guard.
    We asked the PDHRA Task Force, comprised of ten community subject-
matter representatives from a variety of areas--for example: mental 
health experts; Veterans Administration employees; local ministers; and 
state government officials--to evaluate our current processes and to 
recommend actions for program improvements.
    Although the PDHRA Task Force report confirmed the Montana National 
Guard was following and, in many cases, exceeding established 
Department of Defense and National Guard Bureau program guidelines, the 
Task Force made 14 recommendations in an effort to help improve our 
program.
    The recommendations are as follows:

    1. Evaluate medical status before discharge
    2. Allow Guardsmen to request honorable discharge
    3. Thoroughly review all Guard PDHRA personnel files for 
completeness
    4. Expand the PDHRA Process
    5. Mandate Enrollment in the VA Healthcare System
    6. Guardsmen receive awards and medals within 90 days of return
    7. Send badge information to DOD within 90 days
    8. Include mental health focus in training
    9. Increase awareness of available resources
    10. Create Crisis Response Team (CRT)
    11. Allow drill attendance upon return home
    12. Increase informal support systems--Vet2Vet
    13. Enhance Family Readiness Program
    14. Form partnerships with State Veteran's Groups
             pdhra campaign plan summary of accomplishments
Modified Discharge Process
    Montana modified the discharge process to incorporate an additional 
series of reviews prior to approval of a discharge. In addition to the 
current command assessment, reviews were added for medical, legal, and 
senior leadership. This serves the purpose of confirming that a 
discharge request for an OEF/OIF/ONE member is not related to a PTSD or 
other combat issue.
Developed Crisis Response Teams
    In response to the recommendation, we created two Crisis Response 
Teams, with one team located in Helena, Montana and the other in Great 
Falls, Montana. The purpose of the Crisis Response Team is to evaluate, 
analyze, and advise unit representatives, Guardsmen, and/or their 
families on situations that involve National Guard members affected by 
Post Traumatic Stress Disorder (PTSD), Mild Traumatic Brain Injury 
(mTBI), or other traumatic life events.
Mandated Enrollment into VA System
    All returning Soldiers and Airmen now complete the VA Form 10-10EZ 
to enroll for VA benefits. This expedites follow-on care through the VA 
in the event it becomes necessary.
Modified PDHRA Process
    The current PDHRA process, conducted within 90-180 days after 
redeployment, has been extended to two years. Redeploying Soldiers and 
Airmen receive a behavioral health review through either a Post 
Deployment Health Reassessment or a Periodic Health Assessment, 
conducted every six months for two years.
Suicide Prevention and PTSD/mTBI Training
    Increased training on suicide prevention, PTSD, and mTBI was 
conducted. All units have received suicide training and this is now an 
annual requirement. Trained Montana counselors conducted PTSD/mTBI 
Outreach Training in all units. We distributed focused resource/benefit 
information (to include a copy of the book, Down Range to Iraq and 
Back) and conducted outreach to increase awareness of the National 
Guard Transition Assistance Advisor (TAA). We continue our efforts 
through Web site modifications, ongoing unit training, and partnerships 
with community organizations.
Reaffirmed Drill Attendance Policy
    The Adjutant General published a policy letter to reaffirm a 
Soldier's (ARNG only) ability to drill immediately upon redeployment 
for the first 90 days previously identified as a ``no drill'' period).
Hired a PDHRA Program Manager
    A full-time PDHRA Program Manager was hired. This position manages 
the PDHRA process and our ongoing efforts in implementing the actions 
of the PDHRA Campaign Plan.
Redesigned MTNG Website--Yellow Ribbon
    The Montana National Guard Web site, located at 
www.montanaguard.com, is updated to include information on the Beyond 
the Yellow Ribbon program. The Web site consolidates related 
information to help minimize confusion when benefits are needed. As we 
move forward, we will develop a separate PDHRA Web site to continue 
enhancing this effort.
Implemented Periodic Health Assessment
    Montana implemented The Periodic Health Assessment (PHA) in June 
2007. This new program replaced the former Annual Medical Certificate 
and the five-year physical program with an annual medical review. The 
new review is required every year. It includes a self-assessment 
complimented by a medical examination and face-to-face meeting with a 
physician or physician's assistant.
Redesigned Individual Mobilization Process
    Soldiers and Airmen who volunteer to mobilize as individual 
augmentees now receive the same redeployment information as units who 
redeploy. A comprehensive checklist ensures all necessary stations are 
completed before a Soldier or Airman is released.
Honorable Discharge Policy Request
    We published a policy memorandum to allow Guardsmen to request an 
honorable discharge based on deployment-related PTSD or mTBI 
difficulties.
Expanded Family Resource Centers
    Through additional funding resources, the Montana National Guard 
Family Program was able to hire two contracted part-time Family 
Assistant Coordinators, located in Billings and Kalispell, Montana.
Increased Family Communications
    The Family Program has expanded its efforts to provide information 
and additional focus on PTSD/mTBI signs and symptoms, along with 
providing resource information for families. The family program is also 
developing a consolidated resource guide to further enhance information 
access and availability.
State Veteran's Affairs--MT Mental Health Association
    The State Department of Veteran's Affairs partnered with the 
Montana Mental Health Association to air a variety of statewide Public 
Service Announcement radio spots from 9 Jan 2008 through 19 March 2008.
Received Additional PDHRA Cycle from OSD
    Montana Senators Max Baucus and Jon Tester met with Dr. Chu, 
Undersecretary of Defense for Personnel and Readiness, DOD, and secured 
an additional PDHRA cycle for Montana. This allows us to expand our 
current review out to the two-year mark.
Invitational Travel Authorizations for Family Members
    National Guard Bureau extended funding to the Montana National 
Guard to place family members on invitational orders to attend 
Deployment Cycle Support (DCS) events. This helps us in involving all 
families in the redeployment training.
TRIWEST Healthcare Pilot Program
    The Montana National Guard formed a pilot program with TRIWEST 
Healthcare Alliance to place a behavioral healthcare specialist at both 
the Joint Force Headquarters in Helena and at the 120th Fighter Wing 
Headquarters in Great Falls. This program incorporates a face-to-face 
with a behavioral health specialist into the annual Periodic Health 
Assessment program. The pilot began in June 2008 and will continue 
through December 2008. At that time, we will evaluate the 
effectiveness, along with options for future participation.
Joint Family Support Assistance Program (JFSAP)
    National Guard Bureau selected Montana to participate in the Joint 
Family Support Assistance Program. This program extends three new 
positions to our Family Programs to assist with family and youth 
outreach. These positions include a Child and Youth Specialist and two 
Military Family Benefits Specialists. Program contractors have already 
begun the recruitment process.
Community Partnership Program--Picking up the Pieces DVD
    The Montana National Guard Public Affairs Office developed a 
comprehensive marketing plan for our outreach efforts. A large part of 
the plan included the development of a PTSD Outreach Video and 
brochures that have been used as educational tools to help the MTNG 
build stronger community partnerships with Medical (behavioral health 
care providers), Ministerial (area churches), Veteran Services 
Organizations (American Legion, VFW, and DAV), State (DPHHS), Federal 
(OSD, NGB), and Employers located throughout the state. Montana sent a 
direct mailing that included a copy of the DVD and informational 
brochures, along with a letter of partnership request, to all 
behavioral health care providers, ministerial groups, and Veteran 
Services Organizations in early May 2008. Additionally, we conducted 
community presentations of our Picking up the Pieces DVD, along with a 
short presentation on Post Traumatic Stress Disorder (PTSD), in 20 
communities that host a National Guard Armory. Our goal was to provide 
education on the Guard's progress in addressing PTSD, elevate public 
awareness, and involve Montana communities with our efforts to address 
the issues of PTSD within the Montana National Guard and other service 
components. This was a community event conducted during the weeks of 19 
May and 26 May 2008. Nearly 400 Montana residents attended one of these 
meetings.
Radio Public Service Announcements
    Montana Veteran's Affairs Division and the Montana Mental Health 
Association teamed up to produce and air 30 second awareness radio 
spots across Montana in the months of January, February, and March 
2008. These spots focused on PTSD and the VA resources available to 
assist those in need.
Television Public Service Announcements
    The Montana Veteran's Affairs Division and Montana Mental Health 
Association produced 30-second television public service announcements 
to again highlight and raise awareness of PTSD. The spots use footage 
from the recently completed Picking up the Pieces DVD, produced by the 
MTNG Public Affairs Office.
Published National Guard Resource Guide
    The Montana National Guard developed a Resource Guide that 
consolidates many of the most commonly used resources to treat PTSD and 
mTBI into one convenient booklet. We mailed the booklet to all members 
of the Montana National Guard and their families in July 2008.
Closing Remarks
    The Montana National Guard continues to move forward in its 
implementation of the Task Force recommendations and our new Deployment 
Cycle Support, Beyond the Yellow Ribbon program. We appreciate the 
assistance received from our Congressional TEAM, the Governor, National 
Guard Bureau, Department of Defense, and our many community partners 
who have contributed their assistance and support in our efforts.
    On behalf of Governor Schweitzer, MG Mosley, and the more than 
3,700 men and women of the Montana National Guard, thank you for your 
continued support and commitment to our Montana veterans and their 
families.

    Thank You.

    Chairman Akaka. Thank you very much, Colonel Livingston 
from Montana National Guard.
    And now we will hear from Colonel Boyd from Vermont Army 
National Guard.
    Colonel Boyd.

 STATEMENT OF LIEUTENANT COLONEL JOHN C. BOYD, DEPUTY CHIEF OF 
        STAFF FOR PERSONNEL, VERMONT ARMY NATIONAL GUARD

    Lieutenant Colonel Boyd. Good morning, Chairman Akaka and 
Members of the Committee. Thank you for the invitation to 
discuss the Vermont National Guard Veterans and Family Outreach 
Program.
    My name is Lieutenant Colonel John Boyd, and I serve as the 
Deputy Chief of Staff for Personnel for the Vermont Army 
National Guard, and I have direct oversight over our outreach 
program for returning servicemembers and their families.
    My testimony today reflects my personal views and does not 
necessarily reflect the views of the Army, the Department of 
Defense, or the Administration.
    Since September 11, 2001, 2,581 Vermont National Guardsmen 
and 268 Reservists who reside in Vermont have deployed in 
support of OIF and OEF.
    Early in the mobilization process, the Vermont National 
Guard recognized that soldiers and airmen deserve the very best 
post-deployment support available. It became increasingly 
apparent that Post Traumatic Stress Disorder was developing 
into a significant issue. While the many degrees of this 
affliction were diagnosed in some soldiers, the instate 
infrastructure to match this emerging need had yet to be 
created.
    As the Committee knows, National Guard and Reserve 
servicemembers, particularly in States such as Vermont, which 
are rural and do not have any active duty military 
installations, can experience challenges with awareness of and 
access to mental health and other benefits when they return 
from deployment.
    In 2005, the State of Vermont recognized the need for 
greater assistance for the National Guard soldiers and their 
families, which led our Legislature to allocating $250,000. 
These funds were used to establish the first ever sharing 
agreement between the Veterans Administration and the Vermont 
National Guard.
    Seeing a continued and growing need for mental health 
services for veterans and their families, the Vermont National 
Guard, in partnership with others, designed an innovative 
outreach readjustment and reintegration program targeted at our 
returning OIF and OEF veterans and their families throughout 
the State.
    This program, which was started in 2007 with $1 million in 
Federal funding, employs trained outreach specialists, a 
majority of which are combat veterans, to reach out directly to 
our returning OIF and OEF veterans and their families to ensure 
that they are receiving the medical mental health and other 
assistance that they need. One of the main goals of this 
program is to personally contact each and every one of these 
veterans to check in on them and connect them to relevant 
services.
    In order to develop the goals for the outreach program, the 
Vermont National Guard and VA officials from the White River 
Junction Medical Facility met to discuss existing services in 
the State on the Federal and local level, and how congressional 
resources could be used most effectively to provide 
servicemembers and their families with the best possible care.
    Up to this time, Vermont had lost 11 Guardsmen: nine in 
Iraq, one in Kuwait, and one in Afghanistan. In addition, 
another 16 soldiers and Marines with Vermont-related 
connections were killed in action. This number continued to 
elevate Vermont into the unfortunate circumstance of having one 
of the highest per capita casualty rates in the war. This 
cumulative loss and the effect it has had on several 
deployments, became a driving force to develop a robust program 
focused on helping returning soldiers with PTSD, other medical 
conditions, TBI, and other needs.
    The Vermont Veterans and Family Outreach Program goal was 
to construct a Vermont National Guard managed outreach program 
developed and sustained to help identify and refer 
servicemembers and their families to the appropriate clinical 
care to serve their readjustment needs.
    This program was designed so that each of the five outreach 
specialists worked out of five existing Vermont National Guard 
family assistance centers. These centers are located in 
different areas of the State, and it was linking our work with 
the Guard's family programs that allowed us to have a full 
wraparound with the family and the soldier.
    At the same time that this outreach team was working across 
the State, Federal resources were used to fulfill the Adjutant 
General's outreach program's goal to help all soldiers 
suffering from mental health difficulties. The resources were 
used to enter into a sharing agreement with the Veterans 
Administration, allowing them to hire two additional qualified 
and certified clinicians, serving under the supervision of the 
Mental Health Services Director at the White River VA. And in 
addition, $259,000 was shared with the VA to support clinical 
mental health outreach throughout Vermont. These services 
included basic and advanced mental health service for our 
servicemembers and their families.
    Initially, a simple survey was developed to capture basic 
soldier data such as name and gender. In addition, among other 
questions, each respondent was asked to answer which deployment 
they were on, which component they deployed with, the length of 
tour, et cetera. This initial survey has since been revised 
twice with the assistance of the Veterans' Affairs hospital, 
and we subsequently have begun using a TBI survey, which is 
providing some significant results.
    The program has set its goal in contacting all of our OIF 
and OEF Reserve members, airmen, sailors, and Marines in the 
State. To do this, we use a number of different strategies 
reaching out, such as public service announcements, mailings, 
posters, just to name a few.
    I would like to highlight the importance of using combat 
veterans on an outreach team. I believe these members are able 
to focus down on a direct, person-to-person peer outreach 
approach. Our program has observed that using fellow veterans 
help allay anxiety some soldiers felt when they were first 
contacted.
    All of our outreach specialists focused on ensuring 
veterans were receiving their benefits, including early 
diagnosis and treatment of PTSD and TBI, ensuring that mental 
health counseling could be extended to family members and that, 
as much as possible, could take place in the communities where 
the veteran lived.
    In doing this detail-oriented work, our staff observed that 
making personal contact with the veterans is a time-intensive 
process. When we list a servicemember as being contacted, that 
means we have actually opened a case with the individual, made 
a serious attempt to complete the survey with them. For many 
cases, this is just the first phase of our work. Often, 
establishing a relationship with a contacted veteran--the next 
step is a referral to VA.
    In order to make sure that our outreach staff is of the 
highest quality, we spend a significant amount of time in 
training so as to ensure professionalism on the job. That 
included training with the VA as well as private parties.
    Towards the end of 2007, Senator Sanders convened a meeting 
of the Vermont veteran and military community stakeholders 
(including the Vermont Guard, Federal and State Veterans Affair 
leadership) to discuss the lessons learned from our first year 
of the program, and to establish how new resources could best 
be used to strengthen and expand the program.
    We believe that Vermont's outreach program strength is its 
use of mostly veteran outreach specialists to focus on 
personally meeting soldiers on their own turf, where anecdotal 
evidence suggests they are much more prone to reveal the 
challenges they are experiencing in their lives than if they 
are being interviewed at a military facility or in a group 
setting.
    Our program also does a strong job of leveraging the 
resources of entities in the State that already provide 
important services for our servicemembers, especially Vermont 
Department of Veterans Affairs. We have formed strong 
partnerships with all of these agencies with the State, and we 
also have strong partnerships in the public, private, and 
nonprofit stakeholders through our military family and 
community network.
    As our program continues to mature, it serves as an example 
of an effective and cost-efficient rural delivery model for 
other States. As earlier testimony today has discussed, the 
Department of Defense is now in the process of implementing the 
new Yellow Ribbon Reintegration Program, created in Fiscal Year 
2008 Defense Authorization Act.
    We are pleased that through Senator Sanders' efforts, the 
Yellow Ribbon Program included a provision based on our Vermont 
model, which allows Yellow Ribbon to fund outreach initiatives 
in the various States.
    We are proud of the role that Vermont took in developing an 
effective response to the invisible wounds suffered by our 
soldiers which also impacts their families and communities. We 
believe this commitment to our veterans is our obligation, and 
an important way to ensure that they are able to remain a part 
of the Guard and Reserve, while also living a productive and 
normal life.
    As you can see from my PowerPoint slides in your packet, as 
of 18 July 2008, we have contacted nearly 1,000 of our 
soldiers, sailors, airmen, and Marines. Of them, 85 percent are 
enrolled in the VA for some level of care or assistance. Our 
hope is to continue this work until every servicemember and 
their family that needs help gets help.
    Thank you for this opportunity to discuss Vermont's 
outreach program, and I look forward to answering any questions 
that you may have.
    [The prepared statement of Lieutenant Colonel Boyd 
follows:]
Prepared Statement of Lieutenant Colonel John C. Boyd, Deputy Chief of 
            Staff for Personnel, Vermont Army National Guard
    Chairman Akaka and Members of the Committee, Thank you for your 
invitation to discuss the Vermont National Guard Veterans and Family 
Outreach Program. My name is Lieutenant Colonel John Boyd and I serve 
as the Deputy Chief of Staff for Personnel of the Vermont Army National 
Guard and have direct oversight over the outreach program for returning 
servicemembers and their families.
    ``My testimony today reflects my personal views and does not 
necessarily reflect the views of the Army, the Department of Defense, 
or the Administration.''
    Since September 11, 2001, 2581 Vermont National Guardsmen (1968 
Army Guard and 613 Air Guard) and 268 Reservists (159 Army Reserve, 22 
Air Force Reserve, 59 Marine Corps Reserve and 28 Naval Reserve) have 
deployed in support of Operation Iraqi Freedom and Operation Enduring 
Freedom. I believe it is worthwhile to note that Vermont is a Guard and 
Reserve state with no active duty installation in the state. The 
closest active duty installations are over five hours travel from 
anywhere in the state. As we all know, the reserve component's role 
since 9/11 has transformed from a strategic reserve force to an 
operational reserve force. This transformation has led to greater 
frequency in mobilizations and deployments since 2001.
    Early in the mobilization process of our very first deployments 
after September 11th, the Vermont National Guard recognized that 
Soldiers and Airmen deserved the very best post-deployment support 
available. As Operation Enduring Freedom and Operation Iraqi Freedom 
continued, it became increasingly apparent that Post Traumatic Stress 
Disorder was developing into a significant issue. While the many 
degrees of this affliction were diagnosed in some soldiers, the in-
state infrastructure to match this emerging need had yet to be created. 
As the Committee knows, National Guard and Reserve servicemembers, 
particularly in states such as Vermont which are rural and do not have 
any active duty military installations, can experience challenges with 
awareness of and access to mental health and other benefits when they 
return from deployment. In 2005, the State of Vermont recognized the 
need for greater assistance for National Guard Soldiers and their 
families, which led to the legislature allocating $250,000. These funds 
were used to establish the first ever, sharing agreement between the VA 
and the Vermont National Guard. This agreement allowed the VA to screen 
and treat veterans outside their eligibility window and more 
importantly provide mental health counseling for the family members of 
our OIF and OEF veterans. This paradigm shift has produced amazing 
results for the veteran and his or her family and strengthened the ties 
between the Vermont National Guard and the VA.
    Seeing a continued and growing need for mental health services for 
veterans and their families, the Vermont National Guard, in partnership 
with the Department of Veterans Affairs Medical Center in White River 
Junction, Vermont, our Congressional delegation, and other state 
stakeholders designed an innovative outreach, readjustment, and 
reintegration program targeted at returning Iraq and Afghanistan 
veterans and their families throughout the State of Vermont.
    This program, which was started in 2007 with $1 million in Federal 
funding, employs trained outreach specialists, a majority of which are 
combat veterans, to reach out directly to returning OEF/OIF 
servicemembers and their families to ensure that they are receiving the 
medical, mental health, and other assistance that they may need. That 
may mean assistance with general health problems; TBI screening and 
treatment; mental health, marriage, and/or financial counseling; 
employment issues; services for children; and substance abuse awareness 
and treatment or other areas. One of the main goals of the program is 
to personally contact each and every one of these veterans to check in 
on them and connect them to relevant services.
    In order to develop the goals for the outreach program the Vermont 
National Guard stakeholders (Family Readiness Leadership, Chaplains, 
State Medical Command representatives, and the United States Property 
and Fiscal Office in Vermont) and VA officials from the White River 
Junction Medical Facility met to discuss existing services in the state 
on the Federal and local level and how Congressional resources could be 
used most effectively to provide servicemembers and their families with 
the best care possible.
    Up to this time, Vermont has lost eleven Guardsmen; nine in Iraq, 
one in Kuwait and one in Afghanistan. In addition, another sixteen 
Soldiers and Marines with Vermont-related connections were killed in 
action. This number continued to elevate Vermont into the unfortunate 
circumstance of having the highest per capita casualty rate in the Iraq 
war. This cumulative loss and the effect it had on several deployments, 
especially Task Force Saber (Ar Ramadi, Iraq, June 2005-June 2006), 
became a driving force to develop a robust program focused on helping 
returning soldiers with PTSD, other mental health conditions, TBI and 
other needs.
    The Vermont Veterans and Family Outreach Program first launched in 
January 2007. Its goal was to ``construct a Vermont National Guard 
managed outreach program, developed and sustained to help identify and 
refer Service Members and their families to appropriate clinical care 
to serve their readjustment needs.''
    More specifically the first phase of the program included:

    <bullet> Interviewing, hiring, and training five Outreach 
Specialists and one supervisor in skills to contact post-deployed 
Reservists and their families, ascertain their individual health 
situation, and then refer them to qualified clinical and pastoral help 
as needed;
    <bullet> Entering into a sharing agreement with the VA to use DOD 
dollars to pay for VA care for servicemembers and their families; and
    <bullet> Resources were also used to reimburse outreach specialists 
who drove servicemembers to VA facilities to get clinical help.

    The program was designed so that each of the five outreach 
specialists worked out of five existing Vermont National Guard Family 
Assistance Centers (FACs) in five different areas of the state where 
there was significant in-state Guard membership. Linking our work with 
the Guard's Family Assistance Centers made sense for a number of 
reasons:

    <bullet> The new outreach staff was able to capitalize on the 
existing networks used by the FAC Specialists which gave them immediate 
access to servicemembers and their families that had strong and trusted 
relationships with the FAC staff;
    <bullet> We leveraged the resources of the Family Assistance 
Centers allowing us to use Federal dollars more efficiently by reducing 
the need for new office space; and
    <bullet> Referrals to the Outreach Program came through the FACs by 
concerned family members, employers, and commanders. Conversely, family 
related issues identified during Outreach Specialist/Soldier 
discussions were given to the FACs for immediate attention.

    This full ``wrap-around'' method continues to work extremely well. 
The program began in earnest in the late spring of 2007 with Outreach 
Team members traveling around the state to conduct direct outreach to 
veterans.
    At the same time that this Outreach Team was working across the 
state, Federal resources were also used to fulfill the Adjutant 
General's and the Outreach Program's goal to help all soldiers 
suffering from mental health difficulties. The resources were used to 
enter into a sharing agreement with the VA, allowing them to hire two 
additional qualified and certified clinicians serving under the 
supervision of the Mental Health Services Director at the White River 
Junction VA Medical Center. In addition, $259,000 was shared with the 
VA to support the clinical mental health outreach throughout Vermont. 
These services included basic and advanced mental health services for 
our servicemembers and their families.
    We also realized early on, the strong need to track our work so 
that we could follow the trends in the health or other challenges our 
returning servicemembers and their families were experiencing, and to 
evaluate and improve our efforts. Initially a simple survey was 
developed to capture basic solder data such as name, age, and gender. 
In addition, among other questions, each respondent was asked to answer 
which deployment they were on, which Component they deployed with, 
length of tour, and whether or not they were receiving any disability 
benefits. This initial survey has been revised twice with the 
assistance of the Mental Health Services Director of the VA Medical 
Center and a copy is included as an attachment to this testimony. 
Subsequently, in concert with the VA we also introduced a TBI survey 
that has greatly improved our efficiency at determining those veterans 
who require a more formal TBI screening.
    The program has set as its goal contacting all OEF/OIF Reserve 
Soldiers, Airmen, Sailors, and Marines in the state. To do this we used 
a number of different strategies for reaching out to these 
servicemembers. Each Reserve Center in Vermont was contacted with 
information about the Outreach program and its features were explained 
to unit commanders. Additional help came from the State of Vermont's 
Office of Veterans' Affairs, which had Reserve soldier contact 
information not available to the National Guard. Information from the 
Department of Defense Form 214 was shared with the Guard and that 
proved immensely useful in figuring out how to contact these 
servicemembers. In addition, the Outreach Team placed information about 
the program at each rest stop on Interstate Highways 89 and 91. These 
highly visible posters resulted in some of the first referrals to the 
program.
    I also want to highlight the importance of using combat veterans as 
Outreach Team members and focusing on direct person-to-person or peer 
outreach. Our program has observed that using fellow veterans helped 
allay anxiety some soldiers felt when first contacted. Two of the team 
members are OIF Task Force Saber veterans, further strengthening ties 
to servicemembers from this deployment. All of our Outreach specialists 
focused on ensuring veterans were receiving benefits including early 
diagnosis and treatment of PTSD and TBI, and also assuring that mental 
health counseling could be extended to family members, and that as much 
as possible treatment could take place in the communities where the 
veterans lived.
    In doing this detailed oriented work our staff have observed that 
making personal contact with veterans is a time intensive process. When 
we list a servicemember as being ``contacted,'' that means that we have 
actually opened a case with the individual and made a serious attempt 
at completing a survey with them. For many cases, this is just the 
first phase of work. Often, after establishing a relationship with a 
contacted Veteran, referral to the VA takes place. In many cases the 
Outreach Specialist drives the servicemember to the White River 
Junction VA Medical Center, or the CBOC clinic in Colchester, Vermont, 
for their first couple of visits. While this ``windshield time'' 
reduced the time available to contact other veterans, Outreach Team 
members have noted that this drive time is, in reality, a short 
decompression period for the servicemember. This time helps many 
soldiers prior to their arrival at either of the two VA facilities. 
Faced with the decision between helping a soldier right in front of 
them and those yet to be contacted, the Outreach Specialist always 
tends to the more immediate need. The person-to-person time spent by 
our Outreach Specialists with each individual servicemember and/or 
their family is a very important component of the program.
    In order to make sure that our Outreach staff was of the highest 
quality we also spent a significant amount of time in training so as to 
ensure professionalism on the job. Training opportunities were 
explored, designed, and scheduled using existing VA and State 
Department of Human Services expertise. Each team member went through a 
series of VA benefit classes so as to best understand the system they 
were bringing referrals to. In addition, each Outreach Specialist 
graduated from a Critical Incident Stress Management (CISM) course 
taught by the International Critical Incident Stress Foundation. This 
coursework included ``what-if'' scenario training and dovetailed well 
with additional training on anger management, sexual assault, active 
listening skill development, suicide prevention, and reintegration 
coping skills.
    Towards the end of 2007 the Vermont Congressional delegation 
secured follow-on year resources of $3 million to continue the program. 
In order to make sure the resources were used most effectively, Senator 
Sanders convened a meeting of the Vermont veteran and military 
community stakeholders (including the Vermont National Guard and 
Federal and state VA leadership) to discuss the lessons learned from 
the first year of the program and establish how the new resources could 
best be used to strengthen and expand the program.
    Beyond continuing the existing program the stakeholders agreed to:

    <bullet> Deliver a joint letter from the Adjutant General and the 
Director of the White River Junction VA Medical Center to all returning 
Vermont veterans letting them and their families know about the 
program;
    <bullet> Craft a series of public service announcements about the 
program;
    <bullet> Create a 24-hour 1-800 number staffed by Vermont National 
Guard Veterans and Family Outreach personnel that servicemembers and 
families could access for immediate information;
    <bullet> Enhance VA services for servicemembers and families;
    <bullet> Hire more outreach workers to extend the reach and 
coverage area of our program;
    <bullet> Provide expanded mental health services to treat Post 
Traumatic Stress Disorder and other health issues;
    <bullet> Screen servicemembers for possible Traumatic Brain 
Injuries that have gone undetected or untreated; and
    <bullet> Produce more publications for posting, mailing and 
delivery to increase awareness of the program.

    We are currently implementing all of these initiatives.
    In the last number of years, many states including Minnesota, 
Maryland, Missouri, Montana, Maine, New Hampshire, and California have 
developed a wide range of innovative programs to help servicemembers 
transition back home. Each of these programs has important lessons to 
offer that other states can learn from and use as appropriate to their 
state and military population. We believe that Vermont's outreach 
program's strength is its use of mostly veteran outreach specialists to 
focus on personally meeting soldiers on their ``own turf'' where 
anecdotal evidence suggests they are much more prone to reveal the 
challenges they are experiencing in their lives than if they were being 
interviewed at a military facility or in a group setting. Our program 
also does a strong job of leveraging the resources of entities in the 
state that already provide important services for our servicemembers, 
especially the Vermont Department of Veterans Affairs. We have formed a 
strong partnership with the Federal VA in Vermont and have used DOD 
resources to enhance the VA's ability to provide care to our 
servicemembers and their families. We also have strong partnerships 
with public, private, and non-profit stakeholders in our state through 
our Military, Family, and Community Network.
    Since 2007, there has been a great deal of attention on the 
national level regarding reintegration programs for the Guard and 
Reserves, their proper structure, and the amount and source of funding 
needed to support them. The Vermont National Guard program, as it 
continues to mature, serves as an example of an effective and cost 
efficient rural delivery model for other states. As earlier testimony 
today has discussed, the Department of Defense is now in the process of 
implementing the new Yellow Ribbon Reintegration Program created in the 
FY08 Defense Authorization bill. We are pleased that through Senator 
Sanders' efforts that the Yellow Ribbon program includes a provision 
based on our Vermont model, which allows Yellow Ribbon to fund outreach 
initiatives in the various states.
    We are proud of the role Vermont took in developing an effective 
response to the ``invisible wounds'' suffered by our soldiers, which 
also impacts their families and communities. We believe this commitment 
to our veterans is our obligation and an important way to ensure that 
they are able to remain a part of the Guard and Reserve while also 
living a productive and normal life. As you can see from the Power 
Point slide presentation attached at the end of my testimony, as of 18 
July 2008 a total of 977 Vermont Veterans out of approximately 3700 had 
been contacted and had a case opened for them by our Outreach 
Specialist. Our goal is to contact each and every OEF/OIF veteran in 
our state. Of those contacted to date, 93% are male, 7% female and 85% 
enrolled in the VA for some level of care and assistance. 27% have been 
referred to the VA after a TBI screening tool was administered; 21% are 
currently on disability; and 19% are experiencing significant personal 
issues. Our hope is to continue this work until every servicemember and 
their family that needs help gets help. Thank you for this opportunity 
to discuss Vermont's outreach program and I look forward to answering 
any questions you may have.

    Chairman Akaka. Thank you very much, Colonel Boyd, for your 
statement.
    Now we will hear from Sergeant Meredith.

 STATEMENT OF SERGEANT ROY WAYNE MEREDITH, TEAM LEADER, 1/158 
             CALVARY, MARYLAND ARMY NATIONAL GUARD

    Sergeant Meredith. Chairman Akaka and distinguished Members 
of the Committee, thank you for the opportunity to speak with 
you today regarding my experience with the VA's post-deployment 
outreach program.
    Having served two tours of duty in Iraq over the last 3 
years, my testimony will reflect my personal experience, and 
does not necessarily reflect the views of the Army, the 
Department of Defense, or the Administration. However, I am 
grateful for this opportunity to speak.
    Mr. Chairman, I would qualify my testimony by first stating 
that, when I returned from Iraq in 2005, a formal reintegration 
such as the program we have now did not exist.
    When I returned to Fort Stewart, Georgia, I underwent some 
briefs from military personnel. The experienced counselors we 
have from the VA today were not at my reintegration training 
then. I was given some pamphlets and told to report to my local 
VA clinic if anything was wrong with me. I was told I could 
follow up for treatment for my wounds, but military staff 
thought everything that could be done for me was already done.
    I still was given an in-the-line-of-duty entry in my 
medical records. This means I can walk in and should not have 
to worry about processing a claim or restarting treatment. The 
doctors in any VA hospital or military hospital should be able 
to access my records and do a continuation of treatment for me 
at no cost because my injury was in the line of duty.
    However, when I reported to the VA clinic at Perry Point, 
Maryland, to receive follow-up care from battle injuries caused 
by an improvised explosive device while patrolling Samarra, 
Iraq, the VA tried to say my treatment would not be covered and 
I would have to pay for my medical expenses.
    I was billed, and when I went back for more treatment, I 
took copies of my medical records from the treatment I received 
after I was hit on July 30, 2005, on Camp Taji, Iraq. Even when 
I showed them my medical records, the VA still billed me.
    Finally, after several months of late notices and 
collection letters, the VA backed off and paid for the 
treatment and apologized for the way my case was handled. I had 
to file a claim in order not to be charged for treatment. This 
was a very stressful time upon my family, myself; and was 
rectified only because a social worker heard what I was going 
through and immediately started to help me. This was the first 
time any VA representative tried to explain my benefits 
associated with my 2005 tour.
    Comparatively, Mr. Chairman, after returning from Operation 
Iraqi Freedom in 2008, I was pleasantly surprised at the 
maturity of the post-deployment process being implemented by 
the State of Maryland. Sir, there are a number of areas in 
which my second experience was much better.
    First, there was a program outlining three phases of 
reintegration training--30 days, 60 days, and 90 days after 
returning home from my deployment. My family could participate 
in every phase, and to make it easier on us, the State of 
Maryland paid for hotel rooms for us over the course of the 
training. Having our wives or significant others interact was a 
huge success, and helped make the homecoming much easier.
    The VA had experienced counselors and claims workers at our 
disposal. They actually had two supervisors who gave a very 
informative class on how to file for claims, apply for 
benefits, guidance on seeking medical care; and not only did 
they give out many forms of literature about the VA, but also 
gave me their cards with all their contact information on it. I 
received email addresses, clinics, and hospital addresses 
countrywide; office faxes, office phone numbers, and even 
personal cell phone numbers of theirs, in case I needed to talk 
to them. I have also had these supervisors call me to see how I 
was coming along.
    There was also a fourth phase which consisted of a follow-
up at the VA hospital in Baltimore, Maryland. This has helped 
me a great deal, for I had a head injury from this tour, and 
the doctors have already set up appointments for me to be 
reevaluated for this recent injury, but also to recheck my 
previous injuries from my last tour, as well.
    Mr. Chairman, I would like to say as a Gulf War vet, and a 
two-time Iraqi Freedom vet, and the father of a Marine--my son, 
Mike, who has a combat tour in Iraq, as well--that I am not 
only concerned for myself and my troops, but am concerned for 
my children, as they one day will need the VA. And as a father, 
I want the best treatment for my children, and will help the VA 
to improve the care of our warriors.
    That being said, the difference in where we are today 
compared to where we were during my first two deployments is a 
180-degree difference in the quality of care given to those of 
us who have answered the call to defend our Nation.
    No longer do I wonder if I will be taken care of by my 
nation for wounds both seen and unseen, but rather I feel 
confident that I may be treated with respect and dignity that 
befits a proud warrior who is grateful to serve and will so 
again stand up and put my heart, body, and soul to the test.
    I humbly thank you once again for the opportunity to speak 
here today, and I look forward to answering any questions that 
you may have.
    [The prepared statement of Sergeant Meredith follows:]
     Prepared Statement of Sergeant Roy W. Meredith, Team Leader, 
                      Maryland Army National Guard
    Chairman Akaka, Senator Burr and distinguished Members of the 
Committee, thank you for the opportunity to speak with you today. I am 
grateful for the chance to testify regarding my experience with post-
deployment outreach to members of the National Guard and Reserve.
    My testimony today reflects my personal views and does not 
necessarily reflect the views of the Army, the Department of Defense, 
or the Administration.
    I come before this Committee as a proud soldier; proud of the 
support we have received from our elected and military leaders. I also 
come before you as a soldier concerned about the welfare and post-
deployment services of members of my team and others throughout this 
country. There is no country better or more capable of matching our 
country's ability to efficiently and effectively mass a large number of 
soldiers, sailors, airman, and equipment and deploy anywhere in world 
to protect, defend and secure peace. Equally so, is our ability to 
bring everyone home.
    As a member of the Reserve Component, my access to medical services 
is not the same as that of a member of the active duty. As some 
individuals are now completing their second, in some cases third tours 
of duty, it is extremely important that the level of emphasis given 
toward deployment of forces; also be placed on providing post-
deployment support. The goal should include a well defined process 
which facilitates the transition from a military service to civilian 
life with the intent of identifying medical and emotional conditions to 
support follow-on medical requirements. I must say, there has been a 
significant improvement between the procedures and services received 
after returning from my second in 2007 and my most recent return from 
Iraq in March of this year.
                   post-deployment health assessment
    The first opportunity to address the medical needs of returning 
soldiers is during the Post-Deployment Health Assessment (PDHA). From 
January 2005 through January 2006, I was deployed in support of 
Operation Iraqi Freedom (OIF) and deployed again in June 2007 through 
March 2008. After each deployment, I had to undergo a PDHA. The timing 
of the PDHA during the demobilization process is perfect; where the 
soldiers remain in a formal and controlled status. The PDHA provides an 
early opportunity to assess the physical condition of soldiers. This is 
great because the goal should be to identify and capture any condition 
as soon as possible. However, unlike the pre-mobilization physical 
assessment, the PDHA is not a complete physical but based on self 
identification of ailments. I think it would be proper and re-assuring 
to soldiers if members received a similar level of assessment as the 
pre-mobilization. Second, based on my experience, the information 
captured in the PDHA should somehow be connected to the claims process. 
During my second deployment I received several injuries to include 
shrapnel which is still embedded in my right arm. This information was 
well documented and identified during the PDHA. However, my Post-
Deployment Health Reassessment (PDHRA) stage, after receiving medical 
care from the local veterans hospital, I received a bill and was told I 
had to file a claim. The PDHA should be a seamlessly connected to post 
mobilization medical services.
                  post-deployment health reassessment
    Along with being seamless connection to medical care, the Post-
Deployment Heath Reassessment (PDHRA) lacks one of the key strengths 
that support an effective PDHA; control and access to the soldiers. 
From what I have seen, as soldiers return to their homes, it is 
difficult to communicate and require them to attend PDHRA events. I 
think the primary reason for this breakdown relates to the fact that 
members are not provided military orders requiring them to report. As 
individuals began to assimilate into their normal lives and return and/
or to work, competing requirements will overshadow the PDHRA without 
proper directives requiring member to report to duty. In my opinion, 
providing members with military orders prior to finalizing 
demobilization could improve the effectiveness of PDHRA.
    Since my first deployment to Iraq in 2006, the reintegration 
program has made strides but there are a number of areas in which the 
program can be improved. As Team Leader, it is my additional duty to 
manage and insure soldiers participate in the reintegration process. To 
be effective there needs to be a formal and defined program with proper 
oversight at the state level. A formal program will ensure soldiers, 
regardless of which state they may live, receives services and medical 
treatment. Additionally, soldiers should be allowed to receive 
treatment and services at the local level without requiring them to 
travel unnecessary distances.

    Mr. Chairman, thanks for this opportunity to come before your 
Committee. I look forward to your questions.

    Chairman Akaka. Thank you very much, Sergeant Meredith.
    Our final witness, Major Rasmussen, will be testifying on 
the unique challenges confronting Reservists.
    Will you please begin.

  STATEMENT OF MAJOR CYNTHIA RASMUSSEN, RN, MSN, CANP, COMBAT 
  OPERATIONAL STRESS CONTROL OFFICER, 88th REGIONAL READINESS 
          COMMAND, SURGEON'S OFFICE, FT. SNELLING, MN

    Major Rasmussen. Thank you, Chairman Akaka, distinguished 
Members of this Committee, and all others attending. Thank you 
for the opportunity to talk today on behalf of servicemembers, 
veterans, and their families who are experiencing reintegration 
or coming home from deployment.
    My testimony today reflects my personal views, and does not 
necessarily reflect the views of the Army, Department of 
Defense, or the Administration. I have submitted testimony for 
the record.
    I would like to specifically thank James Monroe, Vietnam 
veteran Chaplain of the Boston VA for some of the materials and 
information that you are going to hear today.
    I am a mobilized Reserve soldier, and I feel a little bit 
like the only one here. I am a psychiatric nurse and an adult 
nurse practitioner; and I am on military leave from the VA.
    I have had the honor of working with hundreds of 
servicemembers, families, and community members, including from 
the Canadian Army during my 3\1/2\ years as a combat stress 
officer mobilized for the 88th Regional Readiness Command, 
which is an Army Reserve Command of six States. When we started 
this program 5 years ago, we served 26,000 servicemembers and 
their families in six States.
    So, needless to say, it is a little bit different. We work 
with the Guard in every State, because we could not do it 
without them. But, our challenges, even for the Reserves, are a 
little bit different than for the Guard.
    I am honored to have the opportunity to share with you 
their stories of what it is like for a warrior, especially 
Guard and Reserve soldiers, to come home.
    Warrior skills, what we learn in the uniform, are not the 
skills that work when we take the uniform off. The military is 
a culture of its own. As you can see, we dress differently, we 
talk differently, we eat differently, sometimes we eat dirt 
differently, and may I introduce you to some of these skills.
    We are mission-oriented. Once a mission is assigned, 
unrelated tasks are unimportant. And if I may share, as we 
talked earlier before we came up here, he mentioned, ``ma'am, 
that is like the most important thing. Everywhere I go, people 
do not understand, we need to get it done right now. We need 
to--you know. It is very frustrating,'' which is what we talk 
about.
    Decisions need to be quick, clear, and accurate or someone 
could get hurt; the mission would not be completed and somebody 
could get hurt.
    Multiple competing tasks, when the servicemember gets home, 
cause confusion. We do not know how to think that way. We know 
how to be mission-oriented. We receive an op order, it tells us 
who, what, when, where, why, and how, basically. We do not get 
op orders when we get home 5 days after when we take the 
uniform off.
    Owen Rice, who is a Hennepin County Sheriff Deputy in 
Hennepin County Jail, has been to Iraq, got a Traumatic Brain 
Injury in Iraq. He says, ``Ma'am, it is like this. One person 
talks in the military and everyone else listens. When you get 
home, everyone talks, everyone listens, and nobody hears.''
    What I hear from soldiers across the country, 
servicemembers across the country is, ``Ma'am, it is too 
chaotic here. Please send me back where I know how to survive, 
I know how to function. I know how to do that.''
    Safety and trust. When you are in a combat zone or in a 
uniform for a long time, vigilance pays off. You learn to never 
relax. You assume everyone is the enemy. You learn to be 
suspicious of everyone and everything, including children, 
family members, animals on the side of the road, boxes, 
bridges, et cetera.
    So, what does that look like when you get home and try to 
take the uniform off? You avoid getting involved, because you 
are still suspicious. You still do not trust anyone, including 
your family and friends. They need to earn your trust, but they 
do not understand this. So, what happens? You test people to 
earn their trust. You are always on guard. You become 
isolative. You become suspicious of others.
    My Command Sergeant Major lost his son in Iraq after he 
spent a year there. We went out to dinner one evening with him 
and his wife, my husband, who is a Vietnam-era Navy vet, and 
some other vets. We could not find a wall big enough in a 
restaurant for all of the vets to sit against the wall so that 
they could monitor everyone that came in and out.
    The NCO who works with me is on mobilization with me right 
now. He does Operation Purple Camp in the six States. A few 
weeks ago, he spent a long time with the kids at Operation 
Purple Camp, and the comments--he sent me many comments. One he 
sent to me that was really poignant came from an 8-year-old boy 
who said to him, ``You know, my dad, he used to do everything 
with me. He used to take me golfing, he used to take me 
fishing. Now, my dad does not do anything with me.'' I thought 
that was amazing.
    Emotions and anger. In war, we control our emotions. 
Obviously, you would not want your warriors having their 
emotions out in the open anywhere, plus, we cannot accomplish a 
mission if we have different emotions going on. We numb out.
    Anger is useful. Anger is not only useful, anger is an 
awesome emotion. We want anger. We like anger. We encourage it 
because it is the fight-or-flight response. It makes your body, 
your mind, and everything about you be the best you can be and 
accomplish the mission that you need to accomplish. We 
encourage it. We live that way. We like to live that way.
    But guess what? When the uniform comes off, the anger that 
you have learned in practice and felt good about does not go 
away.
    It looks like this: Not talking about your emotions and 
being angry in war is a strength. It only leads to--you cannot 
talk about your emotions at home, which is considered a 
weakness.
    We look insensitive to others when we get home. It is not 
that we are insensitive; it is that we have not practiced those 
emotions for a long time. Emotions take practice.
    We have a decreased ability to read other people's 
emotions, not because we do not care, not because we are cold-
hearted warriors, but because we have not practiced that for a 
long time. This can lead to increased irritability and 
defensiveness, because if your spouse, your mom, dad, or 
someone else in your family accuses you of not caring anymore 
or not showing emotion, we are not going to say, oh, yes, you 
are right. Thank you. I am sorry I was unable to articulate 
that. Instead, we are going to say, what are you talking about? 
That is not true. We are going to get defensive, as all of us 
would if someone said that to us.
    It leads to increased alcohol and drug use to cover up our 
emotions. You know why? Not because we are warriors and we 
learn to do that. It is more socially acceptable in our society 
to go to the bar and have a few drinks or sit home and slam 
down a case of beer with your friends or buddies than it is to 
raise your hand and say, I need help. I need medication. I need 
to talk to someone. Not just in the military, but across the 
board.
    In our program, we work with all branches of the service 
and many VA and civilian organizations across the country. 
Despite this amazing comprehensive program, servicemembers and 
families are still falling through the cracks.
    I had the honor and opportunity to speak to 150 Purple 
Heart National Service Officers at their training in Phoenix a 
few months ago. I received this note, handwritten, put it in my 
pocket, and went back to the hotel room, and it read:
    ``Ma'am, for the last 3 years I have been treated for PTSD 
by doctors, nurses, and others that have no clue over what it 
is being a soldier and have this feeling inside''--this is a 
quote, by the way--``I cannot thank you enough for coming 
today. In the last 2 hours, you have done what nobody could 
have done. You make me feel normal again. That is a feeling 
that I thought I would never feel again since I was discharged 
from the Army. Thank you and God bless.''
    This was an Operation Iraqi Freedom vet from Puerto Rico, 
approximately 24 years old.
    One final point I want to make: Not all issues with 
servicemembers are about PTSD. We need to deal with the combat 
stress, the operational stress, the things I just talked about 
that are normal habits for all servicemembers.
    When I spoke to the purple heart recipients, a World War II 
vet raised his hand and started sobbing and said, ``Where were 
you when I came home?''
    I had a Korean war wife say to me last week at the Battle 
Creek VA, ``If you would have been around 40 years ago, I would 
not be divorced from my husband who is a Korean vet, because 
now I understand why we had all the problems we had.''
    This is not PTSD, this is a warrior taking his uniform off 
and trying to come home. We have operational stress. We have 
grief issues. We have lost a year or more in whatever life it 
was we thought we were going to have. We have depression. We 
have anger issues. We have PTSD. We have all kinds of issues. 
Please, please, please stop just calling it PTSD, because I do 
not want to be called PTSD. I want to be called a combat vet 
with some issues coming home. Thank you.
    And may I end with this quote from General Colin Powell:
    ``The day soldiers stop bringing you their problems is the 
day you have stopped leading them. They have either lost 
confidence that you cannot help them, or concluded that you do 
not care. Either case is a failure of leadership.''
    Thank you for the attention to this very important topic. 
Thank you for giving the opportunity to me to answer the call 
to bring their stories to you, and I welcome any questions from 
the Committee.
    [The prepared statement of Major Rasmussen follows:]
Prepared Statement of Major Cynthia M. Rasmussen, RN, MSN, CANP, Combat 
  Stress Officer, Sexual Assault Response Coordinator, 88th Regional 
                           Readiness Command
    My Testimony today reflects my personal views and does not 
necessarily reflect the views of the Army, the Department of the Army, 
the Department of Defense or the Administration.
    Chairman Akaka, Senator Burr, and Distinguished Members of this 
Committee, and all others attending, thank you for the opportunity to 
talk today on behalf of Servicemembers, Veterans and their families who 
are experiencing Reintegration, or, coming home from Deployment. I 
welcome any questions from this panel to fully detail what we offer.
    I have been mobilized for 3 years as a member of the Combat Stress 
Control Team at the 88th Regional Readiness Command (RRC). Following 
the end of my tour, I will return to my civilian position at the 
Minneapolis Veterans' Administration facility. The 88th is the Army 
Reserve Command for Servicemembers in six Midwestern states (Minnesota, 
Wisconsin, Michigan, Ohio, Indiana, and Illinois).
    Shortly after 9/11, the RRC mobilized LTC Susan Whiteaker, a 
Licensed Clinical Social Worker (LICSW) and LTC Mary Erickson, 
Occupational Therapist (OT). They organized this team to care for the 
mental health needs of the Servicemembers and Families in the region 
during the entire deployment cycle to include Reintegration. Our 
comprehensive program has served thousands of Servicemembers, 
Commanders, Family members, Employers and Communities through 
education, support, crisis intervention, and referrals.
    The 88th RRC Surgeon's Office Combat Operational Stress Control 
(COSC) Team provides a comprehensive program of education, assessment, 
brief intervention and referral to meet the behavioral health needs of 
Soldiers, Families, and the community.
    Mild Traumatic Brain Injury (mTBI)/Post Traumatic Stress Disorder 
(PTSD) are the signature injuries of the campaigns in Iraq and 
Afghanistan. Most programs, while well constructed and resourced, are 
passive in nature. This requires the injured Servicemember, or his/her 
Family, to not only recognize the problem, but also to figure out where 
to seek help, and to gain the knowledge to fight through the red tape 
to get the help they need. Since 2003, the 88th RRC has a very 
effective program in place that helps its units, Soldiers, and 
Families, removing a good portion of the administrative, medical, and 
financial burden these injuries can cause.
    Education begins before a Soldier is deployed, with a variety of 
briefings that establish rapport between the command and the Soldiers' 
families. It is critical they know there is a place they can go to for 
assistance, answers, and counseling. The education and support network 
continue throughout the mobilization processing, the actual deployment, 
and following deployment.
    The period following deployment is critical. The majority of 
Reserve Component (RC) Soldiers just want to go home. They are not 
thinking too much about what occurred in the previous twelve to fifteen 
months, they think they can ``forget it.'' That is what makes the Post 
Deployment Health Assessment (within six months of their return) 
invaluable.
    Our various programs have made leaps and strides in terms of 
delivery of care and resources. In 2005 alone, grief seminars for 
families were initiated and conducted. We received a $10,000 Health 
Promotions Programs Incorporated (HPPI) grant from the U.S. Army Center 
for Health Promotion and Preventive Medicine (CHPPM) for Soldier/Family 
Wellness Programs throughout the Command. We reached out to our 
National Guard partners to assist in Anger Management classes and other 
training for redeploying units, to name just a few accomplishments.
    Our successes continued into 2008 including providing numerous 
Mental Health First Responder courses, our continuing to provide 
reintegration education and support for Veterans' Affairs staff 
throughout the country, and received numerous awards for our various 
programs and efforts.
    There are several recommendations resulting from our work. Customer 
care must be a number one priority. Success depends on inter-service, 
joint programming across all government and civilian organizations that 
have a stake in the health of the Servicemembers and Families. All of 
us need to enhance the whole Family system, ensuring the entire Soldier 
Family is taken care of and heard. Staffs across the medical spectrum 
who work with Servicemembers and Veterans must be culturally competent. 
They need to understand the Warrior mindset and how that translates 
into Warriors as civilians and consumers and be able to design care 
based on their unique needs. From this, it should be understood that 
the same personnel in the spectrum must be held accountable for abuse 
and/or inappropriate behavior toward a Servicemember or Veteran.
    We recognize the need to work hand-in-hand with the Department of 
Defense to provide ``seamless transition'' care for all Servicemembers/
Veterans and Families, not just those who are seriously wounded. 
Medical providers must be able to recognize, articulate and care for 
the Servicemember with Combat Operational Stress Reaction before the 
sequences of events results in serious life-altering consequences. 
Veterans have multiple and complex issues. Our legacy systems of 
``stovepipe care'' are out-dated and ineffective. If the Servicemembers 
are Reserve Soldiers or Guard Members, include their commands and 
battle buddies, wingmen, shipmates, and so on, in their care. All of us 
need to recognize that reintegration issues are a part of the challenge 
of caring for Veterans and Families.

    Again, I thank this Committee for the opportunity to explain, in 
part, what we're doing at the ``Blue Devils'' Command, the 88th RRC, 
and our efforts at reaching across component and service lines to 
ensure no one is ``lost'' because of negligence or inattention.

    Chairman Akaka. Thank you very much, Major Rasmussen.
    Your dedication to the needs of returning servicemembers 
from your statements, also, is amazing. Your tremendous 
enthusiasm for your work--I have got to say, it shows.
    Major Rasmussen. Thank you.
    Chairman Akaka. Without giving us a name, can you tell us 
about one of your most challenging cases? You have mentioned 
some, but your most challenging case, and what was specifically 
done to make a veteran as whole as possibility.
    Major Rasmussen. Absolutely, sir. I could tell hundreds of 
them, but--and I can also tell you a name.
    Chairman Akaka. Just one.
    [Laughter.]
    Major Rasmussen. OK. You can tell I like to talk. Sorry.
    OK. This is an Army Reservist--I received a call from a VA 
social worker. The VA social worker stated to me, ma'am, you 
need to help this servicemember. It turns out this 
servicemember, still an Army Reserves soldier, also a vet, with 
DD-213, 30 percent blind from a fuel IED, could not work.
    At the time that I received the call, I immediately called 
this servicemember and found out that they were at the door to 
repossess his vehicle. A week later his house was going to be 
taken away from him. He was self-medicating with alcohol and 
because of that, his wife and four children had moved out of 
the house.
    What happened then--he owed $16,000 on his vehicle, as well 
as his house and other bills through the VA, because he did not 
realize that he did not have to pay his bills at the VA. It 
turned out, after requesting a meeting with the VA team and 
working very closely with the servicemember and his unit--his 
military unit and Reserve unit--they were awesome. I mean, they 
were right on it every time we ever needed anything. This 
soldier had TBI, PTSD, serious blindness, pain, grief, and 
significant family issues.
    What we did was we pulled together VA staff, Vet Center 
staff, luckily we called a Congressperson's aide, and within a 
few days--as well as the family assistance center from the 
National Guard and some other funds that are available that, 
luckily, after you do this a while, you will learn what is 
available--we pulled together $16,000 in less than a week to be 
able to pay off all his bills so that at least that was one 
stress off of his life.
    Let's see. The main issues that still continue after quite 
a while are that his family--him and his family--are back 
together and they are doing better, but they have had no 
counseling; or his wife has not been taught yet at all about 
working with Traumatic Brain Injury or PTSD because he was in 
an alcohol and drug track. So they were not--there was not a 
concerted effort to make sure that all of the issues that he 
had were being focused on at the same time.
    Chairman Akaka. Thank you very much for that.
    As you notice, we have all of you here from West Virginia, 
Vermont, Maryland, and Minnesota. We were looking at the issue 
from across the country.
    I have one question to ask all of you. You can make it 
brief. This question is for the entire panel. It is clear that, 
if we cannot reach veterans, their needs will go unmet, without 
question. What can VA do to improve the effectiveness of its 
outreach efforts, especially for Guard and Reserve, whose 
experience is so different from those in active duty? Nothing 
is off the table, and what we are trying to do here is we are 
looking for creative solutions.
    So, I am asking you, what can VA do to improve the 
effectiveness of its outreach efforts?
    Let me start with Dr. Scotti.
    Mr. Scotti. I have a number of ideas, and I have already 
heard former panelists mention doing more through the media to 
advertise these services, and I am interested in the video that 
the Colonel has in terms of demonstrating that these are the 
types of problems.
    So, I think it is very important to have actual veterans 
with actual difficulties to talk about their actual lives and 
the help that is available to them. That has been shown in many 
other fields to be very effective in getting people in for 
treatment.
    I am glad that the post-deployment health measures are 
being used. The question was raised earlier about how long that 
should continue. I will conservatively say 10 years. Mental 
health problems wax and wane. People come back and are 
overwhelmed. It is not just PTSD. Major Rasmussen is right, we 
should not just focus on that issue. There are a whole range of 
problems, and we need to evaluate, and reevaluate, and 
reevaluate. I would like to do it for the rest of their lives.
    The problem with these post-deployment forms, the 
information goes into a computer. Some program somewhere pulls 
that name, it may not get back to where they are stationed, and 
there may not be resources to pull that veteran aside and 
address their issues.
    So, assessment and screening is one thing, getting that to 
the point of actively getting treatments for the veteran is a 
whole different issue. It needs to trickle down and it needs to 
do so immediately.
    Also, the Vet Centers are an excellent place for outreach, 
and I am very proud to have worked at the Morgantown Vet Center 
in West Virginia that has been awarded the best Vet Center in 
the Nation three times. And they do a tremendous job, but they 
are incredibly overwhelmed. They will not tell you this, but 
when I go there and there is a room full of fifty veterans and 
one counselor and they are calling that group therapy. It is 
not. They need more help, they need more outreach. They are 
still overwhelmed with Vietnam veterans, Desert Storm veterans 
are coming in now at a greater rate, and we still have Korea 
and World War II veterans coming out of the woodwork.
    The focus at the Vet Center and the VA is not on OEF/OIF 
and other conflicts, as they are still dealing with many other 
prior conflicts, and new cases all the time. So, we need all 
this outreach and we need greater resources, and we need to get 
those measures back to the hands of the people who are going to 
do something to help the veteran.
    Chairman Akaka. Thank you, Dr. Scotti.
    Colonel Livingston.
    Colonel Livingston. Mr. Chairman. I guess for the VA, and 
using the Fort Harrison VA as a model, is that, do not be 
``active duty-centric'' in the standpoint that Montana, too, 
only has one active duty facility, that is Malmstrom Air Force 
Base, 90 miles from the VA hospital.
    Partner with your National Guard and with your Reserve. But 
specifically, the National Guard; you can leverage the State 
relationship also. What Governor Schweitzer and the State 
officials did for the Montana National Guard was phenomenal. 
And the VA, partnering with the National Guard, ran public 
service announcements that we were able to put out there, that 
leveraged money of the State, leveraged money from the feds. It 
was--it is, today, a great partnership. I think we have a great 
team with the VA Administration that is on the same fort that 
we are located. The Director was part of our task force, and I 
think it is just very active. So, that would be my 
encouragement--again, it sounds National Guard-centric--that is 
not what I am saying here. But take a look at your National 
Guard, because that Adjutant General connects to a Governor, 
and a Governor is more than willing to leverage, I believe, 
State resources also to help solve this issue.
    Chairman Akaka. Thank you, Colonel Livingston.
    Colonel Boyd.
    Lieutenant Colonel Boyd. Mr. Chairman, I would concur with 
Colonel Livingston's comments and add the other piece that, in 
this modern day, we seem enamored with doing everything 
electronically. There is something to be said about burning up 
a little shoe leather and going to find these people.
    It is not an excuse to say, well, I sent somebody an email. 
It really--our experience has been, when you go and knock on a 
door, 99 times out of 100 that veteran is going to talk to you, 
and then you are going to find out what is going on. They may 
not answer the phone call. They may not answer the email. So, 
there has got be a component of that ``shoe leather'' patrol, 
if you will. Thank you.
    Chairman Akaka. Thank you, Colonel Boyd.
    Sergeant Meredith.
    Sergeant Meredith. Yes, sir. One thing that I noticed that 
I have had trouble as a team leader is getting some of my men 
to come to some of these reintegration training meetings.
    We were not very familiar with the new regulations that 
have come out April 2nd. We demobed May 20th, I believe it 
was--or March 20th of this year. So, part of our problem was 
that we had thought that there was a 90-day window of no 
training. The majority of us did go to this reintegration 
training, but there are still a handful that did not go; and we 
thought that we could not do anything to get them in until 
after the 90-day window.
    In the last several days, I have been given a regulation 
for the Yellow Ribbon, but we were--we had demobed before and 
we did not fall underneath of that, from what our reintegration 
officer and our command knew.
    The one way that we could fix people not coming in is to 
give us orders of the 30 days to 60 days, and then 90 days 
before we demobe. That way, we know when, where, and what time 
to report for this reintegration training. And team leaders and 
the command would be able to say, every one of my men have been 
accounted for, because each one of them has orders. And if they 
do not show up, we can actually go to their homes, instead of 
going through a lengthy process before we are allowed to do 
that under the authority that we have now. If we all had 
orders, we could go right down and say, you must come to this 
training.
    So, that would simplify and hold to account my men 
underneath my command, and that is the single biggest thing, 
sir. Because as a three-time vet, I know what it is, especially 
being wounded--of how hard it is to want to come to these kinds 
of things. When you come home, you just want to get done and 
let it go, but having orders could make us accountable to come 
in.
    Thank you.
    Chairman Akaka. Thank you, Sergeant.
    Major Rasmussen.
    Major Rasmussen. Thank you. I know this about Guard and 
Reserve soldiers, but I want to just keep in mind that, when an 
active duty servicemember ends his tour and gets a DD-214, they 
may come home to your rural areas alone, also. And some of 
the--in the past, the suicides that we have seen have been 
related to that and not to Guard and Reservists.
    Anyway, really quickly, success depends on inter-service 
joint programming across all government and civilian 
organizations that have a stake in the health of servicemembers 
and families.
    Treat the whole family system. All staff that work with 
servicemembers and veterans must be culturally competent. You 
do not have to wear the uniform, but you have to be able to 
understand why we do what we do, why we think the way we do, 
and to not judge that or not avoid it or anything because of 
it.
    Appointments must be made for the convenience of the 
consumer and not the facility. You need to work hand-in-hand 
with DOD to provide seamless transition care for all 
servicemembers, veterans, and families.
    VAs need to have good representatives in all Guard and 
Reserve units. We do have--in most of our Reserve units, we 
have arranged for Vet Center staff and VA staff to come on our 
drill weekends to become--to get to know--just to hang out and 
get to know folks so that when we are done--because we are not 
going to be in this role much longer--that there will be 
somebody there they know besides us to call and talk to.
    If the servicemembers, our Reservists or Guard soldiers, 
include their commands and battle buddies, wingmen, shipmates, 
et cetera, in their care, especially since many of them will be 
deployed again and need to prepare for this while getting care 
and support for the current issues.
    Thank you very much.
    Chairman Akaka. Thank you very much.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman.
    My first question would appear to be hostile but is not. 
Why is it that everybody but Dr. Scotti had to say, I am 
speaking personally, not on behalf of the Reserve, the Guard, 
or the Department of Defense?
    I really want to know that. Does that mean that they are 
afraid that you might tell the truth? Does that mean that they 
are embarrassed by what you might say, because their culture is 
that everything always works and always works right? I would 
like to know why you have to say that.
    Colonel Livingston. Sir, I might be able to address that 
because my testimony had not been vetted----
    Senator Rockefeller. You cannot correct it because you said 
it.
    Colonel Livingston. Correct.
    Senator Rockefeller. You can explain it.
    Colonel Livingston. OK, I can explain it then.
    My testimony had not been vetted through DOD.
    Senator Rockefeller. Isn't that a very good thing?
    Colonel Livingston. So I was instructed that my testimony 
had to have----
    [Laughter.]
    Colonel Livingston [continuing]. That statement put on it, 
sir.
    Senator Rockefeller. See, I can understand that. I have so 
many questions I do not even know where to begin.
    But I can understand that, if you are from the Department 
of Transportation, if you have come back from the types of 
experiences that you have all come back from, your testimony, 
Major Rasmussen, is probably one of the best I have ever heard 
here, and I have been on this Committee for 24 years.
    But it just breeds a sense of suspicion, not in you, but in 
them. They have to be right. You did not vet it with them; 
therefore, you are dangerous. You are telling the truth. You 
are telling the truth like few people ever do before this 
Committee.
    One of the problems is the fact that when the VA and other 
people come before the Committee, we know that everything they 
have said has been vetted, so, there is no real reason for us 
to listen particularly carefully to them because we know that 
it is not necessarily what they think.
    You are telling us what you think, and therefore you are 
real. You really help us. This is superb help to us, just at 
the time that the whole care of veterans has become, along with 
global warming, one of the two top issues for the entire 
Congress, because it is like we have suddenly rediscovered 
you--our own guilt, our own mistake, regardless of who--you 
know, political party or anything else going back over many 
years. And there are reasons for that and I will not go into 
them.
    But it annoys me that you have to say that, because it 
implies that if you did not that you would get in trouble, and 
that makes me angry. OK. I have got that off my chest. You see, 
I have got my little thing done.
    Dr. Scotti, I got--you know, you say that, in your 
testimony, that about a third of the addresses are wrong for 
all veterans. Now, the Veterans Administration is considered 
the best health care system in the country, which maybe speaks 
not so well about the rest of our health care system, or maybe 
it speaks very well about the VA. I will not comment on that. 
But it is all based upon data, the very thing which some of you 
question, the very thing which some of you question. Boots on 
the ground--just do not give me emails.
    I would like you to take me through what happens when a 
veteran comes back. I meet with veterans. And I will take a 
Sunday afternoon, and I walk in. I do not take off my tie, 
because I am who I am, and we will meet for 4 hours. They will 
be mostly from the recent two ongoing wars, but they will be 
from other wars also. And I am, I think, pretty well thought of 
by veterans, so they open up more quickly. And the things they 
tell me are some of the things that you were talking about, 
Major Rasmussen. That is what educates me. That is what 
motivates me. That is what makes me want to do more and better. 
That is why we put $5 billion more into the VA.
    Now, we are having to put $5 billion more into the VA--that 
does not tell you a thing because it is a very large 
battleship. It has more people working in it than the Pentagon, 
and it takes a little while to turn things around.
    But you know, I do not really know where to begin. Because 
you have got to get the help. I love this concept of, do not 
say PTSD.
    What is it that you want us to call you? What phrase do you 
want us to use?
    Major Rasmussen. Are you asking me that question?
    Senator Rockefeller. I am asking.
    Major Rasmussen. I actually do not have PTSD from combat, 
sir, but I think it is something that would be appropriate to 
dialog with those of us that work on a regular basis.
    ``Combat operational stress responses,'' or ``operational 
stress responses,'' for those of us that were not in combat but 
still had to wear the uniform.
    Senator Rockefeller. OK.
    Dr. Scotti, you talk about when people come home to their 
families. And you talk about 43 percent having suggested 
clinical levels of depression (the dread word), 35 percent have 
PTSD, and 8 percent of veterans have a high-risk profile 
suggesting a real possibility of suicide. All that is 
profoundly complex--if you push the wrong button--stuff.
    Some of the veterans I talk with talk with me after an hour 
or so about going down into their basements and digging a room 
under their basement, so if it came to the point where they 
could not handle it, they could go handle it in their own way. 
People fleeing away.
    One of the questions that I think you were hoping I would 
ask you is about the difference between rural and urban in West 
Virginia. And I have never been able to figure that out, 
because we do not have any city over 50,000 people, and they 
average--I would guess, like in Vermont, except maybe for 
Burlington--around 8,000.
    Mr. Scotti. Big cities.
    Senator Rockefeller. Yes. [Laughter.]
    But how do you dump this on families?
    I mean, we have got VA centers scattered all over West 
Virginia. You know that. And the reason was so--because they 
did not want to go to the VA centers, because the VA centers of 
a number of years ago were pretty bad, and they had not very 
good people running them, and that makes all the difference in 
the world, and their counselors were not trained--by 
definition, they could not be trained for what you all have 
been through; could not be trained. It is a whole new way of 
fighting a war, and accepting stress and pain and all the 
dangers that come from that.
    But how can you take--how can families, other than being 
there everyday--how can they really help? I mean, again, like 
you said, Major, the soldiers I talked to frequently talked 
about when a 6- or 7-year-old jumped in their lap wanting to be 
hugged.
    And I would say, ``So, what did you do?''
    ``I very gently pushed the child off of me so that I would 
not hurt that child.''
    This is not something that families can do. This is not 
something that even outreach--I mean, outreach to do what? 
Outreach to get them to go to the VA centers? Well--gas, all 
the rest of it--I mean, it makes it very, very hard to do. So, 
what is the pattern? What is the pattern that should be gone 
through in a State like West Virginia, which has 6,800 Guard 
and Reserve, many of whom greatly resent the regular military, 
if I may say that--and that is an issue which I wish we could 
talk about, because I heard endless amounts of--you know, we 
are being treated like second-class citizens, et cetera.
    But how can you train--how do you train family members?
    Mr. Scotti. I think you asked and answered all your 
questions.
    Senator Rockefeller. Well, I apologize.
    Mr. Scotti. You cannot----
    Senator Rockefeller. I apologize.
    Mr. Scotti [continuing]. You cannot train them; and I might 
say that perhaps you should not train them.
    You need to make them aware. You need to work with the 
families while the veteran is deployed, for two reasons. One, 
so the veteran knows that their family is being taken care of 
while they are in a danger zone.
    And two, so the family can continue along without someone 
important, a mother or a father or an aunt or an uncle, 
grandmother, grandfather, et cetera, someone who they have 
depended on. You need to provide support services for them.
    And while the active duty personnel is gone, we need to 
educate them on what is likely to be the case--operational 
stress response sounds like a great term--when they come back.
    And be aware, when you gently push the child off of the lap 
so you do not hurt them, they need to know that that is why 
that is happening, not to be afraid of daddy, but that is why 
that is happening. And then, we are going to move on and help 
get treatment for everybody. It may not be what it is for PTSD, 
for depression, for substance abuse--there are just general 
stress issues, et cetera, but it is a whole program of 
education.
    I have been recently talking with the West Virginia 
National Guard and we had a Governor's conference in West 
Virginia on returning veterans. We had a Colonel from the 
Minnesota National Guard come and talk with us about their 
program, and I am hearing similar things going on with Vermont 
and Montana. I am going to pick their brains before they leave 
today. We need to do many things for the service personnel and 
the family before they leave. We need a comprehensive program 
while they are gone. We need to make sure that these 30-, 60-, 
90-, 180-day, 5-year, 10-year programs are kept up and that 
everybody--we are on top of what is happening in those 
families, not just mental health, but physical health, 
financial health.
    I have heard a number of stories where the veteran--the 
personnel is over in the combat zone. The combat pay is coming 
home. It is twice the money the family ever had. And by the 
time they get home, it is not only gone but they are in debt 
because they are not used to spending that much money. We need 
financial counseling for the families while they are gone.
    Getting people to the centers. West Virginia is just rich 
with VAs: four VAs, six Vet Centers, multiple CBOCs, and lots 
of other outreach centers--and it is still hard to get people 
to show up there. There is a great stigma associated with 
mental health. People are worried about whether they are going 
to be able to continue in their jobs or continue in the 
military if they are diagnosed with Post Traumatic Stress or 
depression. People also just do not recognize when they have 
problems, which is why we need this great deal of education.
    Again, I would like to reinforce that having these post-
deployment assessments is critical. But even more important is 
that we attend to those data and, you know, the trigger gets 
back down to the personnel on the ground that something is 
going on for this particular veteran and they need assistance.
    Education is incredibly important at all these levels. We 
have got to take care of everyone, veterans and families.
    Senator Rockefeller. I went way over my time. I apologize 
to my esteemed colleagues.
    Chairman Akaka. Senator Sanders.
    Senator Sanders. Thank you, Mr. Chairman.
    This has been an excellent panel. I think we all recognize 
that and we appreciate all of the members, all of the 
panelists, for being here.
    Let me start off by asking Colonel Boyd a question. He and 
I and the Vermont National Guard and the VA have worked 
together to try to develop what we think is a very good 
outreach program. One of the beauties of what is going on right 
now is we are seeing different States doing different things.
    So, let me start off by asking Colonel Boyd, what are we 
doing in Vermont that you think other States can learn from? 
What are other States doing that you think that we can learn 
from?
    Lieutenant Colonel Boyd. Senator, I think what we are doing 
very well in Vermont--as you look at the Yellow Ribbon timeline 
that is laid out in NDAA 2008, the bottom line is--from day 91 
on, whether that is 180 days or 10 years, we are doing it 
everyday with outreach counselors, correction specialists, 
working with veterans, getting them what they need and 
following up with them.
    What the other States are doing that I think we will 
improve on here shortly--Minnesota, for example, the 30, 60, 90 
is very, very formalized, and they are doing it very, very 
well. And so, I think that we can learn from them in that 
aspect.
    The other piece that I think we bring to the table is our 
sharing agreements with the Veterans Administration. The VA, 
under very limited circumstances, can assist family members. 
With our sharing agreement, we can bring those kids who are 
having a hard time with dad or mom's deployment, or the spouse 
that is having a bout with depression can come into the VA. 
Because when all the troops are gone from the State, the VA 
might not be so busy.
    In a place like Vermont, you take, 1,500, 1,600, 1,800, 
2,000 troops out, you do not have a lot of business. And we 
thought it was also good, because it wraps around our families, 
something we did not have.
    Senator Sanders. Let me pick up on Colonel Boyd's question 
and ask it to Dr. Scotti or anybody else, Major Rasmussen.
    I think we all understand that we are talking about family 
problems, not just the individual. And I think the point that 
Colonel Boyd has made out in Vermont--we are trying to reach 
out to wives and kids, as well. And we are trying to develop a 
new type of relationship between the VA and the National Guard.
    Dr. Scotti, is that important?
    Mr. Scotti. I think that is extremely important.
    As has already been commented, the VA traditionally has not 
dealt with families unless the veteran has requested it, and 
even then I do not think effectively in my experience. They are 
just not trained for that.
    We need to have that outreach. We need to have more people 
at the VA who are family specialists. But as I said earlier, I 
do not think we need the VA to do it all. We have very good 
mental health systems that are out there that are already 
extremely well-trained in dealing with child behavior problems, 
family problems, depression, and substance abuse, and other 
issues in the spouse that is left behind. I think we should 
take advantage of that, rather than just keep growing the VA 
and keep adding these personnel. The people are out there, and 
they are very, very, very willing to help.
    Senator Sanders. Major Rasmussen.
    Major Rasmussen. Is it OK for me to ask a question?
    Senator Sanders. Sure.
    Major Rasmussen. When you say the Vermont National Guard 
and the Montana National Guard and the Minnesota National 
Guard, are you really meaning that all there is--all the 
soldiers in the State: the Reserve soldiers and active soldiers 
or veterans that come home? Because I am kind of--that is 
making me a little nervous, because I know that, as a 
Reservist--I mean, I work really well with Guards all over the 
country. I have no problems. You know, we work very well 
together.
    But my concern is that I very often hear from Marines, 
Navy, active duty, Army----
    Senator Sanders. That is a good question.
    Major Rasmussen. That I will--I am sorry.
    Senator Sanders. No, that is a very good question, and we 
try to break down those barriers, as well. And we are reaching 
out to--Colonel, we are reaching out to active duty people and 
Marines and people who are not in the National Guard.
    Lieutenant Colonel Boyd. That is correct, sir. Those who 
have come off of active duty, those who have gotten a DD-214 
and returned to civilian life, those from the Marine Corps 
Reserve, Army Reserve, any component--we are not turning 
anybody away, Senator.
    Senator Sanders. Right.
    Lieutenant Colonel Boyd. Regardless of who is funding it.
    Senator Sanders. The bottom line is we are all in this 
together and we are not trying to distinguish.
    Any other comment about the need to reach out to the entire 
family, above and beyond?
    Colonel Livingston.
    Colonel Livingston. Thank you, Senator.
    I guess if you would take this and think about what we just 
talked about. Sometimes we mask it with alcohol or drugs. It 
was not created by government, but Alcoholics Anonymous, which 
initially was designed to treat the individual, and in the 
process they realized they needed an Al-Anon program to heal 
the family.
    I think initially we have been trying to treat the veteran, 
and now I think we have come to the realization that the family 
also needs to be treated.
    So, whether it is an Al-Anon approach--and that is why, 
again, in Montana, we felt that it was not just DOD's 
responsibility, or the VA's responsibility; it was the Montana 
National Guard's responsibility to take care of our soldiers 
and airmen and their family and leverage State government, 
local government, civilian organizations who have stepped 
forward, including, again, TriWest, who has done a marvelous 
partnership with us providing behavioral health experts for not 
only our members but also our families also.
    Senator Sanders. OK. Well, thank you, very, very much.
    I am sorry. Sergeant Meredith, did you want to jump in?
    Sergeant Meredith. Yes, sir. I can speak on this 
personally.
    I am currently going through counseling with my family. We 
did not choose to go through the VA system because of some of 
the past problems that we have and the magnitude of soldiers 
that are going through the VA system. We chose to go another 
route through the military. It is called Military OneSource. It 
is a very good program.
    It actually--instead of having you travel to a VA center, 
which sometimes can take several hours, they have found 
counselors right down the road or within the same city or just 
a few minutes away, and that has been very, very helpful. And 
it allows your spouse or significant other to go with you, and 
your children, and instead of just talking about problems, 
problems, problems, it is, OK, how is this soldier different? 
How is your husband different? How is your boyfriend or fiance 
different? What is going on? What do you think that you are 
seeing where he is different, or she is different?
    This has been a very good program, and I also encourage my 
troops to go through this system as well. It is not just for 
counseling; it is also with jobs and other areas, you know, 
that we have trouble dealing with once we get back home. 
Because, from being active duty--you know, when we are getting 
ready to come out of the system, when I was in the Marine 
Corps, we had time to go through the system and get ready to 
come back home, as a rule.
    With the Guard, within a matter of a few days, you are 
done, and you are expected to assimilate right back into the 
civilian style of life, and it is just not there, sir.
    Senator Sanders. Thank you very much.
    Chairman Akaka. Thank you, Senator Sanders.
    I do have other questions for you, but I would like to ask 
Senator Rockefeller whether you have any further questions.
    Senator Rockefeller. About a hundred.
    Dr. Scotti, you say--and you are right, because we both 
come from the same State--that, in West Virginia, on a family 
assistance program that the Guard has, we have four people 
taking care of five thousand. That does not work.
    Mr. Scotti. No, sir.
    Senator Rockefeller. So, somewhere there has to be a 
difference between the soft touch that you indicated, Sergeant, 
when you can go into, you know, a member of the clergy or 
somebody downtown who is sympathetic, and the fact that you go 
with your family allows you to say what is on your mind to 
another individual who is not a member of your family, but the 
members of your family are hearing you say it in very real 
terms so they come to understand you at least a little bit more 
after you take the uniform off, as the Major said.
    Sixty-five percent of veterans turned first to informal 
supports, and that is terrific and that is natural, because 
that is who is around you: your family, your friends, your 
neighbors, this or that. But you are dealing here with some of 
the most complex physical and mental, psychological, perceived, 
real, unreal, dreaming, so that you go to sleep next to your 
wife--and you do go to sleep and you wake up in the middle of 
the night convinced that this is an Iraqi terrorist with a 
knife who is about to slash your throat. That is not trivial 
stuff, and it is not stuff that families can handle. So, there 
has to be really professional training, other than if you are 
just going to say, well, let them talk it out, and it will 
help.
    I mean, when I meet with those veterans, and I do it all 
the time, I always leave with the feeling that I have--you 
know, maybe encouraged them a little bit. But then they are 
immediately let down because I am gone and the professionals 
are not there.
    You said, at one point in your testimony, that 50 percent 
of veterans in West Virginia never even go to a VA hospital--
never even go. So, we can sort of count that one aside.
    On your CBOCs and outreach centers and other kinds of 
things which you and I have both worked on--you know, I am 
thinking of the one up in Wheeling, with John Looney, a Vietnam 
vet. It worked like a charm. He is just there--it is something 
on the street. It is not a big building. It does not have a 
long driveway. It does not have executive parking places; you 
have got to find a place on the street; and you just walk in, 
and you are with friends. That, however, is not the kind of 
training, it seems to me, that is needed to deal with some of 
these really severe problems and to individuals who may not 
have the problems that I just talked about, but the problems 
that they do have are as real to them as if they were those 
problems.
    So, what do we do about that? Now, we have got a whole 
bunch of money so we can begin training. But the last I heard, 
you are a psychologist, right? Well, to become a psychologist, 
you have to take 7 years after you have finished college. Am I 
correct about that?
    Mr. Scotti. I did it in five, but, yes.
    Senator Rockefeller. Well, you are smart. [Laughter.]
    But I mean, I am just talking about, what are we going to 
do, because this is here and now? And this is going to go on 
for a long, long time, this War on Terror.
    Mr. Scotti. And even if it does not go on for a long, long 
time, the problems are.
    Senator Rockefeller. The problem is----
    Mr. Scotti. The problems are.
    Senator Rockefeller. I agree with you, it is for life. It 
is all for life.
    Mr. Scotti. The Vet Centers do a tremendous job in 
supportive therapy. My experience with people who work in Vet 
Centers--tremendous care providers--but they are not trained in 
some of the most empirically supported treatments that are 
incredibly intensive and individualized.
    Group therapy has its purposes and points. It is very 
important for veterans to be talking about their experiences, 
but it has to be done in a controlled and safe environment 
where they feel that they can do that, and where somebody is 
listening and understanding and is not going to run out of the 
room screaming when they hear the horror stories. And they are 
horror stories.
    We need to get more people fully trained at many, many 
levels. In our State, the Council on Churches has developed a 
program called CARENET: Caring Beyond the Yellow Ribbon. They 
are trying to train their clergy in how to recognize when 
members of our congregation are having difficulties--and this 
is of all sorts--but particularly our returning veterans. And 
what are the limitations of what they can do? They know they 
should not be doing therapy, but they want to know how much 
they should listen without it going too far and opening up a 
can of worms that cannot be easily shut.
    And the same thing is the problem with large-group 
therapies or intensive programs that are just about group 
therapy. I have done many, many years of individual therapy for 
trauma of all sorts. It is incredibly effective, but it is 
incredibly intensive and long term. But there is hope. There 
are people I have treated that I would say have been cured.
    Senator Rockefeller. So, what you are basically saying is 
that, at some point in this process there needs to be a 
professional who is available; a trained professional in these 
areas who is available.
    Mr. Scotti. Yes.
    Senator Rockefeller. And you cannot just rely on families. 
They help----
    Mr. Scotti. You certainly cannot rely on families.
    Senator Rockefeller. But you cannot escape----
    Mr. Scotti. You do not want the veteran telling the stories 
that they need to tell to their family. They cannot and they 
should not.
    Senator Rockefeller. Yes.
    Mr. Scotti. It is not fair to either party.
    And we need training at the VA level. We need training in 
the community. There are not enough community care providers 
who know how to deal with trauma. And we need training at the 
level of physicians to recognize when somebody is having mental 
health problems.
    It is fine to go to your local CBOC and get some medical 
care, but physicians should be able to ask a couple of 
questions or recognize a couple of signs and say, I think you 
should see Dr. So-and-so down the hall who is a mental health 
counselor, to get some initial screening and a contact going 
there.
    You mentioned our family program in West Virginia. We have 
four staff, two are psychologists. They are not allowed to 
treat more than three sessions. So, even if that----
    Senator Rockefeller. You mean you have three sessions and 
then that is it?
    Mr. Scotti. That is it.
    Senator Rockefeller. Well----
    Mr. Scotti. And then vets have to get on elsewhere, if they 
will go to the VA.
    I would also--on a personal soapbox, if I can take a moment 
to do that--I think in terms of compensation and pension, most 
of the veterans that I have dealt with over the last 20 years 
do not apply for compensation for the money. They apply to get 
the treatment. The money is useful and helpful. They want the 
treatment, because money does not solve the problems.
    And I personally feel that the VA sets the bar too high as 
to what qualifies for Post Traumatic Stress Disorder. In the 
civilian world, any veteran who walked in with the problems 
that most of the men and women I have talked with have would 
get a diagnosis of PTSD in an instant.
    In the military world, in the VA world, it is like, oh, you 
are only having nightmares once a week? Yes, you and everyone 
else. That is enough. You do not have to have them every night, 
four times a night. Once a week, once a month is enough.
    You think about it everyday? Well, so does everyone else. 
That is way beyond the criteria needed to get PTSD. You are 
avoiding people and bunkering down in your basement, as you 
said? That is enough to meet criteria.
    The bar is way to high. If it were up to me, if you served 
in a war zone, you would get the money, and you would get the 
treatment automatically. You do not have to jump through hoops. 
That is my soapbox.
    Senator Rockefeller. Well I have, again, gone way over my 
time.
    I just really mean it when I say that you are sort of an 
ideal panel. You are the kind of panel that every Congressman 
and Senator dreams about.
    Major Rasmussen. Is that a nightmare, sir?
    Senator Rockefeller. Huh?
    Mr. Scotti. Is that a nightmare, sir?
    [Laughter.]
    Senator Rockefeller. No, no, no, no, no. Because you are 
saying what you think, what you know, what you believe, what 
hurts, what could help, and you are saying it free of any 
vetting. The very though of vetting you is offensive to me, but 
that is a matter I will leave for another day.
    Mr. Chairman, I thank you, and I apologize for my length.
    Chairman Akaka. Thank you very much, Senator Rockefeller.
    Without question, he is a valued Member of this Committee, 
and former Chairman of this Committee, as well. And you can 
tell that Senator Rockefeller has a passion for trying to get 
things right. So, we value him as a member of the U.S. Senate, 
and I am so glad that he was here today. And I want to thank 
you folks again.
    As Senator Rockefeller pointed out, this is an ideal panel, 
because you represent different parts of the country, the 
Reservists as well as the National Guard, and the academic 
sector as well.
    So, once again, allow me to thank all of our witnesses for 
the testimony that you have provided. This information will 
undoubtedly be of great value to this Committee as we proceed 
to consider the problems we have explored today, and ideas that 
have been offered to address them.
    We also can utilize the lessons learned from things that 
are being done right, and find ways to incorporate those 
methods in achieving our common goals.
    We all work tirelessly to ensure that veterans receive the 
best possible care and the greatest possible benefits in 
recognition of their honorable service to our country, and our 
country in time of need.
    Historically, the members of the Guard and Reserves have 
been somewhat under-served by our efforts. And we are 
endeavoring to change that.
    The National Guard and Reserve servicemembers face unique 
challenges as they selflessly set aside their education, their 
careers, to serve in harm's way. We have all learned more about 
those obstacles today, and I look forward to working with my 
friends and colleagues on the Committee, in this Senate, and 
our friends in VA and DOD to remove as many of these obstacles 
as we can. And these are the steps that we are looking forward 
to taking.
    Again, I want to thank all of you, and this hearing is now 
adjourned----
    Senator Rockefeller. Mr. Chairman, can I just add one more 
little thing? This is, I promise, less than a minute.
    It strikes me as an ultimate irony that we ask people, 18, 
19, 20, 21, who are willing to take risks and are eager to do 
so, and then, when they have been through their first 
deployment, second deployment, they want to get back with their 
buddies, and I really resonate--I think it was you who said 
that, get me back--or maybe it was you, Sergeant--get me back 
to the rules: how, when, where, why, what time.
    That is a comfort zone developed over a period of time, but 
then we take these very young people and we put them through a 
type of hell that nobody else in the country can come anywhere 
close to understanding and--which is one of the reasons, 
frankly, that I have--maybe you do not agree with me, but I 
have agreed with embedded journalism because it is what has 
brought this thing home.
    And now, it is--you know, the television is just full of 
it. But then, when a youngster comes back--you are 22, which I 
consider somebody a youngster--they come back and they are in 
the very worst position to take the risk of what they then have 
to go through in the immediate future and, really, for the rest 
of their life.
    So, we pick them for their youth, and then we, to this 
point at least, have been too much dropping them at their most 
vulnerable age.
    Chairman Akaka. Thank you very much, Senator Rockefeller.
    This hearing is now adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]
                            A P P E N D I X

                              ----------                              


              Prepared Statement of Kevin and Joyce Lucey,
         Parents of Cpl. Jeffrey Michael Lucey--USMC Reservist
    We first want to thank you for allowing us to present our son's 
story today.
    We are the proud parents of Cpl. Jeffrey Michael Lucey--an USMC 
reservist who signed in 1999; was activated in January, 2003; sent over 
in Kuwait in February, 2003, participated in the invasion and then 
returned physically unscathed in July, 2003. Initially, there were 
minor adjustment problems. Then, on December 24, 2003, Jeffrey tossed 
the dog tags to his youngest sister while standing in the kitchen, 
intoxicated and with tears in his eyes, declaring himself to be no more 
than a murderer. We encouraged him to get help but he refused due to 
stigma. We finally brought him to the Veteran Administration Medical 
Center on Friday, May 28, 2004--the Friday of the Memorial Day weekend. 
After refusing to enter voluntarily, Jeffrey was involuntarily 
committed due to being both homicidal and suicidal only to be 
discharged three and a half days later--despite making very serious 
statements while in their custody. During his stay there, staff had 
advised us that we might want to consider 'kicking him out of the house 
and letting him hit rock bottom or call the police and if necessary, 
lie' to get Jeff to remain sober for a period of time so they could 
assess him for PTSD. Thus, Jeffrey was never assessed for Post 
Traumatic Stress Disorder--in fact, he only saw a psychiatrist on the 
evening of the admission and the morning of discharge on June 1, 2004. 
We, his family, were never informed that he had admitted to not only 
having a plan to harm himself, but also a method. He would carry out 
his plan using the hose he had told the admitting psychiatrist about 
when he ended his life on June 22, 2004.
    On June 3, 2004, Jeffrey was involved in a single car accident and 
then resumed drinking heavily while being on medication. Becoming 
further despondent, we contacted the VAMC and informed them of the 
developments. They stated that he sounded to be worse and encouraged us 
to return him. He reluctantly returned to the VAMC but refused to go in 
voluntarily due to his first experience of being with so many older 
veterans who were suffering from assorted mental health issues. They 
never called anyone authorized to do an involuntary. Jeffrey came back 
home despite his support system stating that we were being overwhelmed 
by the issues. We called the civilian Emergency Crisis Services only to 
be turned away again. All abandoned both Jeffrey and our family. We 
were left totally alone.
    Despite Jeffrey's halt in drinking for 5 days--Joyce calling the VA 
and telling them that we were watching our son die slowly in front of 
us (how prophetic!) and her emphasizing that we only have this small 
window of time, we were put off for another 3 days and referred to the 
Vet Center. Jeff's intake was done and a plan developed to get a bed 
for Jeffrey for PTSD--in the meanwhile, the Vet Center therapist would 
come to the house 3 days per week  . . . except time ran out. (Further 
details of Jeffrey's struggles and death can be found under his name on 
the internet).
    On June 21, 2004, late into the night, Jeffrey asked if he could 
sit in my lap which he did--and we rocked for about forty-five minutes. 
Then, the next time I held him in my lap was the next night as I took 
the hose from around his neck and lowered him to the ground.
    Jeffrey and our family are not alone. Regretfully, this travesty 
has been repeated over and over again throughout this Nation.
    While all talk and argue about this issue, there is probably 
another putting a noose around their neck or loading a bullet into the 
chamber.
    In this country, to have this situation is completely unacceptable, 
immoral, illegal, inexcusable and unconscionable--it is simply wrong.
    We are here today on behalf of so many of our veterans who are 
bearing wounds both seen and hidden who proudly wore the uniform for 
their country and their families/loved ones--not only asking why but 
also when . . . when will this Nation and her government give to those 
who have sacrificed so much the Best of care and develop the healthcare 
system second to none for our wounded warriors?
    We stand totally bewildered as to how the veterans serving within 
Congress, with the exception of so few voices, could abandon their less 
fortunate brothers and sisters in uniform to suffer so horribly and 
allow many of them to die from their negligence . . . such as our son 
and so many more.
    It is because of this negligence by both this administration and 
the past Congresses that we suffered so many needless deaths off of the 
battlefields.
    Let not the Legacy of this Congress be of those of the recent past 
Congresses and the present administration;
    Let not this be another Congress which will just talk the talk and 
allow the necessary funding for the treatment of our warriors inflicted 
with the hidden wounds of Post Traumatic Stress Disorder to disappear 
not only once, twice, but Three times in the darkness of conference 
committee--at those times immersing our government and Nation into the 
depths of shame, disgrace and dishonor;
    Let this not be another Congress who abandons, turns its' back and 
leaves the troops behind once they return home to a broken, 
dysfunctional VA healthcare system which has shown that it will deceive 
and minimize to Congress itself;
    Rather, Let this Congress truly be the Congress which will support 
the troops and veterans--supporting them in both word and deed;
    Let this Congress be the Congress which will embrace those who 
served and will keep this Nation's promises to our heroic men and 
women;
    Let us as a Nation be all that we can be to those who now are in 
need of our help.
                                 ______
                                 
                                Addendum
               recommendations based on our experiences:
    Health Proxy for those deployed;
    Community education of resources for troops, veterans and military 
families as well as reciprocal education for the community based 
services as to PTSD and other related mental health issues from combat 
related experiences--this would include the medical field as well as 
first responders, bartenders, package store employees, etc.
    Developed in concert with communities, community based intervention 
centers i.e. weekly Veterans Court in Buffalo; specialized correctional 
centers for veterans afflicted with PTSD as well as developing 
alternative innovative sentencing options for those who work the 
program.
    Development of SAVE teams as modeled on the SAVE team in 
Massachusetts who not only assist but can also advocate for veterans / 
families but for selected veterans--can also provide employment 
opportunities to those who wish to help and work with their brothers 
and sisters in arms.
    To do follow-up on the Joshua Omvig law--to provide adequate 
resources to house and treat those found to be in need.
    If the VA system is to continue, then give it a rebirth--make it 
responsive to the needs of the veterans; not forcing the veterans to 
meet the needs of the system. Let the system not remain to be the slow, 
lumbering, dispassionate bureaucracy--change it to be the active 
outreach which it should have always been. The VA must develop programs 
reaching beyond their walls.
    If the VA is truly serious about self examination and challenging 
itself to be the best that it can be, then it must appoint those who 
will challenge it. Don't appoint the old traditional members--some or 
all who may have a vested interest in maintaining the status quo--to 
those committees charged with examining various issues; appoint members 
such as veterans who know of its' lackings and failings so that they 
can be addressed as well as some of their loved ones who will be able 
to give different perspectives.
    These are but a few of suggestions which we have. It may be the 
time to call together various components of the systems including 
veterans, military families, etc. to a multi-day conference to assist 
in the creation of that which should have always been--the most 
effective, efficient, responsive and comprehensive veteran healthcare 
system on this planet.
    We thank you for your time and patience.
            Respectfully submitted,
                                     Kevin and Joyce Lucey,
                   The proud parents of Cpl. Jeffrey Michael Lucey,
                               a 23-year-old USMC reservist forever
                            succumbed to the hidden wounds of PTSD.
                                             03/18/1981-06/22/2004.
                                 ______
                                 
    Prepared Statement of Pat Rowe Kerr, State Veterans Ombudsman, 
                      Missouri Veterans Commission
    Thank you for an opportunity to offer testimony outlining the 
extensive and aggressive efforts the State of Missouri's Veterans 
Commission has made since March 2003 to create programs to support 
Guard, Reserve and injured Active Duty.
    The program directed by the State Veterans Ombudsman, Operation 
Outreach, has become a nationwide model for Best Business Practice.
    Five States, one country (Canada) and the Department of the Army 
(through their Army Community Covenant Program) are using this program 
as an example of Best Business Practices in creation of their support 
and outreach.
    Missouri has 540-560,000 Veterans, with 51,100 deployments since 
OEF, affecting over 225,000 family members. The Missouri National Guard 
currently has 1100 members deployed in support of the KFOR 10 mission, 
under the leadership of the Commanding General, Larry D. Kay, who also 
is the Deputy Director of the Missouri Veterans Commission when not on 
leave to support his military obligations.
    The State agency is a Title III agency, which does not report to a 
DOD agency and is a sister agency to the Missouri National Guard. 
Representatives from the Missouri Veterans Commission work laterally as 
well as drilling down in to the local communities and governments and 
up through the State, to the Department of Defense and the Veterans 
Administration.
    The following outlines the extensive outreach created thus far.
    Referrals between agencies occur daily, and over $2 million dollars 
have been coordinated to support Guard, Reserve and injured Active 
Duty.
    To mention a few successes, 45 families have been kept from 
homelessness, medical board cases have a 100% success rating in 
achieving a minimum of a 30% DOD medical discharge, so as to minimize 
the negative impact on receipt of VA benefits.
    The VA and the State of Missouri Veterans Commission has been 
working together on at least a bi-monthly basis to benefit Veterans and 
families from the Global War on Terror since 2004 on several individual 
issues facing America's newest Veterans. Weekly referrals are made via 
agency relationships.
    In 2003 a citizen in Missouri began a very recognized outreach 
program to support the Guard and Reserve military and their families as 
her Reservist daughter was deployed at a time when her husband was very 
injured. The daughter left a 13-month-old and a husband and the family 
recognized they were living what would be facing the injured returning 
from war.
    Missouri's Governor, Matt Blunt, and the legislature worked with 
the Executive Director of the Missouri Veterans Commission and the 
Missouri Association of Veterans Organizations to expand her efforts 
and brought her to the Missouri Veterans Commission as the first State 
Veterans Ombudsman in the United States.
    At this point, the program they developed has a strong relationship 
with all of the VA facilities in Missouri to support all components of 
the military, focused on the Veterans, military and families serving in 
the Global War on Terror. We are providing you a matrix defining the 
outreach to all branches and components as well as community and 
benevolent organizations.
    Most recently, at the suggestion of the Office of the Secretary of 
Defense, the Department of the Army has used this program as its 
nationwide Best Business Practices example to create its newly 
developed Army Community Covenant Program. Missouri's program is also 
being mirrored by five States and one country, Canada.
    In addition to the State Veterans Ombudsman working directly with 
the injured at time of initial injury at the medical facilities where 
she has had 100% success in advocating on behalf of the injured for at 
least a minimum of a 30 percent Medical Board rating and identifying 
gaps, the staff working in the Operation Outreach Program have now 
coordinated over $2 million in private grants as well as kept 45 
families from homelessness. The State Veterans Ombudsman and the 
Missouri Veterans Commission has been integral in the development of 
legislation and policy both nationally and statewide.
    This aggressive program is the oldest in the Nation and staff have 
assisted Troops, Veterans and families from over 30 States while 
continually identifying gaps and proposing potential solutions.
    VA OEF/OIF managers, social workers and PTSD clinics and polytrauma 
staff work regularly to coordinate resources through Missouri's program 
to benefit those at our facilities. Social Worker, Polytrauma Network 
Site, St. Louis, Erin Hullinger wrote to State Veterans Ombudsman Pat 
Rowe Kerr and said:

  ``I just wanted to write you to say thank you for all that you have 
    done for the veterans in our polytrauma program here in St. Louis. 
    The resources and financial assistance that you have connected my 
    patients with have been invaluable. We often see amazing 
    differences in our patients after severe financial stress is 
    relieved--it improves their stress/anxiety and allows them to 
    redirect their focus from dealing with financial problems to 
    dealing with their complex medical and psychological issues. Many 
    are even more compliant with treatments and recommendations after 
    this burden is lifted. I love to get the relieved and excited phone 
    calls from patients and spouses when the assistance comes in. These 
    injured young men and women have so much to deal with after they 
    come home, and finances often rise right to the top of the list. 
    The type of assistance you give also helps some of these patients 
    to be able to leave jobs that are grossly inappropriate for them 
    (physically and mentally), and pursue more appropriate, gainful 
    careers.
  You are invaluable to me and to my veterans. I think I have told you 
    before that I would have to completely change the way I assist with 
    resource referral (finances, SSD, housing, utilities, etc.) if you 
    were not doing what you do. I feel so fortunate (especially when 
    compared to my counterparts in other regions) to have your 
    commitment and support to helping our veterans. Thank you so much 
    for all you do, and I look forward to continuing to work with you 
    in the future!''
                State Missouri Veterans Commission (MVC)
Missouri State Veterans Ombudsman Program
                  comprehensive reintegration services
    *Created a specific outreach through the Missouri Veterans 
Commission called ``The State Veterans Ombudsman Program.''
    The initial goals were to reach as many Guard, Reserve and their 
families who deployed since 9/11 to (a) provide financial support in 
crises situations, (b) to develop relationships that would ultimately 
bring the injured in to the VA health, disability and pension system, 
with assisted access to state and local benefits and resources, which 
also provides an economic benefit to the communities of Missouri; (c) 
to identify gaps and propose solutions with the systems supporting 
Missouri's newest veterans; and (d) to raise awareness that the State 
of Missouri Veterans Commission is the only neutral point of contact 
for all branches and components.
    **Five States and one Country (Canada) are mirroring this program 
in some manner and the Department of the Army is using the Missouri 
Veterans Commission ``State Veterans Ombudsman Program Operation 
Outreach'' as the nationwide Best Business Practices in the creation of 
its new Army Community Covenant Program.
    Have developed outreach for over 3100 individual cases in 3 years, 
coordinating over $2 million in grant resources as well as keeping 45 
families from homelessness.
    The State Veterans Ombudsman Program Operation Outreach advocates, 
educates, coordinates resources and individually assists in navigating 
the complex DOD, Federal, state and local systems.
    To date, it has a 100% success rate in working DOD medical board 
cases to increase ratings to a minimum of at least 30% at discharge 
from the Department of Defense through the MEB/PEB system based upon 
review of medical records.
               to accomplish these outcomes, the program
    Develops and utilizes resources and assists in navigating Service 
Members, Veterans and Families toward optimal life solutions in 
transitioning to civilian environment
    Increased outreach to deploying and returning servicemembers and 
their families through Reserve, NG and Family Readiness Programs/
Briefings (have briefed thousands of NG, Reserve, injured Active Duty 
and families)
    Developed outline explaining DOD/VA/TSGLI/MED/PEB/Social Security 
Disability for educating injured.
    Increased support and connectivity with Ft. Leonard Wood to support 
Missouri's injured by:

    <bullet> Educating Medical Hold Commanders
    <bullet> Provide liaison support for injured/sick troops 
transferred from Ft. Leonard Wood to civilian medical facilities
    <bullet> Provide transitioning assistance to Guard, Reserve and 
injured Active Duty demobilizing through this facility and through the 
WTU
    <bullet> At the request of Ft. Leonard Wood WTU the Ombudsman meets 
almost monthly with the injured at the facility assessing needs, 
assisting with life care plans and decisionmaking, reviewing MED/PEB 
ratings, getting injured servicemembers in to additional Federal and 
systems that can benefit their families.
    <bullet> The Ombudsman has developed a relationship between Ft. 
Leonard Wood Medical Holdover and Rusk Rehabilitation Center to provide 
specialized care for Missouri's traumatic brain injured.

    Increased support and connectivity with Ft. Riley by:

    <bullet> Educating Medical Hold Commanders
    <bullet> Provide liaison support for injured/sick troops 
transferred from Ft. Riley to civilian environment
    <bullet> Provide transitioning assistance to Guard, Reserve and 
injured Active Duty demobilizing through this facility WTU

    Increased support and connectivity with Whiteman Air Force Base by:

    <bullet> Educating Commanders, returned Airmen/women and Family 
Readiness Groups
    <bullet> Provide liaison support for injured/sick/financially 
strapped Airmen/women
    <bullet> Provide transitioning assistance to Guard and Reserve 
demobilizing through this facility

    Increased support and connectivity with Fayetteville CBHCO-AR to 
support Missouri's injured.
    Welcome Home letters are sent individually from the Executive 
Director of the Missouri Veterans Commission as well as the Missouri 
National Guard Adjutant General with specific points of contacts listed 
as the respective agencies to National Guard servicemembers.
    Additionally, the Missouri Veterans Commission sends Welcome Home 
letters to all branches and components with POC information listed.
                               briefings
Weekend briefings
    Briefings are provided to Guard and Reserve of all components that 
can be scheduled relative to time, access and staff availability as 
well as to family readiness groups
Demobilization Briefings
    Presented to Reserve components prior to release from Active Duty 
Status as available
Medical Hold Briefings
    Given at regular intervals at WTU facilities, working specifically 
with the Reserve Component injured initially. Now Active Duty injured 
are referred to the State Veterans Ombudsman for advocacy, education 
and assistance as well relative to transition to civilian life.
Financial Assistance
    *Working with the Lt. Gov., created the Missouri Military Family 
Relief Fund (MMFRF) where Guard and Reserve can receive up to a 
$3000.00 grant as a result of financial difficulties relating to their 
deployment. Over $286,000 has been raised, with 100% of private 
donations or tax check-off contributions going to the Fund.
    With the leadership and support of the Lt. Gov. the State Veterans 
Ombudsman created and coordinates The Power of 11 Cents which is an 
academic outreach in the schools to educate children on patriotism. The 
program has been recognized in an article that appears in the National 
Honor Society's Leadership Magazine. To date over 7,800,000 pennies 
have been raised by children for the MMFRF through the school 
presentations.
    Created Trekking For Troops, along with a billboard campaign on the 
tax check-off, all of which raise dollars for the Missouri Military 
Family Relief Fund.
    <bullet> See (Comprehensive Reintegration Services) (Legislation) 
(other State Programs) relative to additional financial assistance.
Community Outreach, Education and Advocacy
    Developing support mechanisms within communities through events, 
Supermarkets of Veterans Benefits, and Support Your Troops Events.
    Working on coordinating a community and faith based conference as a 
follow-up to the first Intra-Agency State Veterans Conference.
            Freedom Walks
    Will host the second Freedom Walk for the Capitol city of Jefferson 
this September.
            Benevolent and community/Veteran Service Organization 
                    partnerships
    Appointed to the Boards of Operation Military Kid, the Brain Injury 
Association of Missouri. Serves as the ex officio member on behalf of 
the Missouri Veterans Commission to the Missouri Military Preparedness 
Enhancement Commission and on the advisory committee for the Missouri 
Military Family Relief Fund.
    Created an informal coalition of military donors that spans the 
United States and includes such 501(c)(3) organizations as USA Cares 
(www.usacares.us) out of Kentucky, Operation First Response 
(www.operationfirstresponse.org) out of Washington, DC, Wounded Soldier 
(www.woundedsoldier.org) out of Chicago, Operation Undergarment 
(www.operationundergarment.com) St. Louis, and the Coalition to Salute 
America's Heroes (www.saluteheroes.org) New York, OIF Family Fund 
(www.oiffamilyfund.org), California, to name a few. Works regularly 
with the VFW Unmet Needs Program (www.unmetneeds.org) located in Kansas 
City, Mark Cuban's Fallen Patriot Fund (www.fallenpatriot.org) in 
Dallas, Snowball Express (www.snowballexpress.org), California, Semper 
Fi Fund (www.semperfifund.org) as well as the American Legion's 
National Temporary Financial Assistance Program (TFA) grant, to name a 
few.
    As an example, The Ombudsman created Operation Save the Home, 
Operation On Spirit's Wings, Operation Children's Hearts, to assist 
with extreme extraordinary situations, raising over $30,000 in 
resources for each outreach.
State Intra-Agency Veterans Summit
    Coordinated to acquaint all state agencies with the Missouri 
Veterans Commission as well as to facilitate collaborations amongst 
agencies
            Traumatic Brain Injury
    Assisted with creating a State Action Plan for Traumatic Brain 
Injury in Missouri at the direction of the Governor working with the 
Missouri Head Injury Advisory Council, Governor's Council on 
Disabilities, Missouri Department of Health and Senior Services, Brain 
Injury Association of Missouri, Missouri Veterans Commission, Missouri 
Planning Council for Developmental Disabilities, Rehabilitation 
Institute of St. Louis, Missouri Protection and Advocacy Services, 
University of Missouri-Columbia, the Center for Head Injury Services, 
Missouri Association of Rehabilitation
            National presentations/testimonies
    <bullet> 89th RRC Battle Focus Conference, Kansas
    <bullet> Vietnam Veterans of America Winter Conference, Arizona
    <bullet> Brain Injury Association of Missouri Annual Conference, 
Missouri Veterans Commission
    <bullet> Coalition to Salute America's Heroes Road to Recovery 
Conferences, Texas, Florida--4 years--Life After War--It's About Making 
A Plan
    <bullet> Coalition to Salute America's Heroes Troop Recognition, 
Missouri
    <bullet> Wounded Soldiers Conference, Illinois
    <bullet> Congressional Subcommittee of the House of Representatives 
on Small Business, Washington, DC
    <bullet> The Joint Committee of the Missouri House and Senate on 
Veterans Affairs
    <bullet> Missouri State Veterans Commission's Accredited Veteran 
Service Officer Training
    <bullet> The Missouri Department of Economic Development's Annual 
training for Disabled Veterans Outreach Program (DVOPS) and Local 
Veterans Employment Representatives (LVERS)
    <bullet> The National Head Injury Association Annual Conference, 
Missouri
    <bullet> Naval Ombudsmen Family Programs, Missouri
    <bullet> Missouri Association for Social Welfare Conference, 
Missouri
    <bullet> Various community, civic and veteran service organizations 
statewide
    <bullet> Participated in the AMVET's National Symposium on the 
Needs of Returning Veterans, Chicago, Illinois
    <bullet> Attended the 15th Annual International Conference on 
Combat Stress at Camp Pendleton, California
    <bullet> Attended Department of Defense America Supports You Annual 
Conference in Washington, DC
    <bullet> Keynote Speaker at Tri-State Veterans Conference in 
Dubuque, IA
    <bullet> Keynote Speaker at Marine Parents Annual Conference in 
Washington DC and Missouri
    <bullet> Presented to the Head Injury Associations of Idaho, Oregon 
and Alaska by video conference
    <bullet> Presented at the Missouri Department of Mental Health 
CLAIM Training
    <bullet> Keynote Speaker at Fort Leonard Medical Hold and Dental 
Winter Ball
    <bullet> Presenter at Missouri Department of Mental Health Annual 
Conference
    <bullet> Presenter and Coordinator of Fisher House Donator Luncheon 
in St. Louis, MO
    <bullet> Presented at International Center for Psychosocial Trauma 
``Multiple Faces of Trauma: An Integrative Approach to Preparing 
communities--2008 14th Annual Conference, Missouri
    <bullet> NGB Family Readiness Summit (Washington, DC)--assist in 
developing new policy formation
    <bullet> Special Forces (Florida)--profiled Missouri's Operation 
Outreach Program and State Veterans Ombudsman position
    <bullet> National Guard Bureau--provided subject matter expert 
advice at Family Readiness Symposium, Washington, DC
    <bullet> National Association of State Departments of Veterans 
Affairs--presented Power Point and provided best business practices 
regarding development of Operation Outreach Program and creation of a 
State Veterans Ombudsman position at Mid-Winter Conference, Washington, 
DC
    <bullet> Presented subject matter information at the Missouri State 
Social Workers Conference in Columbia--The True Welcome Home
    <bullet> Presented subject matter information to the Department of 
the Navy Ombudsmen at the regional ombudsmen training in St. Louis
    <bullet> Developed ``Life After War--It's About Making A Plan'' 
booklet
    <bullet> Coordinated ``A Grateful Nation Remembers'' legislative 
recognition, ``75th Missouri Veterans Commission Anniversary 
Celebration and the 9th Support Your Troops Event outreach
    <bullet> Provided support for the State Women Veterans National 
Conference, Branson, Missouri, May 2007
State/national outreach/awareness
    Prepared and submitted testimony to a VA Committee re GWOT gaps/
solutions
    Prepared and submitted testimony to the Presidential Task Force on 
OEF/OIF issues
    Provided education support relative to GWOT legislation for the 
Missouri Association of Veterans Organizations (MAVO)
    Provided support to Missouri Military Preparedness Enhancement 
Commission
    Created a Power Point outlining development of Operation Outreach 
Program which has then been used as a prototype for other programs
    Created one-pager relative to Operation Outreach which was used as 
prototype for other MVC programs
    Prepared and supported grant proposal presented to Senator 
McCaskill re GWOT/Veterans' needs
    Participated in the development of a liaison between Mental Health, 
MVC, and VA
    Wrote the initial white papers that supported the Joint House and 
Senate Committee on Veterans Affairs and the more recent Governor's 
Advisory Council
    The Ombudsman has been integral in providing information to support 
the passage of several bills benefiting veterans and servicemembers to 
include the Missouri Military Family Relief Fund. A bonus of the 
efforts of the Ombudsman has been coordinating financial assistance for 
prior service veterans.
    Additionally, the Ombudsman has been asked to serve on the new 
American Legion, Army Wounded Warrior 2 ``Hometown Heroes'' initiative 
to assist the extremely injured transition back to their communities.
    The State Veterans Ombudsman has been contacted by servicemembers, 
new veterans or their families from some 30 states with questions 
relative to programs created within Operation Outreach. She 
participated in the development of the statewide Traumatic Brain Injury 
plan with the Department of Health and Senior Services.
    The Ombudsman creates programs that raise awareness not only of the 
needs of GWOT veterans but increases the awareness of prior service 
veterans about their Federal benefits along with benefits from the 
Missouri Veterans Commission. She speaks to organizations representing 
them as well and has been invited to speak to national organizations on 
ways to assist prior service veterans.
Additional MVC Specialty Programs for Outreach
    The Missouri Veterans Commission has also created: Women's Veterans 
Program, Minority veterans program, Reintegration Program.
    Additional Accredited Veterans Service Officers have been added 
throughout the state as well as increased budget for Missouri Veterans 
Commissions Veterans Homes.
    The Veterans Service Grant Program funding has been increased to $1 
million to provide additional support to Veterans Service Organizations 
who have Accredited Veterans Service Officers.
Memorandum of Understanding
    Created on how state agencies (MVC, DOL) and the National Guard can 
provide services to returning Troops and their families
                       additional state programs
Education/Scholarships (Also see legislation and other programs)
    Hero At Home Program (DED) Available to spouses of Guard and 
Reserve who are deployed and extends the program to cover the first 
year after discharge from deployment, to cover Reservists, and to cover 
situations in which an individual cannot return to his or her previous 
employment;
    Missouri Returning Heroes Education Act (Higher Education) (creates 
a $50 tuition per credit hour limit for combat veterans who have served 
since September 11, 2001)
    Injured and dependent Scholarships Allows the spouse and children 
of a soldier who was killed in action after September 11, 2001, or who 
became 80% disabled as the result of an injury sustained in combat 
action after September 11, 2001, to receive an educational grant for 
tuition at a public or private college or university in Missouri. The 
Coordinating Board of Higher Education will award up to 25 grants 
annually. If the waiting list of eligible survivors exceeds 50, the 
board can ask the General Assembly to increase the number of grants it 
is authorized to award. The tuition grant cannot exceed what is charged 
for a resident by the University of Missouri-Columbia.
    The Veteran must have been a Missouri resident when first entering 
military service or at the time of death in order for his or her 
survivors to receive this grant. In addition to the full cost of 
tuition, the grant includes $2,000 per semester for room and board and 
the actual cost of books up to $500 per semester. Children are eligible 
to receive the scholarship until age 25. Spouses are eligible until age 
45. No eligible student will receive a grant for more than 100% of the 
tuition costs when combined with other similar funds given to the 
student;
Employment
    Veteran's preference for consideration in employment with the State 
of Missouri and Federal agencies
    (Also see Hero At Home Program)
Dept. of Mental Health/PTSD
    Additional dollars have been added to the Department of Mental 
Health's budget to provide counseling to families of GWOT Veterans at 
provider networks throughout the state.
    Additional general revenue dollars have been allocated for PTSD 
outreach through St. Patrick's Center, St. Louis, Missouri.
    Governors Advisory Council for Veterans Affairs which identifies 
the needs of Missouri's aging Veteran population, develop strategies 
for improving the delivery of services, increase services to and 
awareness about the number of women veterans in Missouri and promote 
Missouri as a ``military friendly state''
Missouri Military Preparedness Enhancement Commission
    The Missouri Military Preparedness and Enhancement Commission was 
established in 2005 when Governor Matt Blunt signed Senate Bill 252 
into law.
    The Commission is tasked with making recommendations regarding 
community relations and interstate cooperation on military issues. The 
Commission will also serve as a clearinghouse for information regarding 
Federal actions affecting military installations and their potential 
impact on the state and local communities.
Conservation
    Free hunting and fishing permits for Veterans with 60% or more VA 
disability rating
    Reduced price hunting and fishing permits for Missouri Veterans who 
mobilized in the previous 12 months.
Department of Revenue
    Waiver of Missouri CDL driving examination requirement with 
military CDL certification (other conditions apply)
Missouri Army and Air National Guard
    Have created additional programs to support families and military
Legislation passed to Support GWOT Servicemembers, Veterans and their 
        families (highlights for GWOT)
SS HB 1687 (some of the provisions)
    Allows a military dependent who has completed an accredited 
prekindergarten or kindergarten program in another state to enter 
kindergarten or first grade even if the child has not reached the 
required age for Missouri schools by August 1;
    Authorizes the State Board of Education to develop recommendations 
regarding alternate assessments for military dependents who relocate to 
Missouri during the school year;
    Requires the state board to establish a rule to allow the issuance 
of a provisional teacher's certificate before the completion of a 
background check to the spouse of a military member who holds a 
teacher's certificate in another state that requires a background check 
and who has relocated within the last year;
    Allows school districts to accept a course in government completed 
in another state when a student transfers to a Missouri high school in 
ninth to twelfth grade to satisfy the state's graduation requirement;
    Allows the spouse and children of a soldier who was killed in 
action after September 11, 2001, or who became 80% disabled as the 
result of an injury sustained in combat action after September 11, 
2001, to receive an educational grant for tuition at a public or 
private college or university in Missouri. The Coordinating Board of 
Higher Education will award up to 25 grants annually. If the waiting 
list of eligible survivors exceeds 50, the board can ask the General 
Assembly to increase the number of grants it is authorized to award. 
The tuition grant cannot exceed what is charged for a resident by the 
University of Missouri-Columbia.
    The veteran must have been a Missouri resident when first entering 
military service or at the time of death in order for his or her 
survivors to receive this grant. In addition to the full cost of 
tuition, the grant includes $2,000 per semester for room and board and 
the actual cost of books up to $500 per semester. Children are eligible 
to receive the scholarship until age 25. Spouses are eligible until age 
45. No eligible student will receive a grant for more than 100% of the 
tuition costs when combined with other similar funds given to the 
student;
    Renames the Guard at Home Program to the Hero at Home Program and 
extends the program to cover the first year after discharge from 
deployment, to cover reservists, and to cover situations in which an 
individual cannot return to his or her previous employment;
    Specifies that military service and out-of-state employment, by 
itself, is not sufficient to justify a modification of a child custody 
or visitation order; and authorizes Missouri to enter into the 
Interstate Compact on Educational Opportunity for Military Children and 
establishes the Interstate Commission on Educational Opportunity for 
Military Children. The compact becomes effective upon its adoption by 
10 states. Military children include the kindergarten through twelfth-
grade children of active duty members of the Armed Services including 
the National Guard and the Reserve, as well as the children of members 
who die while on active duty, retire, or are medically discharged for a 
period of 1 year afterward. The compact covers issues including 
facilitation of enrollment, both in classes and extracurricular 
activities; placement; graduation; and information-sharing. The 
commission is made up of one voting member from each participating 
state. The duties of the commission include dispute resolution between 
member states, enforcing the rules of the commission, and providing 
training and other administrative functions. The bill contains 
provisions for the formation of the commission's executive committee, 
budget, liability, and legal status.
    SB 830--tuition limitation bill for combat veterans serving since 
September 11, 2001 to $50 per credit hour at state institutions

    <bullet> Secretary of State is to waive reinstatement fees and 
procedures in the event a corporation was administratively dissolved 
due to a failure to file an annual registration report when the failure 
was due to the business owner's active military service. All late fees 
are waived, and certificate of dissolution is canceled and corporation 
is reinstated.
    <bullet> Enacted legislation allowing a homeless Veteran to use the 
post office box or voice mail address of certain charitable or 
religious organizations on applications for Federal or state assistance 
by agreement.
    <bullet> Enacted legislation exempting a person who presents proof 
of permanent disability from the United States Veterans Administration 
from the 4-year certification requirement for renewal of disabled 
license plates or placards.
    <bullet> Created the ``Veterans' Historical Education Fund''
    <bullet> Enacted legislation giving a preference in all state 
purchasing contracts to certain disabled Veterans doing business as 
Missouri companies when the quality of work is equal or better and the 
price is the same or less
    <bullet> Enacted the ``Specialist Edward Lee Myers'' law to protect 
families from funeral protests
    <bullet> Enacted legislation requiring all government buildings to 
fly the U.S. and Missouri flags at half-staff when any Missouri 
resident is killed in combat
    <bullet> Increased funding for Veterans Homes, Veterans Service 
Grant Program, Dept of Mental Health outreach on PTSD
    <bullet> Created a ``Some Gave All'' license plate for family 
members of KIA (see Dept of Rev)
  

                                  <all>

</pre></body></html>
